<html>
<title> - LEGISLATIVE HEARING ON H.R., TO AMEND THE FEDERAL LANDS RECREATION ENHANCEMENT ACT TO IMPROVE CONSISTENCY AND ACCOUNTABILITY IN THE COLLECTION AND EXPENDITURE OF FEDERAL RECREATION FEES, AND FOR OTHER PURPOSES, ``FEDERAL LANDS RECREATION ENHANCEMENT ACT''; H.R. 2743, TO MAKE THE NATIONAL PARKS AND FEDERAL RECREATIONAL LANDS PASS AVAILABLE AT A DISCOUNT TO CERTAIN VETERANS, ``VETERANS EAGLE PARKS PASS ACT''; AND H.R. 3976, TO PROVIDE FOR A LIFETIME NATIONAL RECREATIONAL PASS FOR ANY VETERAN WITH A SERVICE-CONNECTED DISABILITY, AND FOR OTHER PURPOSES, ``WOUNDED VETERANS RECREATION ACT''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 H.R. ____, ``FEDERAL LANDS RECREATION ENHANCEMENT ACT''; H.R. 2743, 
 ``VETERANS EAGLE PARKS PASS ACT''; AND H.R. 3976, ``WOUNDED VETERANS 
                           RECREATION ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Friday, April 4, 2014

                               __________

                           Serial No. 113-68

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-533 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
 
 
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Rauul R. Labrador, ID                Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Rauul R. Labrador, ID                Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Jared Huffman, CA
Jason T. Smith, MO                   Vacancy
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio

                                 ------       
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, April 4, 2014............................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     2
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................     4
    Grijalva, Hon. Rauul, a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     3
    Nugent, Hon. Richard B., a Representative in Congress from 
      the State of Florida.......................................     4
        Prepared statement of....................................     5
    Ruiz, Hon. Raul, a Representative in Congress from the State 
      of California..............................................     6

Statement of Witnesses:
    Bannon, Aaron, Environmental Stewardship and Sustainability 
      Director, National Outdoor Leadership School...............    29
        Prepared statement of....................................    31
    Benzar, Kitty, President, Western Slope No-Fee Coalition.....    67
        Prepared statement of....................................    69
    Brown, David, Executive Director, America Outdoors 
      Association................................................    24
        Prepared statement of....................................    25
    Crandall, Derrick, President, American Recreation Coalition..    63
        Prepared statement of....................................    64
    Davidson, Todd, Chief Executive Officer, Travel Oregon.......    48
        Prepared statement of....................................    50
    Haze, Pam, Deputy Assistant Secretary for Budget, Finance, 
      Performance, and Acquisition, Department of the Interior...    16
        Prepared statement of....................................    17
    Merrill, Brian I., Western River Expeditions, Moab Adventure 
      Center.....................................................    20
        Prepared statement of....................................    22
    Pemmerl, Elizabeth, President, NIC Technologies..............    52
        Prepared statement of....................................    53
    Reppenhagen, Garett, Coordinator, Rocky Mountain West, Vet 
      Voice Foundation...........................................     7
        Prepared statement of....................................     9
    Terrell, Jack, Senior Project Manager, National Off-Highway 
      Vehicle Conservation Council...............................    45
        Prepared statement of....................................    47
    Weldon, Leslie, Deputy Chief, U.S. Forest Service, Department 
      of Agriculture.............................................    11
        Prepared statement of....................................    13

Additional Material Submitted for the Record:
    American Alpine Club Northwest Region, et al., Letter 
      submitted for the record...................................    93
    American Aviation, Inc., Letter submitted for the record.....    44
    American Hiking Society, Letter submitted for the record.....    96
    American Trails, Letter submitted for the record.............    97
    Association for Experiential Education, Letter submitted for 
      the record.................................................    97
    Association of Outdoor Recreation and Education, et al., 
      Letter submitted for the record............................    98
    Coalition for Recreation Enhancement on Federal Lands, Letter 
      submitted for the record...................................   103
    National Forest Recreation Association, Prepared statement of    88
    Outdoor Alliance, Letter submitted for the record............   106
    The Wilderness Society, Letter submitted for the record......   113
                                     


 
LEGISLATIVE HEARING ON H.R. ____, TO AMEND THE FEDERAL LANDS RECREATION 
   ENHANCEMENT ACT TO IMPROVE CONSISTENCY AND ACCOUNTABILITY IN THE 
 COLLECTION AND EXPENDITURE OF FEDERAL RECREATION FEES, AND FOR OTHER 
 PURPOSES, ``FEDERAL LANDS RECREATION ENHANCEMENT ACT''; H.R. 2743, TO 
 MAKE THE NATIONAL PARKS AND FEDERAL RECREATIONAL LANDS PASS AVAILABLE 
 AT A DISCOUNT TO CERTAIN VETERANS, ``VETERANS EAGLE PARKS PASS ACT''; 
AND H.R. 3976, TO PROVIDE FOR A LIFETIME NATIONAL RECREATIONAL PASS FOR 
    ANY VETERAN WITH A SERVICE-CONNECTED DISABILITY, AND FOR OTHER 
             PURPOSES, ``WOUNDED VETERANS RECREATION ACT''

                              ----------                              


                         Friday, April 4, 2014

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 9:07 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Lummis, Tipton, Daines, 
LaMalfa; Grijalva, Garcia, and DeFazio.
    Also Present: Representatives Nugent, Mullin; and Ruiz.
    Mr. Bishop. This committee is called to order. We have 
presence of a quorum. Under the Rules, opening statements are 
limited to the Chairman and Ranking Member. However, I ask 
unanimous consent to include any other Members' opening 
statements into the hearing record, if submitted to the clerk 
by the close of business today.
    [No response.]
    Mr. Bishop. Hearing no objections, that is ordered.
    I want to welcome our colleagues here who are here to 
testify to two bills: Mr. Nugent, Mr. Ruiz, who are here. These 
bills you are going to hear are discussing--Mr. Nugent has one 
to make the National Parks and Federal Recreational Lands Pass 
available at a discount to veterans. Mr. Ruiz's bill is to 
provide a lifetime National Recreational Pass for veterans with 
service-connected disability.
    We are also going to be talking about a draft of 
reauthorization of the Federal Lands Recreation Enhancement 
Act.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. To save time, because we are going to have 
votes here, I am going to submit my statement to the record. We 
will discuss the H.R. 2743 and H.R. 3976 first in here, then we 
will go to the FLREA issue.
    My statement is really great, so I hope you read it at some 
time.
    When we come to FLREA, I just want to say this in 
preference to FLREA. Often times, when we have hearings on 
bills, it is the bill that we want--with which we will go 
forward. The FLREA draft that you have seen is not the final 
version of the bill that will go forward. The purpose for this 
hearing is actually to get a lot of ideas that we can then go 
back and reincorporate into a final version.
    So, this is going to change. It will deal with the concept 
of fees, which is a practice that goes back 100 years in this 
country to 1914, another of those archaic laws that we have. 
But there are only three reasons for having fees. Either it is 
a sleazy way of getting revenue in place of taxes, in which 
case the amount you generate is the most important element. Or, 
it becomes some kind of user element, in which case the 
distribution and how those fees are used becomes the most 
significant element. Or, it is some kind of way of using a 
market force to try and drive decisions on where we actually 
place our resources.
    So, we are going to talk about that philosophy, but then I 
want to have specifics. Those who are testifying will have a 
chance to have specifics. Also, we are going to hold open the 
ability of people to send other ideas to us, because we have a 
lot of work still to do on this particular bill.
    [The prepared statement of Mr. Bishop follows:]
 Prepared Statement of the Hon. Rob Bishop, Chairman, Subcommittee on 
               Public Lands and Environmental Regulation
    Today we will be considering three bills. Two that would provide 
discount passes for our Nation's veterans and a discussion draft for 
the reauthorization of the Federal Lands Recreation Enhancement Act 
(FLUH-REE-AH, in government-speak) which expires next year.
    FLREA is the program that authorizes the National Park Service, the 
Fish and Wildlife Service, BLM, the Bureau of Reclamation, and the 
Forest Service to charge fees at developed recreation facilities on 
Federal lands and waters when special services are provided. The 
agencies can then retain and spend the revenue from fees with most of 
the money retained at the collection site.
    FLREA also authorizes the sale of nation-wide passes including the 
discount passes that would be authorized by H.R. 2743 and H.R. 3976.
    Charging fees on the public lands is a complicated issue that 
Congress has been dealing with since 1914 when the first automobile fee 
was charged at Mount Rainer. America's vast system of public lands can, 
if managed wisely, provide our country with a great abundance of 
outdoor recreation, wildlife habitat, energy, minerals timber and food. 
But to obtain these benefits our Federal land managing agencies must 
stop thinking they are like the Sheriff of Nottingham whose job it was 
to keep people from entering the King's Forest.
    Each year we in Congress appropriate billions of dollars collected 
from the already overburdened taxpayer to pay for visitor access, 
safety, services, and maintenance on our public lands. To encourage 
additional visitor facilities we also allow the agencies to charge 
FLREA fees in certain circumstances.
    There are differences of opinion as to how these fees should be 
paid. Some believes that access to all public lands should generally be 
free, that the full cost of the managing these lands should be paid 
entirely by the general taxpayer. Others argue that the people who 
actually use these lands should pay, through entrance and user fees, a 
greater share than the taxpayers who may never choose to visit these 
places.
    The goal of the discussion draft is to hear suggestions from the 
interested public and the agencies on what changes should be made in 
the program.
    Today we will hear from witnesses who represent the Federal 
agencies that administer FLREA as well those who have proposals for 
reforms of the program.
    Several important issues need to be addressed.

    <bullet> There is the fundamental question of where, when and who 
            should be charged? Is the system of fees that we have now 
            fair?
    <bullet> How do we ensure that the public has ample opportunity to 
            participate in determining where fees are charged and what 
            the rates are?
    <bullet> How should fee revenue be used? What should Congress do to 
            ensure that the agencies are accounting for the revenue? 
            The agencies cannot expect public support for the fee 
            program if they do not know how the fees are being used.
    <bullet> Outfitters and guides and other private organizations 
            provide outstanding opportunities for visitors to get out 
            and experience our public lands, but right now the 
            bureaucracy and permit limitations are pushing these often 
            small, family-run companies to the edge of extinction. What 
            steps can congress take to ensure that these small 
            businesses are able to thrive and continue to make 
            recreation experiences available to a wide audience?

    These are just a few of the questions this subcommittee will need 
to consider as part of any FLREA extension.
    The authorization for FLREA expires in December of 2015, but 
because some of the activities allowed under the act are multi-year, it 
is best for us to act well before the expiration date. Before we extend 
the program, however, we need to see what we can learn from the 
successes and failures of the current and past programs. In doing so, I 
want the agencies to come to realize that when the American people 
enter public land, they are not trespassing.
    Let us then begin the hearing. I look forward to hearing from 
today's witnesses.

                                 ______
                                 
    Mr. Bishop. With that, I will yield--I will finish my 
opening statement, and I will turn to Mr. Grijalva for an 
opening statement.

   STATEMENT OF THE HON. RAUUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Following the cue, I will submit my statement 
for the record.
    Thank you, Mr. Chairman, for holding this important 
meeting, and thank Ranking Member DeFazio for his valuable 
input into the discussion we are having today.
    [The prepared statement of Mr. Grijalva follows:]
    Prepared Statement of the Hon. Rauul Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation
    I would like to thank Chairman Bishop for holding this important 
hearing today and thank Ranking Member DeFazio for his valuable input 
in the discussion.
    Since the passage of the Federal Lands Recreation Enhancement Act, 
the collection of fees to recreate on public lands has at times been 
very controversial. Some believe that we should not charge entrance 
fees for our public lands at all, and others believe it is important 
for public land managers to be able to collect fees to provide enhanced 
services to those who visit our Nation's public lands.
    I witnessed the controversial nature of fees first-hand in my home 
State of Arizona. Fees established by the Forest Service for parking on 
the Mt. Lemon highway became hugely contentious.
    Arguing that the Forest Service was illegally charging fees, a 
group of local citizens sued the Forest Service and won. The court 
found that the Federal Lands Recreation Enhancement Act doesn't let the 
Forest Service charge people for parking, hiking or using any land that 
doesn't have some physical structure.
    Although I believe it is important for the agencies to be able to 
collect fees to off-set dwindling appropriations for our Nation's 
public lands, I do not believe that collecting fees to recreate on our 
Nation's public lands is the silver bullet to solve the maintenance 
backlog and is the long-term solution to our budget constraints.
    So I am eager to hear from today's witnesses to see what middle-
ground we can find to ensure that reauthorization of the Federal Lands 
Recreation Enhancement Act can strike a balance for everyone, and see 
if this fee program is working to enhance recreation on our public 
lands.
    I'm eager to hear from our witnesses and again want to thank the 
Chairman for holding this important hearing and yield back the balance 
of my time.

                                 ______
                                 

    Mr. Grijalva. With that, I yield back.
    Mr. Bishop. Thank you. Mr. DeFazio, do you have a statement 
you wish to make?

   STATEMENT OF THE HON. PETER DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Mr. Chairman, you have created such a great 
example early in the morning here, that I will also forego the 
opening statement. I did like--out of your three reasons for 
fees, number two is the one I would circle and choose.
    [Laughter.]
    Mr. DeFazio. So, anyway, I am looking forward to the 
information received today. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. With that, we are going to turn to 
the first of the two bills that are in front of us. I would 
like to ask the sponsors of those two bills, if they have a 
statement they would like to make with us.
    So I will first go with H.R. 2743, Mr. Nugent, then I will 
turn to Mr. Ruiz for H.R. 3976. Then, while we are playing with 
this game, I would like Mr. Reppenhagen, if you would talk on 
these bills, we will open it up for questions at that point.
    Ms. Weldon, Ms. Haze, I think you are here on everything. 
So I am going to hold you until we bring up the second panel, 
and you can give the Administration's opinion on all three 
issues.
    OK. So, we are trying to expedite this, which is what I 
usually don't do.
    But, Mr. Nugent, you are recognized to introduce your bill. 
Thank you for being here with us, by the way.

 STATEMENT OF THE HON. RICHARD B. NUGENT, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Nugent. Thank you, Mr. Chairman and Ranking Member and 
other members of the committee. Thanks for inviting me and 
affording me this opportunity to testify in support of my bill, 
the ``Veterans Eagle Parks Pass Act.''
    Last May, my constituent, one of my constituents, David 
Shulbert, brought to my attention that senior citizens are 
eligible for a $10 lifetime pass to more than 2,000 recreation 
sites across the country, but our Nation's veterans are not. 
Furthermore, active duty military personnel and their 
dependents are eligible for free annual admission to any 
national park that charges an entrance or standard amenity 
fees. My constituent simply asked, ``Don't our veterans deserve 
the same? '' Mr. Chairman, I happen to agree with my 
constituent on this issue.
    Our Nation's veterans have made tremendous sacrifices in 
defense of our freedom. If it weren't for these brave men and 
women, we wouldn't be here, sitting here today, having 
discussions about this particular issue or any issue. The 
Veterans Eagle Parks Pass would allow honorably discharged 
veterans providing their DD214's the freedom to purchase a 
lifetime national park pass for Federal and recreational lands 
for $10. The DD214 is a certificate of release or discharge 
from active duty, and that issue of service member's 
retirement, separation, or discharge.
    Upon introducing this bill, I was pleased to learn that at 
least 80 percent of the revenue collected at these sites stay 
at those sites, providing agencies flexibility, and enabling 
them to directly address visitor and site needs. By offering a 
$10 pass instead of a free pass, recreational sites will still 
be able to collect much-needed revenue. Frankly, Mr. Chairman, 
if the committee finds a different dollar amount is more 
sensible, I would defer to you in that aspect.
    Recreation sites throughout our country bring families 
together. I know that some of my finest memories include my 
years growing up and my dad and folks taking us to national 
parks, but also my taking my sons to those same national parks. 
So--let's not forget about the impact recreational sites have 
on our local economies. Tourism has been a great potential to 
foster economic growth and create jobs.
    Before concluding, I would like to take a moment to 
recognize my colleague from California, Mr. Ruiz. I applaud the 
gentleman's efforts to provide a lifetime pass to our service-
connected disabled veterans, and I hope we can collaborate in 
the future. I happen to have three sons that currently serve 
this country in the U.S. Army. So I am certainly indebted to 
them.
    So, we are all indeed indebted to our veterans for their 
honorable and heroic service. The Veterans Eagle Parks Pass 
Act, I hope we can honor the service with a discount to the 
land they helped defend.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Nugent follows:]
 Prepared Statement of the Hon. Richard B. Nugent, a Representative in 
            Congress from the State of Florida on H.R. 2743
    Good morning Mr. Chairman, Ranking Member and members of the 
committee. Thank you for inviting me here and affording me the 
opportunity to testify in support of my bill, the Veterans Eagle Parks 
Pass Act.
    Last May, my constituent, David Chilbert, brought it to my 
attention that senior citizens are eligible for a $10 dollar lifetime 
pass to more than 2,000 recreation sites across the country, but our 
Nation's veterans are not. Furthermore, active duty military personnel 
and their dependents are eligible for free annual admission to any 
National Park that charges entrance or standard amenity fees. My 
constituent simply asked, ``Don't our veterans deserve the same?'' Mr. 
Chairman, I agree with my constituent.
    Our Nation's veterans have made tremendous sacrifices in defense of 
our freedom. If it weren't for those brave men and women, we wouldn't 
be sitting here today having this hearing.
    The Veterans Eagle Parks Pass Act would allow honorably discharged 
veterans--upon providing their DD214--the freedom to purchase a 
lifetime National Parks and Federal Recreational Lands Pass for $10. 
The DD214 is a certificate of release or discharge from active duty 
that is issued at a service member's retirement, separation or 
discharge.
    Upon introducing this bill, I was pleased to learn that at least 80 
percent of the revenue collected at sites stay at those sites, 
providing agencies flexibility and enabling them to directly address 
visitor and site needs. By offering a $10 pass instead of a free pass, 
recreation sites will still be able to collect much needed revenue. 
Frankly, Mr. Chairman, if the committee finds that a different dollar 
amount is more sensible, I would defer to you on that aspect.
    Recreation sites throughout our county bring families together. I 
know some of my fondest memories include teaching my sons about the 
great outdoors. We must also not forget about the impact recreation 
sites have on local economies. Tourism has the great potential to 
foster economic growth and create jobs for Americans.
    Before concluding, I would like to take a moment to recognize my 
colleague from California, Mr. Ruiz. I applaud the gentlemen's efforts 
to provide a lifetime pass to service-connected disabled veterans and I 
hope we can collaborate in the future.
    We are all indebted to our veterans for their honorable and heroic 
service. With the Veterans Eagle Parks Pass Act I hope we can honor 
their service with a discount to the land they helped defend.

                                 ______
                                 

    Mr. Bishop. Thank you, Sheriff. I appreciate that. 
Appreciate your testimony. You have the option of staying here 
with us and hearing the rest of the testimony on your bill and 
others. If you have other appointments, I realize that, and I 
will be terribly offended if you leave, but I recognize----
    Mr. Nugent. As you know, we have a rule on the Floor right 
now, which I need to go testify on, Mr. Chairman. We were at 
the Rules Committee last night together. So if you don't mind, 
I would----
    Mr. Bishop. Sure, have a good reason for it.
    [Laughter.]
    Mr. Bishop. Thank you. I appreciate that. We will now turn 
to Mr. Ruiz, if you would like to introduce H.R. 3976, please.

 STATEMENT OF THE HON. RAUL RUIZ, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Dr. Ruiz. Yes, sir. Thank you, Mr. Chairman, Ranking 
Member, and all members of this committee, for holding this 
legislative hearing. Before Congressman Nugent leaves, I want 
to say thank you for your bill. It is a very good bill. I will 
take you up on the offer to partner and continue to serve our 
veterans.
    The bills we will be discussing today serve as a testament 
to our committee's dedication to preserving veterans' access to 
national parks. I thank the Chairman for including my bill, 
H.R. 3976, the Wounded Veterans Recreation Act, in the 
legislative hearing today. My bill honors the service of our 
Nation's veterans by ensuring that disabled veterans have the 
opportunity to enjoy and visit America's national parks at no 
cost.
    National parks give our veterans the opportunity to connect 
with nature and to exercise, which leads to better spiritual, 
mental, and physical health. I am an emergency medicine 
physician, and I often times see individuals post-trauma, 
whether in civilian or sometimes coming in with disabilities 
from their service. There is a strong want for connect, for 
living their life the way they had before they were injured or 
wounded. It is not only medicine to the body, but also medicine 
to the mind and medicine to the soul to be able to go visit 
those same national parks that they have defended our country 
and defended with their service.
    These national parks also preserve and commemorate our 
heritage, ideals, and the sacred sites that American service 
members have defended since the founding of our great Nation. 
The service of our Nation's veterans past and present is the 
centerpiece of many of our national parks. This bipartisan bill 
will ensure disabled veterans have the opportunity to enjoy and 
frequent these sites.
    I would like to thank Mr. Garett Reppenhagen, a veteran and 
program director with the Vet Voice Foundation, for traveling 
here today to share his story about the importance of nature 
when transitioning back to civilian life, and also Mr. Mark 
Star, a veteran and program director with the Vet Voice 
Foundation from southern California. I also want to thank the 
VSOs, my veterans advisory group, and the veterans in my 
district for their input. This is really their creation.
    I appreciate the Chairman's willingness to include this 
bill in today's legislative hearing, and I look forward to 
working together to move this legislation forward.
    Thank you all, and I yield back my time.
    Mr. Bishop. I thank the gentleman from California for his 
testimony. We will make the same offer to you, as well. You may 
stay here as long as you wish. I appreciate it if you did, but 
if you have other obligations, we understand that as well. 
Thank you.
    Let me turn to Mr.--and the name is Reppenhagen----
    Mr. Reppenhagen. That is correct.
    Mr. Bishop [continuing]. Is that correct--who is 
coordinator of the Rocky Mountain West, Vet Voice Foundation, 
to testify on either of these or both of these two pieces of 
legislation.
    If you have not been here before and--recognize that you 
have 5 minutes in which to speak. Anything, obviously, you have 
written will be part of the record. This is the oral 
presentation. So when the green light is on you are in great 
shape. When the yellow light hits you have 1 minute to finish. 
When the red, you are dead. OK.
    [Laughter.]
    Mr. Bishop. So, please, we will recognize you, appreciate 
you being here. We recognize you.

 STATEMENT OF GARETT REPPENHAGEN, COORDINATOR, ROCKY MOUNTAIN 
                   WEST, VET VOICE FOUNDATION

    Mr. Reppenhagen. Thank you, Chairman Bishop. Thank you, 
members of the subcommittee. As said, my name is Garett 
Reppenhagen. I am the program director of Vet Voice Foundation.
    Vet Voice Foundation is a 501(c)(3) non-partisan, non-
profit organization. One of our chief campaigns is to get 
veterans into the outdoors. We have already recognized the fact 
that veterans benefit from the healing nature of our outdoors 
areas. Our public lands are the best access for veterans to 
receive that therapy.
    Second of all, we also provide protection for our natural 
wonders. We see, as a continued service to our country, coming 
back and defending the lands that we love, and making sure that 
they are preserved, as well.
    To begin, I would like to tell you a little bit of my 
personal story. Both of my grandfathers served in World War II. 
My father's father was a Marine Corps veteran that served in 
Europe, and my mother's father was in the Navy and served in 
the Pacific. My own father served in Vietnam. He enlisted as a 
U.S. Army engineer, served one tour in Vietnam, completed 20 
years of active duty, and retired. He passed away 1 year after 
he retired of Agent Orange-related cancer.
    So, my family has a strong tradition of serving in the 
military, and I learned going into the outdoors was an 
important way to share the bonds with my family, to reconnect, 
to grow, without the distractions of television and shopping 
malls. An ability to speak father-to-son in an outdoor setting 
is an incredible, impactful experience. That is how I learned 
to enjoy the outdoors.
    I, myself, joined as a cavalry scout in the U.S. Army 1 
month before September 11. I went to Kosovo for a 9-month 
peacekeeping mission with the 1st Infantry Division, was 
selected to sniper school. I finished second in my class in the 
Special Forces Army Interdiction Target School. Then I went to 
1 year of service in Iraq. I served in a brigade sniper team on 
counter-IED, counter-mortar missions. I conducted over 160 
combat operations without the use of an armored military 
vehicle. Many of those were on foot, climbing over our own 
wall, going up to 2 kilometers away on foot to sniper positions 
to overwatch roads. I was in countless amounts of combat 
situations and survived dozens of ambushes.
    To say the least, I had come home with post-traumatic 
stress disorder. I suffered from intrusive thoughts, hyper-
vigilance, anxiety, troubled sleep, aversion to crowded areas, 
depression, relationship issues. If it wasn't for my ability 
and my knowledge to go out into our public lands and enjoy 
nature, I probably wouldn't be sitting here today. The recovery 
that I personally experienced in our outdoors was incredible. 
It allowed me to transition back on a time of my choosing, and 
I was able to find peace of mind in the serenity of our 
outdoors.
    So, not only do I know from personal experience that the 
outdoors can benefit me spiritually, emotionally, and 
physically, there has also been a study by the University of 
Michigan, a mental health study in 2013, that shows that 
veterans participating in extended outdoor recreation 
activities show signs of improved mental health. Some of the 
most serious mental health problems have benefited the most 
from outdoor experiences.
    Right now, you have to be 100 percent disabled to be able 
to get a lifelong pass into our outdoors. I know if this was 
changed to include any disabled veteran, that would encourage 
more veterans to seek out our outdoors and enjoy those 
experiences and be offered the same opportunities for the 
therapeutic benefits of those areas.
    Vet Voice Foundation has over 360,000 members. Many of 
these members have discovered the same things I do. It is one 
of the reasons why we defend the ability to preserve our 
national parks so much. I know that you all are patriotic 
Americans, and I know you appreciate the service that veterans 
have done. But I want you to consider the fact that sometimes 
even the small fees some of these parks have is a deal-breaker 
for many veterans to go to the outdoors. If they could take 
their families on hunting, fishing, and camping trips, I think 
many of these veterans would heal at a much faster rate.
    So, in closing, I want to thank Representative Ruiz. I 
think your leadership is commendable for this. We need more 
decisionmakers like yourself moving forward to help our 
veterans. I want to thank the entire subcommittee. I will stay 
around for any questions. I am humbled to be here, and honored. 
Thanks.
    [The prepared statement of Mr. Reppenhagen follows:]
Prepared Statement of Garett Reppenhagen, Vet Voice Foundation on H.R. 
                                  3976
    Thank you for inviting me to testify today. My name is Garett 
Reppenhagen and I am the Program Director for the Vet Voice Foundation.
    Vet Voice Foundation is a 501(c)3 non-partisan, non-profit 
organization which was established in 2009. One of the key campaigns at 
the Vet Voice Foundation is simple and two-fold: First, to reach out to 
America's veterans, especially our Nation's wounded warriors and 
introduce them to outdoors. This introduction is very important for our 
service members. Outdoor recreation can and does play a strong role in 
the recovery of many of America's veterans when they return from the 
battlefield and begin the process of reintegration to their communities 
and families.
    Second, Vet Voice Foundation is also involved in protection efforts 
of our Nation's public lands. Throughout the western United States, Vet 
Voice Foundation and its membership have provided a unique voice in the 
call to preserve our natural heritage for future generations advocating 
for both responsible Federal conservation policies and funding as well 
as legislation that protects these beautiful landscapes.
    In order to share with you how I became involved with this 
organization and its mission, I feel it is also important that I tell 
my own story. My family has a tradition of military service. Both my 
grandfathers served in World War II. My father's father was a Marine 
and my mother's father was in the Navy. My father joined the U.S. Army 
as an Engineer and completed a tour in Vietnam. He retired after 20 
years of active duty and passed away the following year from Agent 
Orange related cancer when I was 14 years old.
    I joined the U.S. Army as a Cavalry Scout in August of 2001, 1 
month before the attacks on September 11. I served in a 9-month 
peacekeeping mission in Kosovo before being selected to sniper school 
and earning the second best score in the Special Training Target 
Interdiction Course. I deployed to Iraq in January 2004 and served in a 
Brigade sniper team on counter IED and counter mortar missions. After a 
10-month stop-loss, I received an Honorable Discharge in June 2005. 
During the 1 year in Iraq I performed over 160 combat missions without 
the use of an armored vehicle, engaged in countless firefights, and 
survived dozens of ambushes.
    My transition back into civilian life was a challenge. I found that 
I struggled with intrusive thoughts, hyper vigilance, anxiety, troubled 
sleep, an aversion to crowded areas, depression, and relationship 
issues. While I have always found peace in the outdoors, it was never 
more evident than when I returned home from Iraq. Camping, hiking and 
exploring natural wonders became a way of life and an opportunity to 
find peace.
    My road to recovery was not just spent in VA offices but also on 
hiking trails and cold water streams.
    As a veteran with a PTSD diagnosis, I can tell you that outdoor 
recreation has benefited me in so many ways--spiritually, emotionally 
and physically.
    In 2012, I joined Vet Voice Foundation. Since then, I have worked 
and traveled all over the West, recruiting veterans to our cause, 
hosting outdoor events and conservation service projects. I partnered 
with Veteran Expedition, Sierra Club, and Rivers of Recovery to bridge 
more veterans to the outdoors. The connection between veterans and 
conservation is not a new phenomenon. Actually, veterans have a storied 
tradition of involvement in conservation dating back to arguably one of 
America's greatest presidents, Teddy Roosevelt, who was a founder of 
our Nation's conservation movement.
    As veterans, many in our community view conservation as a civic 
duty. Protecting America's lands is patriotic. After all, as veterans, 
we not only fought to preserve our Nation's democracy, but also this 
land in all its glory--from shore to shore, from sea to shining sea, 
against all enemies. Yes, conservation is patriotic and if you talk to 
our membership they will be quick to remind you that keeping America's 
public lands--its natural treasures--beautiful, is a noble and worthy 
cause for veterans.
    Today, thanks to Representative Raul Ruiz and the bi-partisan 
coalition that joined to support his efforts, I am here to offer the 
support of Vet Voice Foundation and the veteran community for the 
``Wounded Veterans Recreation Act.''
    This bill, is a fitting tribute to America's veterans and military 
families.
    As I have noted, veterans frequent America's public lands. Many are 
sportsmen, hunters and anglers who value their time in the wild. Some 
simply utilize these treasures as a means or reconnection with family 
and friends by camping and hiking. All have, however, as I, found some 
form of peace on our precious Federal recreational lands.
    Currently, to enjoy a free lifetime pass on these lands, a veteran 
would have to be totally and permanently disabled with a 100 percent 
disability rating from the Department of Veterans Affairs. In my case, 
I am a 90 percent service connected veteran--thus I do not qualify for 
this pass due to my current rating. My situation is also similar to 
many veterans I have worked with over the years as very few are 
permanently disabled at 100 percent.
    Also of interest, 3.5 million veterans live with a service 
connected disability. Free access to our Nation's parks and Federal 
recreational lands would definitely give an incentive to get outdoors 
for what would be a very therapeutic experience.
    On that specific note, the University of Michigan conducted a study 
in 2013 which clearly shows that veterans participating in extended 
outdoor recreation activities showed signs of improved mental health. 
The study also suggested a link between outdoor activities and long-
term psychological well-being.
    The study also clearly noted that veterans with the most serious 
health problems benefited the most from outdoor recreation.
    While Vet Voice Foundation was happy to see a scientific study of 
this nature, it came as no surprise.
    A member of Vet Voice Foundation, Scott Roney, is a retired Army 
Chaplain who currently serves as a behavioral health provider at Naval 
Hospital Camp Pendleton. Scott, like many mental health clinicians sees 
service members and their families as they are in the process of 
reintegration. Many of these men and women are seeking help in dealing 
with combat trauma. Scott is a strong believer in encouraging these men 
and women, as well as their families to look to the outdoors as a means 
of recovery.
    Last summer, Scott joined Vet Voice Foundation as we visited 
various lawmakers and the White House to discuss our mission and work 
with veterans. I was truly moved to hear Scott share with congressional 
and White House staff the stories of courage and recovery as well as 
how mother nature can play a role in helping make someone become whole 
again. Yes, this is a very powerful anecdote that our veterans can turn 
to. Science and our Nation's behavioral health specialists are in 
agreement--get outdoors and get healthy.
    Today, I ask the members of this committee to please consider this 
information when evaluating this bill. Including all service connected 
veterans for a lifetime pass through this legislation is a benefit long 
overdue to our community. We have sacrificed dearly for this Nation. 
Some of us have scars that will always be present. As I look at this 
committee, I do know that you are all patriots and care deeply about 
the future of America's veterans. With that stated, I ask again, please 
remember us as you consider this legislation. It would truly benefit 
our community and families and would likely draw even more veterans to 
the outdoors.
    In closing, I want to personally thank Representative Raul Ruiz for 
his leadership on this bill. His vision, commitment and character are 
things we all hope to see in our elected officials.
    In conclusion, Chairman Bishop and members of the subcommittee, 
thank you again for inviting me to testify today. I hope that in the 
coming months, Vet Voice Foundation and its members can possibly visit 
with members of the subcommittee and its staff. I know our veterans 
would be honored to meet with you all and discuss their stories of why 
the outdoors are such an important component of their lives.
    I look forward to answering any possible questions you may have 
concerning my testimony. Today has truly been an honor for myself and 
our organization. I am humbled to be here.

                                 ______
                                 

    Mr. Bishop. Thank you. You notice how well you timed that 
thing.
    The Administration will eventually testify on this bill, 
and you can ask questions at that time of them. But are there 
any questions for either the Congressmen or Mr. Reppenhagen 
from the committee?
    [No response.]
    Mr. Bishop. If not, I want to thank you for being here. 
Thank you for your testimony. I appreciate your--you know what 
I am trying to say. Thank you for being here. You can go now.
    [Laughter.]
    Mr. Reppenhagen. You are welcome. Thanks, everyone.
    Mr. Bishop. All right, what I would like--and appreciate 
it. If you would like to hang around, you still can. All right.
    What I want to do is leave Ms. Weldon from the Forest 
Service and Ms. Haze from the Department of the Interior there, 
and bring up Brian Merrill, who is the Western River 
Expedition--from Western River Expeditions, the Moab Adventure 
Center; David Brown, who is America Outdoor Association; and 
Mr. Aaron Bannon, Environmental Stewardship and Sustainability 
Director from the National Outdoor Leadership School.
    You all heard the spiel. Again, please watch the clock in 
front of you. When it goes yellow, you have 1 minute to finish 
up. All of your testimony that is written will be added--is 
already in the record. Anything you want to add, again, that is 
written, is in the record.
    We will ask--starting first with Ms. Weldon from the Forest 
Service, if you would like to testify on all three bills, and 
then we will go to Ms. Haze, and then we will go down the line, 
starting with Brian, and continue on. Each of you have 5 
minutes for your oral presentation.
    Ms. Weldon, please.

STATEMENT OF LESLIE WELDON, DEPUTY CHIEF, U.S. FOREST SERVICE, 
                   DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Great, thank you very much. Thanks, on behalf 
of the Department of Agriculture, for the opportunity to 
testify to you today on the three bills--the two bills and the 
one draft bill that we are looking at.
    So, just succinctly--and I really appreciate hearing the 
expressions around the two veterans bills that are proposed for 
free passes. The Forest Service and our other Interior agencies 
over the years have had opportunities where we have strived 
toward offering and honoring our veterans through different 
types of passes. The two that are proposed today, I would just 
say that the Department fully supports.
    We look forward to working with both the committee and the 
Department of Veterans Affairs to work through the rest of the 
issues on these and how we can get to a point of 
implementation. It was great to hear the acknowledgment of the 
value of outdoor experiences from so many different venues, 
especially from the standpoint of our veterans returning home 
and getting back to full quality of life that we all strive 
for.
    As it relates to the proposed bill, again, thank you to the 
committee for the work that you have done to really keep this a 
front-burner issue to enable the Recreation Enhancement Act to 
be something that we can continue to use into the future. We 
really acknowledge the value and benefit of this program, 
through the experiences that we have had over the last number 
of years to provide good-quality recreation experiences at 
these fee sites, and to use the revenues that come from this 
program to help create a lot of flexibility in how we deliver 
the whole suite of outdoor experiences to citizens on the 
national forests.
    As you know, we have over 166 million visitors who do every 
kind of outdoor recreation year-round on national forests. 
These contribute significantly to our local communities. As of 
last June, when we testified, there were approximately $13.6 
billion of recreation-related experiences that contribute to 
the national gross domestic product associated with national 
forests. That translates into over 200,000 jobs, many of which 
are located in rural communities.
    Fee retention is a critical component of our sustainable 
recreation program, from a financial standpoint, and, again, 
for that flexibility. With this program we have about--between 
80 and 95 percent of the revenues that come from fee purchases 
that get reinvested directly into the sites where people expect 
certain amenities when they come and recreate. By way of a 
couple of examples, in Utah rec fee revenue has helped to 
develop a mobile app for people to quickly and easily search 
for recreation sites and opportunities. In Idaho, fee revenues 
from outfitters and guides has helped us monitor the Middle 
Fork and the Main Salmon Rivers where river rangers remove 
garbage and hazard trees and help injured or lost and disabled 
boaters, and inspect boats to prevent spread of invasive 
species.
    We also see that our recreation use, overall, with the 
national forests is continuing to increase. From studies we 
have done between 2005 and 2012 on 70 national forests, there 
has been an overall increase for developed campgrounds that has 
grown by over 2.5 million people, visits.
    Another thing that is very important about this fee program 
is that we work hard and we are very successful at leveraging 
our partnerships with communities, with recreation groups, 
other non-profit organizations, as well as working with our 
outfitter and guides, who are a key partner in delivering 
recreation experiences on the national forests. These fees help 
to support small businesses who provide services that help 
citizens to enjoy experiences on the national forests.
    We are really pleased with the progress the discussion 
draft has made, and we would like to continue to work with the 
Chairman and the subcommittee on a few issues. We want to be 
sure that we can retain a consistent approach regarding fees at 
recreation sites, especially as it relates to getting public 
input, and being able to evaluate where those fees occur, what 
those fee structures are. We know we have work to do to ensure 
that we keep that important part of the process very 
transparent.
    We also want to be sure that we can retain our recreation 
reservation service, and that we can continue to maintain the 
flexibility that occurs across the agencies. Finally, we really 
would like to continue an open dialog around the ability for us 
to pursue permanency for this legislation that will allow for 
some stability as both the private side and the national 
forests do planning.
    So, with that, I would like to conclude my remarks, and I 
would be happy to answer any questions.
    [The prepared statement of Ms. Weldon follows:]
Prepared Statement of Leslie Weldon, Deputy Chief, U.S. Forest Service, 
                       Department of Agriculture
    Chairman Bishop and members of the subcommittee, thank you for the 
opportunity to discuss the implementation of the Federal Lands 
Recreation Enhancement Act (REA) by the U.S. Department of Agriculture 
(USDA) Forest Service. I am Leslie Weldon, Deputy Chief of the National 
Forest System, Forest Service, testifying today on behalf of USDA.
    USDA appreciates the efforts of this Congress to extend REA for an 
additional year in last October's continuing resolution. This extension 
has allowed the agency to proceed with normal operations without any 
impact on the public or our partners. It has also allowed time to 
continue valuable discussions concerning the recreation fee authority 
on Federal lands and identify a way to continue to deliver important 
recreation services to the public.
REA and Recreation
    The authorities in REA allow us to improve recreational facilities 
and services and provide quality visitor experiences across National 
Forest System (NFS) lands. These authorities enable the Forest Service 
to invest in upkeep and improvements at recreation sites that visitors 
use and enjoy. Through our collective mission with the U.S. Department 
of the Interior, we provide the American public and visitors from 
around the world with outstanding recreation opportunities on Federal 
lands. Since the enactment of REA in December 2004, we have made 
tremendous progress in accomplishing our mission.
    Recreation fees play a critical role in our ability to ensure that 
outdoor recreation opportunities remain available, accessible, and 
sustainable, so that current and future generations of Americans may 
continue to enjoy these places of remarkable natural beauty and rich 
American heritage.
    Recreation on NFS lands contributes about $13.6 billion to the 
Nation's gross domestic product each year and supports approximately 
205,000 jobs. Many of these jobs are located in rural communities and 
are associated with numerous outdoor industries and small businesses. 
One dollar invested in recreation programs yields approximately $46 to 
the Nation's GDP, and NFS lands support over 5,000 outfitting and 
guiding operations authorized under REA, many of which are small 
businesses employing local citizens.
Sustainable Recreation
    The Forest Service manages these recreation opportunities in a 
sustainable manner through appropriated funds, partnerships, alliances, 
volunteers, and fee retention. The authority to retain and spend 
recreation fees under REA is critical to the sustainability of the 
Forest Service's national recreation program. Under REA, at least 80 
percent and up to 95 percent of recreation fee revenues must be spent 
at the sites where they were collected. In addition, REA enables 
agencies to partner with user groups, small businesses, and industries 
to ensure sustainable recreation practices involving a variety of 
resources, settings, and activities, including guided hikes, hunting 
trips, off-road tours, sport fishing, kayaking, and canoeing.
    Fee retention authority is a critical tool that forest managers use 
to develop, maintain, service, and protect high-priority and heavily 
used recreation sites and visitor centers that are enjoyed by millions. 
Often located near urban centers, small towns, and rural communities, 
these heavily used sites have become our Nation's backyard for outdoor 
experiences. Over 240 million Americans live within 100 miles of a 
National Forest or Grassland. These recreational sites introduce 
millions of Americans to the natural splendors that surround them.
    Recreation fee revenue generated under REA constitutes about 20 to 
25 percent of the recreation budget. Recreation fees have made a huge 
difference in the Forest Service's ability to improve sites and repair 
deteriorating facilities. Investments are made in some of our most 
heavily used recreation sites to enhance public services, provide 
health and safety benefits, and mitigate impacts on cultural and 
natural resources. However, the revenues generated under REA do not 
fully cover the cost of maintaining and servicing these sites. 
Appropriated dollars, volunteers, and partnerships with outfitters and 
guides are also used to cover costs, leverage assistance, and provide 
in-kind services and value. Retention of permit fees under REA also 
helps support administration of permits for commercial recreational 
activities like outfitting and guiding and competitive events.
Recreation Fee Program Management
    As important as REA is to the agencies testifying before you today, 
it is only one piece of a much larger recreation strategy. I would like 
to clarify REA's role in Forest Service management of recreation 
opportunities on Federal lands.
    The vast majority of recreation opportunities on NFS lands is free 
to the public and offers a suite of high-quality experiences. 
Approximately 98 percent of NFS lands, providing recreation 
opportunities ranging from camping, hiking, fishing, hunting, and much 
more, is available to the public free of charge. There are more than 
20,000 developed recreation sites on NFS lands. Of those 20,000 sites, 
approximately 4,000 are subject to recreation fees under REA, and 
approximately 2,000 are concession campgrounds that are subject to fees 
charged under another authority. Most of these 6,000 fee sites are 
campgrounds and cabin rentals, but they also include developed boat 
launches, picnic sites, off-road vehicle staging areas, developed 
swimming areas, developed recreation sites at trailheads, and target 
ranges.
    There are approximately 6,000 trailheads in the National Forests 
that lead to nearly 160,000 miles of trails. While maintenance of 
trails can be costly, most trailheads the Forest Service manages, about 
85 percent, are not subject to any fees despite substantial investment 
in these sites. Fees may be charged only when a site has the amenities 
required under REA. These amenities are provided to meet public need 
and convenience, address public health and safety concerns, and protect 
sensitive natural and cultural resources.
    The ability to retain fees locally is beneficial to both the 
American taxpayer and to the recreation user. When a recreation user 
agrees to share in the cost of managing our most heavily used 
facilities and services by paying a fee, it not only helps create a 
stewardship ethic, but also reduces the burden on taxpayers to maintain 
these sites. Recreation fees also give Forest Service managers more 
flexibility with regard to expenditure of appropriated dollars to 
manage the vast majority of NFS lands at no additional cost to the 
public.
    Finally, the Forest Service is seeing increased use at our 
developed sites. Data from over 70 National Forests collected in a 
recent National Visitor Use Monitoring Survey show that the number of 
visits to campgrounds rose by more than 2.5 million from 2005 to 2012.
Accountability
    USDA is committed to working with this committee, National Forest 
visitors, and the American public to ensure transparency and 
accountability in operation and management of the recreation fee 
program. Since enactment of REA, the Forest Service has developed 
numerous tools to assist National Forests in implementing the statute, 
including standardized signage, fee proposal tools and templates, 
national reporting tools, financial tools, and training to ensure funds 
are tracked and spent in accordance with REA. Local Forest Service 
managers evaluate how to spend recreation fee revenue site by site, 
depending on the condition of facilities and public needs and desires.
    In 2011 the Forest Service started reviewing all recreation fee 
proposals at the national level. National review enhances consistency 
of recreation fee proposals with regard to public involvement, 
establishment of specific types of fees, and other aspects of 
implementation. This represents a few of the changes the Forest Service 
has implemented to ensure compliance with REA.
    The Forest Service also began implementing a point of sale (POS) 
system in 2011, which enhances customer service and convenience by 
allowing use of credit cards. The POS system will increase internal 
efficiency and the agency's ability to track collection of recreation 
fee revenues. The POS system is being implemented in phases, beginning 
with vendor sites that handle the highest volume of collections.
Comments on the Draft Bill
    The Forest Service has had the opportunity to review the draft 
bill. The draft bill revises the existing terminology and conditions 
under which the U.S. Forest Service and all other agencies collect 
fees. The draft bill modifies the public input and participation 
process in the agencies' establishment of fees. It provides for 
additional types of America the Beautiful--the National Parks and 
Federal Recreational Lands Passes or Interagency Passes. The draft bill 
outlines a different approach to expenditure and reporting requirements 
for agencies while eliminating the triennial reporting process. 
Finally, we note the draft bill includes a 5-year sunset date.
    USDA would like to work with the Chairman and the subcommittee on 
this legislation once the bill is introduced.
    We would appreciate further discussion on retaining a national 
recreation reservation system for all REA agencies. The Forest Service 
would also like to work with the committee to make it feasible for 
concessioners to accept passes. Finally, we recommend that Congress 
permanently authorize this program. Permanent authority provides 
stability for the public and enables managers to implement long 
projects and enter into partnerships with outfitters, vendors, and 
communities who benefit from the program economically.
Conclusion
    Reauthorization of REA is critical to the Forest Service's national 
recreation program. REA has enabled the agency to provide consistently 
excellent recreation experiences at sites across the United States. REA 
has strengthened the connection between visitors and the lands they 
cherish by requiring that the fees they pay benefit the sites where 
they were collected. Thousands of projects, large and small, have been 
supported by REA fees since 2004. Visitors consistently comment that 
they are willing to pay reasonable recreation fees if they know the 
money will be used to improve the sites they are visiting.
    REA facilitates efficiency, consistency, and good customer service 
by enabling interagency cooperation and public participation. The 
agencies strive to manage visitor contributions effectively, 
efficiently, and in an open and collaborative manner. The 
administrative and policy changes the Forest Service has introduced 
since 2004 demonstrate the agency's commitment to improve the 
recreation fee program, both in terms of customer service and good 
governance.
    The Forest Service plans projects funded by recreation fees years 
in advance. Administration of the recreation fee program requires 
significant up-front investment to implement customer service 
enhancements and to ensure that the Interagency Pass is designed, 
produced, and distributed on schedule. The agencies work for years to 
develop mutually beneficial relationships with public and private 
sector partners at the local and national levels. Reauthorization of 
REA before it expires on December 8, 2015, would allow the program to 
continue in a cost-effective manner and without disruption of visitor 
services.
    We look forward to working with the subcommittee and our sister 
agencies on developing permanent recreation fee authority. As part of 
that effort, we hope to enhance REA based on our experience 
implementing the statute, for example, by more effectively addressing 
public involvement and authority for amenity fees and by providing for 
a veterans pass.
    Thank you for this opportunity to discuss the Forest Service's 
implementation of REA and its critical importance to sustainable 
recreation opportunities on Federal lands. I would be happy to answer 
any questions you have.
             h.r. 3976, ``wounded veterans recreation act''
    Chairman Bishop and members of the subcommittee, thank you for the 
opportunity to discuss H.R. 3976, the ``Wounded Veterans Recreation 
Act.'' I am Leslie Weldon, Deputy Chief of the National Forest System, 
Forest Service, testifying today on behalf of the U.S. Department of 
Agriculture (USDA).
    USDA supports the intent of H.R. 3976 to honor the service of our 
veterans.
    H.R. 3976 would extend lifetime Federal Recreation Land Passes, 
also known as Interagency Passes, to any veteran with a service-
connected disability as defined in section 101 of title 38, United 
States Code. The Department understands and shares the committee's 
desire to honor the service of our veterans, particularly those 
individuals who suffer injury or illness as a result of their service. 
We ask for an opportunity to work with the committee staff and the 
Department of Veteran Affairs to address a number of logistical, cost 
and other issues associated with effective implementation.
    This concludes my testimony. I am happy to answer any questions you 
may have.
              h.r. 2743, ``veterans eagle parks pass act''
    Chairman Bishop and members of the subcommittee, thank you for the 
opportunity to discuss H.R. 2743, the ``Veterans Eagle Parks Pass 
Act.'' I am Leslie Weldon, Deputy Chief of the National Forest System 
for the Forest Service, testifying today on behalf of the U.S. 
Department of Agriculture (USDA).
    USDA supports the intent of H.R. 2743 to honor the service of our 
veterans.
    H.R. 2743 would provide for a Veterans Eagle Parks Pass that would 
be available to any veteran who has separated from military service 
under conditions other than dishonorable, if the veteran provides proof 
of that status by presenting a DD214. That pass shall be valid for the 
life of the veteran for whom it was purchased. The Department 
understands and shares the committee's desire to honor the service of 
our veterans.
    We ask for an opportunity to work with the committee staff and the 
Department of Veteran Affairs to address a number of logistical, cost 
and other issues associated with effective implementation.
    This concludes my testimony. I am happy to answer any questions you 
may have.

                                 ______
                                 

    Mr. Bishop. Thank you, I appreciate that.
    We will now turn to Ms. Haze for 5 minutes for the 
testimony from the Department of the Interior.

 STATEMENT OF PAM HAZE, DEPUTY ASSISTANT SECRETARY FOR BUDGET, 
   FINANCE, PERFORMANCE, AND ACQUISITION, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Haze. Thank you. Good morning, and thanks for inviting 
me to testify on the panel. Good morning--let me start over. 
Thanks for allowing me to testify on the panel with my 
colleague from the Forest Service and the other panel members. 
I work in the Department of the Interior, and I work 
collaboratively with our four bureaus that operate the 
recreation programs: the National Park Service, the Fish and 
Wildlife Service, Bureau of Land Management, and the Bureau of 
Reclamation. I have a group of folks with me today who are the 
experts that work in this program.
    First and foremost, I want to thank the Congress for 
extending authority for the program through December 2015. It 
came just in the nick of time to extend the program and allow 
us to accept reservations, continue important programs and 
projects, and support our visitors. I also want to thank the 
subcommittee for taking steps to reauthorize the program.
    Recreation is a significant contributor to the national 
economy and to our programs. It is a major economic driver. In 
2012, the Outdoor Industry Association reported recreation 
generated $646 billion in spending each year, and supports 
about 6 million jobs. Recreation has many other significant 
benefits, as Mr. Ruiz pointed out, drawing people outdoors to 
learn, exercise, work, volunteer, and get other benefits.
    We have over 400 million visitors to our parks, refuges, 
and public lands, that take their positive experiences home and 
benefit from the physical activity that promotes health and 
quality of life. Included in these visits are nearly 230 
million visits to recreation enhancement sites. These visits 
and associated travel generate about $25 billion in economic 
output, and a significant number of jobs.
    Among the many visitors are military members, their 
families, veterans, and wounded warriors. In recognition of the 
need to honor the service and sacrifice of our military, in 
2012 a new free military pass became available to current U.S. 
military members and their dependents. Beginning in 2006 and 
every year since, we have designated fee-free days in honor of 
veterans across the country. In 2013 we designated three of 
these fee-free days. We support the intent of the Veterans 
Eagle Parks Pass Act, and the Wounded Veterans Recreation Act, 
to recognize the contributions of these brave men and women. If 
the committee moves forward with the legislation, we would like 
to work with you closely.
    The recreation fee demonstration program was established, 
as you know, by the Appropriations Committee in 1996. The 
Federal Lands Recreation Enhancement Act was enacted in 2004. 
Over the course of nearly 20 years, our agencies, working 
closely with the Forest Service, have learned a lot about the 
program, and experienced implementation of the program. Through 
this experience we can identify four key elements of the 
program that should be preserved. This mirrors a lot of what 
Leslie just talked about.
    First, the ability of our agencies to retain the fees and 
reinvest them where they are collected without further 
appropriation. This has allowed our agencies to have certainty, 
and be able to reinvest those programs so the visitors can see 
the results of the program. Visitor satisfaction surveys 
conducted have found that most visitors are satisfied with the 
level of amenities and services, and believe the fees are 
reasonable.
    Second, the creation of an interagency program has allowed 
the agencies to streamline and simplify access, sustain strong 
partnerships, and, most importantly, provide more seamless 
processes for the public and the visitors.
    Third, flexibility to establish fees for a range of 
activities allows the agencies to charge for unique services 
and amenities. This is a very important aspect of the program, 
and allows us to align our operations with the unique 
recreation visitor programs our bureaus have. We want to work 
with you on Sections 806 and 807 of the draft bill along those 
lines.
    Fourth, and last, long-term authority, as Leslie pointed 
out, has allowed the agencies to keep the long view, and 
achieve a more seamless approach, continue to learn from our 
experience, including best practices, and make investments and 
improvements to efficiently operate the program.
    The draft bill represents a thoughtful approach to continue 
the program. We want to work with the subcommittee to address 
some of the aspects of the bill, working toward long-term 
authority and administrative flexibility.
    This concludes my statement. Thank you very much.
    [The prepared statement of Ms. Haze follows:]
 Prepared Statement of Pamela K. Haze, Deputy Assistant Secretary for 
    Budget, Finance, Performance and Acquisition, Department of the 
            Interior, on H.R. ____, H.R. 3976, and H.R. 2743
    Chairman Bishop, Ranking Member Grijalva and members of the 
subcommittee, thank you for inviting the Department of the Interior to 
appear before you today to present the views of the Department of the 
Interior on H.R. ____, draft legislation that would amend the Federal 
Lands Recreation Enhancement Act (FLREA), and on H.R. 2743 and H.R. 
3976, bills that would authorize special passes for certain veterans to 
national parks and other Federal recreation lands.
    As an initial matter, we appreciate that Congress enacted, as part 
of the Consolidated Appropriations Act of 2014 (P.L. 113-46), a 1-year 
extension of FLREA, until December 8, 2015. We believe that the 
recreation fee program authorized by FLREA has been a highly successful 
and effective program, critical to providing quality recreation 
amenities and services to the public. This extension allows the program 
to continue uninterrupted as Congress considers its reauthorization for 
a longer time period. We also appreciate the attention that this 
subcommittee has given to this important issue.
    Permanent reauthorization of FLREA, as identified in the 
President's fiscal year 2015 Budget, will provide an important 
authority that allows the agencies to continue to effectively serve the 
visiting public, provide high-quality visitor amenities, and respond 
quickly to meet changing visitor demands. FLREA provides these 
important benefits to visitors as a result of the agencies' ability to 
immediately reinvest recreation fee dollars and use them, without 
further appropriation, for site enhancements, resource protection, 
interpretive programs, visitor safety, and other vital services and 
improvements. We refer the subcommittee to our June 18, 2013, testimony 
for additional details on how FLREA has benefited the Federal land 
management agencies and the visiting public.
H.R. ____, Amendments to the Federal Lands Recreation Enhancement Act
    H.R. ____ amends FLREA in a number of ways. Among other changes, 
the draft bill revises the terminology and conditions under which the 
Bureau of Land Management (BLM), the U.S. Fish and Wildlife Service 
(FWS), the National Park Service (NPS), the Bureau of Reclamation 
(Reclamation) and the U.S. Forest Service (USFS) collect fees 
(identified as day use, entrance, recreation, and special recreation 
permit fees). The draft bill modifies the processes for ensuring public 
participation in the agencies' establishment of fees. It provides for 
additional categories and types of the America the Beautiful--National 
Parks and Federal Recreational Lands Pass. The draft bill also amends 
the expenditure and reporting requirements for agencies. Finally, the 
draft bill provides that the authority of the Secretaries will sunset 5 
years after the date of enactment of the Act.
    The draft bill represents a thoughtful approach to addressing many 
of the issues and concerns that have been identified by the 
Administration and by stakeholders regarding implementation of FLREA. 
This testimony reflects our initial review of the draft bill. The 
Department may provide additional views on this legislation after the 
bill is introduced and after conducting further analysis. The 
Department looks forward to working with subcommittee on this important 
issue.
    We believe there are several core elements of the recreation fee 
program authorized by FLREA that have contributed to the success of the 
program,\1\ and that each of these core elements should be contained in 
any reauthorization of FLREA. One element is the ability for agencies 
to retain fees, and reinvest fee dollars where they are collected 
without further appropriation. This element of the program has ensured 
visitor support for the program. Visitor satisfaction surveys conducted 
in the past 3 years by BLM, FWS, NPS, and USFS also have found that the 
vast majority of visitors (about 90 percent of respondents) are 
satisfied with the level of amenities and services provided at FLREA 
sites and believe that the recreation fees they pay are reasonable.
---------------------------------------------------------------------------
    \1\ See the Triennial Report to Congress, Implementation of the 
Federal Lands Recreation Enhancement Act, May 2012, http://www.doi.gov/
ppa/upload/FLREA_Triennial_Report_2012_FINAL.pdf
---------------------------------------------------------------------------
    A second core element is the creation of an interagency program. By 
providing a single recreation fee authority for the agencies, FLREA has 
enhanced customer service, efficiency, and consistency in fee 
collection and expenditure and establishment of national fee policies, 
such as fee-free days, and the creation of the successful 
Recreation.gov Web site. The recreation program has improved 
coordination among agencies which benefits the visiting public--making 
recreation sites more accessible and information easier to find. 
Furthermore, while ensuring coordination, FLREA acknowledges and allows 
for differences among the agencies. This is important because the 
agencies have different missions, and are unique in the services they 
provide to the public and in the services the public expects from the 
agencies.
    The administrative ability to establish recreation fees for a range 
of activities, including flexibility to charge for unique services or 
amenities and new emerging amenities that could benefit visitors, is a 
third core element of the success of the recreation fee program. In 
setting any fees, the agencies seek the public's input, and there are 
protections in the FLREA program to ensure there are no disadvantages 
to the local communities. Each agency has developed policies consistent 
with FLREA to ensure that the public receives notification about agency 
proposals and has an opportunity to provide input to agencies as they 
consider new recreation fees and changes to existing recreation fees.
    A final core element of the success of the recreation fee program 
is long-term authority. Knowing that a program is not likely to change 
every few years provides certainty to visitors, and enables the 
agencies to efficiently implement the program and to manage multi-year 
projects that improve visitor safety, experience and opportunities. 
This element also allows for the development of key partnerships with 
outfitters, other vendors, and communities that rely on the economic 
benefits of visitation and investments made by the agencies. and to 
provide key programs.
    The draft bill appears to contain many of these core elements, such 
as authority for an interagency program and the ability of agencies to 
retain and reinvest fees at the sites where they were collected. 
However, we note that it does not appear to provide for long-term 
authority, or for administrative flexibility for agencies.
    With respect to a long-term authority, Section 820 of the draft 
bill includes a 5-year sunset date. We recommend that Congress 
permanently authorize this program,. Permanent authorization would not 
preclude the Congress from ongoing oversight of the program, and the 
agencies have consistently submitted reports of their activities to 
Congress. With respect to administrative flexibility, Sections 806 and 
807 of the draft bill identify and limit the types of activities for 
which the agencies could establish fees for or authorize under FLREA. 
We are concerned that, as written, the draft bill may preclude agencies 
from permitting or charging fees for certain well-established 
recreational events and activities currently authorized under FLREA. We 
also seek clarity on the relationship between the prohibitions and fee 
authority set forth in the draft bill and on the factors to be 
considered in determining fees, to enhance consistency and 
effectiveness in the agencies' implementation of the recreation fee 
program.
    We look forward to working with the committee on appropriate 
language to ensure that the agencies will be able to effectively and 
efficiently manage the breadth of activities that occur on the lands 
they manage and provide for the diverse current and future recreational 
needs of the public, and to provide other clarifying and technical 
amendments.
H.R. 2743, Veterans Eagle Parks Pass Act and H.R. 3976, Wounded 
        Veterans Recreation Act
    H.R. 2743 would make the America the Beautiful National Parks and 
Federal Recreational Lands Pass available at a discount for life to any 
veteran who was separated from military service under conditions other 
than dishonorable, if the veteran provides proof of that status by 
presenting a DD214. H.R. 3976 would also make the America the 
Beautiful-National Parks and Federal Recreational Lands Pass available 
for the lifetime of the passholder for any veteran with a service-
connected disability, as defined in section 101 of title 38, United 
States Code.
    The Department supports the intent of these bills to honor the 
service of our veterans. Men and women who have served in the armed 
forces have made tremendous contributions to this country, and we honor 
their service. In 2006, the agencies established the first fee-free day 
in honor of veterans at recreation fee sites across the country. Every 
year since 2006, the agencies have established at least one fee-free 
day to honor veterans. In 2013, for example, the agencies established 3 
days--Veterans Day and the two weekend days before it--as fee-free in 
honor of veterans.
    In 2012, the agencies announced a free military version of the 
America the Beautiful National Parks and Federal Recreational Lands 
Annual Pass for current members of the military and their dependents. 
Although this military pass is not available to veterans, many veterans 
are eligible for other discounted passes, such as the Senior Pass 
granting lifetime access to U.S. citizens over 62 for $10, and the 
Access Pass granting free lifetime access for permanently disabled U.S. 
citizens.
    With the military pass, the fee-free days in honor of veterans, and 
the eligibility of many veterans for the Senior Pass or the Access 
Pass, we believe that the agencies are providing honor and recognition 
for the men and women who are serving or who have served our Nation in 
the armed forces, If the committee moves forward with this legislation, 
we would like to work with you and the USFS and Department of Veterans 
Affairs to address a number of logistical, cost and other 
implementation issues associated with a special pass for veterans.
Conclusion
    In addition to drawing people outdoors to learn, exercise, work and 
volunteer, outdoor recreation is a significant contributor to the 
national economy and the economies of communities that surround the 
lands we manage. It is important that we make recreational 
opportunities available in communities across the Nation, to promote 
health and fitness, engage our youth, and inspire the next generations 
to conserve and protect America's precious resources. In 2012, the 
Outdoor Industry Association reported that recreation activities 
generate $646 billion dollars in spending each year, and support 6.1 
million jobs. In particular, the approximately 383 million visits to 
DOI-managed lands in 2011 contributed an estimated $42.3 billion in 
economic output to the surrounding economies through trip-related 
spending. The approximately 230 million visitors to FLREA sites in 2011 
contributed an estimated $25.2 billion of the $42.3 billion total. 
Recreation-related spending on DOI-managed lands supported an estimated 
352,000 jobs in the communities surrounding Federal lands, of which an 
estimated 210,000 are related to FLREA visitation.
    With revenues from the recreation fee program, the agencies have 
been able to implement thousands of projects that directly benefit 
visitors. These projects support public safety, maintain recreation 
sites, provide eye-opening educational experiences, build informational 
exhibits, fund interpretive programs, engage youth, and leverage other 
funding sources to stretch each visitor's dollar further. The 
recreation fee program sustains a significant portion of the 
Department's youth programs, which enable us to increase the engagement 
of younger generations in the outdoors and develop an awareness of 
public resource stewardship. In addition, the recreation fee program 
has supported the Recreation.gov Web site, which provides convenient, 
one-stop access for those making reservations, securing permits, and 
building itineraries for travel to Federal recreation sites across the 
United States. Nearly 3.5 million reservations were made in FY2013
    The Department supports the recreation fee program and has found 
that FLREA facilitates efficiency, consistency, and good customer 
service by enabling interagency cooperation and public participation. 
Recreation fee authority is a vital component of our Department's 
ability to serve as effective stewards of the Federal lands we 
treasure.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate you being here. We will 
now turn to Brian Merrill, and the same thing, 5 minutes.
    We recognize you, appreciate you being here, thank you.

STATEMENT OF BRIAN I. MERRILL, WESTERN RIVER EXPEDITIONS, MOAB 
                        ADVENTURE CENTER

    Mr. Merrill. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to be here. We are 
an outfitter that operates river trips, off-road tours, and 
hiking tours in the State of Utah and in the Grand Canyon. 
FLREA is the authority under which we are issued permits by the 
Bureau of Land Management for many of our Utah trips.
    I am in favor of reauthorization of FLREA, but with some 
caveats that I will detail in my testimony. I am concerned 
about some provisions that could prove to be financially 
difficult for our industry, and, in some cases, be 
unsustainable.
    I think I support the second reason the Chairman defined 
for fees, in that I believe there should be a narrowly defined 
list of things for which fees can be used, and they should be 
logically connected to the users of that resource.
    In general, the ability for the agencies to collect fees is 
important, and I agree with that, and I have some slides--very 
few--just to show you some of the things that they get used for 
in our areas.
    As I said here, sometimes all that is needed is to smooth 
out a little bit of dirt. The next slide will show a busy day 
at Sandwash Boat Ramp in Desolation Canyon on the Green River 
in Utah.
    [Slide]
    Mr. Merrill. Sometimes when the water gets high and moves 
stuff around you get a big berm there, so they just need to 
come in and smooth out some dirt. That is what--and fees might 
get used for something as simple as that.
    [Slide]
    Mr. Merrill. The next--and then sometimes, like in 
Westwater Canyon, we have a full-on paved ramp. So that was 
super exciting. There is an example of the work there. The next 
slide will show you the ramp, finished.
    [Slide]
    Mr. Merrill. These are the kind of things that make our 
life a lot easier, the kind of things we worry about in the 
outfitting business. The next slide?
    [Slide]
    Mr. Merrill. Sometimes it is about comfort and convenience. 
That is what they call a bug hut. At Desolation Canyon, when 
the water gets high, there are a lot of mosquitos on the Green 
River, unfortunately. But mostly just at the beginning of the 
trip. So, people can reserve those bug huts, and they are very 
much appreciated and very much used, and are an example of a 
really good use of the fees generated by FLREA, I believe.
    Then I think you just have one more.
    [Slide]
    Mr. Merrill. So, that is the end of a ramp at the end of 
our Green River trip. As you can see, it has become a hazard 
for feet and ankles. They are going to spend some fee money 
this year to change the lip of that thing to make it a little 
safer. I think that is all I have, in terms of slides. But I 
just wanted to show those examples of how fees are being used, 
and how I think they ought to be used.
    Boy, this 5 minutes goes fast, doesn't it?
    [Laughter.]
    Mr. Merrill. There is another provision in the bill about 
which I am excited, and it is the stewardship credits pilot 
program that is talked about in there, the idea that outfitters 
could get bonus points, if you will, for doing work on public 
lands, helping to maintain trails, particularly. Our Forest 
Service outfitters in our organization will be particularly 
happy with that.
    My worries in the bill have to do with many of the 
exemptions that are spoken about in there. They are pretty 
broad and undefined. I worry that they will become too great. 
While there are certainly examples where exemptions from fees 
are important or appropriate: not having to pay a few to go 
into the attractions here on the National Mall I think is a 
good idea, the veterans that we are talking about earlier I 
think is a good idea, and there will always be groups that may 
not be able to afford fees and are worthy of an exemption. But 
I would say that most groups are not, and that a user is a 
user.
    We look at a person traveling with an outfitter, a person 
traveling on their own, a student, they have the same impact on 
the resource, and they should all be required to pay fees, 
unless they have a really compelling reason. So I think that 
list of exemptions needs to be really narrowly defined.
    I will let Mr. Brown talk about the cost recovery concerns 
I have; he will do a better job of it than I will.
    I just want to make one more point, that there is cost 
sensitivity in our industry. We are probably at the limit of 
where we can be, in terms of fees that our guests pay. If they 
get any higher, then it will start affecting our ability to 
operate trips, because people won't be able to afford it. The 
margins in our industry, recent studies show that our--the 
average profitability margin for our industry is about 6 
percent. So we are small family businesses. We can't afford to 
pay a lot more in fees.
    So, anything the legislation does to keep the definition of 
fees and the use of fees limited, and keep them from getting 
used for a lot of things that are beyond the scope is 
appreciated by our industry.
    Thank you.
    [The prepared statement of Mr. Merrill follows:]
Prepared Statement of Brian I. Merrill, CEO, Western River Expeditions, 
                          Salt Lake City, Utah
    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify on issues that are important to my company and 
to the future of outfitted guide services all across the country.
    The Federal Lands Recreation Enhancement Act (FLREA) is the 
authority under which my company holds Special Recreation Permits 
issued by the Bureau of Land Management. These permits allow us to lead 
guided rafting trips on the Green and Colorado Rivers in Utah as well 
as guided off-road and hiking tours. The Act also defines fees that the 
BLM charges pursuant to our permits and to each individual user of the 
resource, whether they travel on their own or with a professional 
guide.
    When I was invited to testify at this hearing, I fully intended to 
advocate for the reauthorization of FLREA. Obviously, the ability of 
the BLM to issue our permits is critical to our business. Without the 
permits, we have no business. At the same time, the ability to collect 
fees is important so the BLM can build and maintain facilities related 
to what we do.
    As I read through the legislation, however, I am concerned about 
certain provisions that could prove financially devastating to a 
business like mine. If those concerns are resolved, I will again be 
fully supportive of the Act's reauthorization.
Let me start with the positives:
    In general, the ability of the agencies to charge fees for the use 
of the resources they manage is a good thing. There are certain 
facilities and amenities that are logically paid for by fees collected 
from users. I'll show photos of some examples.
    The provision in Section 811 that allows 80 percent of fees 
collected at a specific site to stay with that unit or area is 
critical. I believe that 100 percent of the fees should stay local.
    The increased level of reporting outlined in Section 813 is 
welcomed. This will go a long way to making sure the program gets 
administered effectively and will give the public the tools it needs to 
comment intelligently when public input is solicited
    The public participation process included in Section 808 is a 
positive feature. This combined with the reporting provisions will 
create the accountability and transparency that the program needs.
    The ``Stewardship Credits'' pilot program explained in Section 
807(d) will be welcomed by outfitters. Many outfitters are eager to 
help out by clearing trails and performing other acts of service that 
benefit the resource. They also possess the required skills and 
training necessary to perform such work. However, this work is done at 
their personal expense and in some cases they are not even allowed to 
do it. This provision creates a partnership between the outfitters and 
the managing agency that will greatly benefit the resource. It also 
provides the incentive needed for the outfitter to perform the work.
My concerns with the draft legislation are as follows:
    Sections 804 and 805 provide an exemption from fees for certain 
educational groups. I fear that the burden of administering a program 
that serves a large number of visitors will be borne by relatively few 
of the users, namely the professionally guided public. We are the easy 
target, and the assumption is often that the commercially guided guests 
and the companies that provide guided services can afford it. That is 
not true.
    The fact is that a user is a user when it comes to resource 
impacts. A person participating on an educational trip does not step or 
float or camp more delicately than a person on a guided trip. While 
there are compelling reasons to create some fee exemptions such as 
those granted to NPS attractions here on the Capitol Mall, the mere 
fact that a trip has an ``educational'' purpose does not make its 
participants more worthy of consideration than anyone else. It is also 
true that there may be some individuals or groups for whom fees create 
a financial barrier. Any language accommodating these users would need 
to be narrowly crafted to not include all educational or non-profit 
groups because and exemption for most groups is not warranted.
    I am also concerned about the ``cost recovery'' language contained 
in this bill. Up until now, cost recovery has been limited to a narrow 
range of activities such as the building and maintaining of facilities. 
The draft bill proposes expanding the activities to such things as 
natural and cultural resource monitoring, and restoration. These are 
activities that, if fully funded by the collection of user fees would 
price every single user out of the resource.
    Natural and cultural resource monitoring is a bottomless pit of 
need. For example, in Utah we are in the middle of a discussion 
regarding the potential listing, as an endangered species, of the 
Western Sage Grouse. Potentially, the cost recovery for monitoring 
something like this could be funded through fees. The outfitted public 
cannot be expected to pay the bill for an endless list of endangered 
species monitoring.
    FLREA allows fees to be used for trail maintenance, but the backlog 
of trails that need to be maintained in the National Forests alone is 
so immense that much more creative methods of accomplishing the work 
and funding the work are needed. For example, a portion of the money 
collected through the Land and Water Conservation Fund could be used 
for trails. Another idea would be to utilize fire crews during those 
times when they are not needed to fight fires. These other sources of 
trail maintenance revenue and labor combined with the ``stewardship 
credits'' mentioned previously would reduce the pressure to increase 
fees through FLREA for the funding of trail maintenance.
    Western River Expeditions pays permit fees equal to 3 percent of 
its gross receipts. We also collect and remit a per-head, ``special 
area fee'' on those trips where there is one clear access point. For 
example, we collect and remit $10 per person for a single day trip that 
we operate through Westwater Canyon on the Colorado River. We also 
collect and remit a $25 per person, special area fee for a multi-day 
trip we operate through Desolation Canyon on the Green River.
    Our experience has been that our local resource areas do a good job 
of collecting and properly using these fees. However, if the door is 
opened allowing the use of fees for a much broader list of activities, 
the temptation will be to continue ratcheting the fees up to pay for 
things that are not logically connected to the use and enjoyment of the 
specific resource.
    In Desolation Canyon, which is administered by the Price, Utah 
Resource Area of the BLM, the river program relies on fee money from 
outfitters and private boaters to provide the opportunity for a high 
quality, primitive recreation experience. Examples of facilities that 
have been built and maintained with fees include: boat ramps, 
bathrooms, mosquito huts, signs, picnic tables, fire rings, and 
interpretive displays. Fees are also used to fund seasonal river 
rangers, transportation costs, a recreation planner, and river patrol 
equipment. Contracts with private companies for services such as: 
garbage collection, toilet pumping and water hauling are also funded 
with fees.
    An example of a project that will be completed in 2014 is the 
improvement of the Swasey's boat ramp where we end our trips. This 
particular improvement is important because it currently presents a 
hazard to feet, ankles and equipment. The river program largely 
supports itself from fee money generated through permits and commercial 
use fees.
    In Westwater Canyon, the special area fee was recently increased 
from $7.00 per person to $10.00. If you read the business plan for 
Westwater, you will see that ``full cost recovery'' would have resulted 
in a $15.00 per person fee. We are thankful that the Moab Resource Area 
chose to show restraint in their fee increase, but as appropriated 
money becomes increasingly scarce, the inevitable increase in fees will 
begin to have a real impact on the ability of the general public to 
enjoy the resource.
    The fees I've described probably seem fairly reasonable; however, 
fees currently represent nearly 10 percent of the cost of our trips. 
For commercial trips, we already experience price sensitivity, so 
merely increasing the price would most certainly cause us to lose 
business. Add to that the fact that outfitting and guiding companies 
are small, family run businesses with very slim profit margins and it 
becomes clear that businesses cannot merely absorb theses costs.
    A recent survey of our industry conducted over the last two seasons 
indicates that the average profit margin for an outfitting business is 
around 6.5 percent. Even little changes that increase our costs are 
significant.
    It is my hope that changes to provisions I have mentioned here can 
be made before formal introduction of this legislation.

                                 ______
                                 

    Mr. Bishop. Thank you, Mr. Merrill. We will keep you there 
for questions.
    We will now turn to Mr. Brown for 5 minutes.

STATEMENT OF DAVID BROWN, EXECUTIVE DIRECTOR, AMERICA OUTDOORS 
                          ASSOCIATION

    Mr. Brown. Thank you, Mr. Chairman, Ranking Member 
Grijalva, members of the subcommittee. We appreciate the 
attention that you are giving to this important issue, which 
will affect the future of recreation on public lands for years 
to come.
    As you know, we are a national trade association of 
outfitters and guides. There are about 60,000 full- and part-
time jobs in outfitting that will be affected by this 
legislation. So it is very significant, both economically and 
to the social fabric of our Nation.
    We certainly support reauthorization of the Federal Lands 
Recreation Enhancement Act in principle, but do have some 
issues with the current draft that would prevent us from 
supporting it. I know you have mentioned there are going to be 
changes, so we look forward to that.
    I have offered a number of changes in my testimony; I have 
three pages of changes which I will refer you to. Not going to 
go over all those in my testimony, because we don't have time. 
But I do want to offer a couple of perspectives and, as you are 
considering changes to the bill, and even another option that 
will enable rapid reauthorization of FLREA.
    One of our biggest concerns of the cost recovery and 
requirements in Section 807 of the draft language which are 
unsustainable for outfitters and guides, at a time when we 
should be streamlining permitting--permit processing and 
administration, Section 807 adds new complications, regulatory 
burdens, and costs that would threaten the viability of 
outfitters on public lands. We had 12 national and State outfit 
organizations sign a letter that express concerns about that 
provision.
    Let me offer some other observations on some of the 
potential unintended consequences of the proposed changes. The 
bill, as written, revises the fee structure. It eliminates fees 
that have original--in the original law. The currently enacted 
amenity fees are eliminated, replaced by day use fees and focus 
a lot of the fee revenue on permit fees.
    For back-country recreation, most of the users don't have 
permits. So that pretty much takes them off the table for 
paying fees, which may be intended, but it--that, in essence, 
focuses most of the potential for fee revenue onto the 
outfitted public to cover all of the costs that are outlined in 
Section 807, which I think are going to be too expansive to 
bear. They include infrastructure, maintenance, monitoring, law 
enforcement, even some general forest management goals that are 
outlined in the recently changed forest planning rules related 
to focal species monitoring, monitoring of watershed health. I 
mean that is what, basically, is defined as ``monitoring'' in 
the Forest Service. So, we have some concerns about the breadth 
of the cost recovery language in Section 807 that definitely 
needs to be looked at.
    I also have concerns about--it seems like the number of 
exemptions are expanding. Section 806(b) has changed from the 
previous bill, and looks like, to me, it would create problems, 
or certainly uncertainty for the agencies in who was exempted 
from fees for access and for certain activities.
    So, while there are some challenges with implementation of 
the existing amenity fees, I do think that those could be dealt 
with by oversight. Perhaps one suggestion you may want to 
consider is not restructuring the fees, but improving the 
existing fees in the law. In other words, not making the 
changes to the fee structure that are in the proposed draft.
    I think if this process becomes bogged down, one 
alternative is to extend the current law. We have done that 
already, and it got through the Senate. So I think that is an 
option. Then I think that your oversight is very important for 
implementation of this program, whether or not there are 
changes made to it or--because I think the--if you would do 
annual oversight of the fees, how they are being used, where 
there are problems, I think the agencies very often respond, 
and you can make incremental changes to the fee authority as 
necessary, rather than revising the whole fee structure, as 
proposed in the draft.
    So, I will be happy to answer any questions about the 
changes that I proposed, or you know, this position. We do 
advocate rapid reauthorization, and would like you to consider 
our comments, both written and oral. Thank you so much.

    [The prepared statement of Mr. Brown follows:]
   Prepared Statement of David L. Brown, Executive Director, America 
                   Outdoors Association on H.R. ____
    Mr. Chairman and members of the subcommittee thank you for taking 
the time to consider the concerns and issues that are necessary to 
improve the draft reauthorization of the Federal Lands Recreation 
Enhancement Act (REA). The time you are spending on this legislation is 
crucial to the future of outdoor recreation. Your efforts are very much 
appreciated.
    America Outdoors Association is a national, non-profit trade 
association representing the interests of outfitters and guiding 
companies, most of which operate on federally managed lands and waters 
under permits authorized by REA.
    This is complex legislation. Since REA is the authority under which 
outfitter and guide permits are currently issued and those permit fees 
retained by agency units, America Outdoors Association members and our 
State affiliate organizations are hopeful that we can eventually 
support reauthorization of this authority. However, we cannot support 
passage of the discussion draft circulated prior to this hearing. My 
testimony today will focus primarily on the provisions in this 
legislation which impact backcountry recreation. The draft bill is 
unsustainable from a financial standpoint for holders of outfitter 
permits under Section 807. I will offer some solutions which enable the 
agencies to collect and retain reasonable recreation fees to support 
quality services and experiences for the public.
    The provisions of this bill in many ways reveal the increasing 
costs of managing recreation on Federal lands and why we need to work 
on the cost side of the equation and not just on the funding side.
    SEC. 807 requires permit holders, primarily outfitters and guides, 
organized groups, special events and motorized recreationists, to cover 
some or all of the costs for

  (1)  trail and facility construction;
  (2)  maintenance;
  (3)  natural and cultural resource monitoring;
  (4)  restoration;
  (5)  emergency response and law enforcement;
  (6)  signage and user education;
  (7)  permit administration.

    Since most self-guided, backcountry recreationists are exempted 
from fees in the draft legislation, except in a handful of areas, these 
burdens would fall mainly on the outfitted public and their service 
providers. Outfitter permit holders would be saddled with the costs for 
trail maintenance, monitoring of natural and cultural resources, 
restoration, signage, law enforcement and user education for all users 
in most areas. In 2012 the Forest Service estimated that its trail 
maintenance backlog totaled $314 million, which is beyond the financial 
viability of recreation permit holders and their customers. Outfitted 
use in wilderness usually amounts to around 15 percent or less of 
overall use, so the fees to support recreation for other users would 
largely be levied on the outfitted public.
    Recreation.gov lists only 26 areas where the Forest Service and 
National Park Service collect permit fees from the self-guided 
(noncommercial), general public for backcountry uses. Fourteen areas 
are in National Forests. A few other areas charge permit fees for self-
guided users which are not listed on recreation.gov, including a few 
rivers managed by the Bureau of Land Management (BLM), but few 
noncommercial backcountry users would share the cost recovery burdens 
listed in SEC. 807.
    Several of the items under the cost recovery provision in SEC. 807 
are defined in the April 9, 2012 Final National Forest System Land 
Management Planning rule. This rule provides evidence as to why the 
costs in SEC. 807 cannot be separated among uses or users or sustained 
solely by the outfitted public. For example, ``natural and cultural 
resource monitoring'' and ``restoration'' are very broad in scope as 
identified in the Forest Service rule. Forest plans are required to 
include ``monitoring of select ecological and watershed conditions and 
focal species to assess progress toward meeting diversity and 
ecological sustainability requirements.'' This same planning rule 
requires Forest plans to include in their ``maintenance'' and 
``restoration'' goals, the requirement ``to provide for the maintenance 
or restoration of the ecological integrity of terrestrial and aquatic 
ecosystems and watersheds in the plan area.''
    These issues, impacts and costs, which are covered in SEC. 807, are 
often indistinguishable among users and uses, not to mention the 
impacts of natural disasters. They should be programmatic and not 
transferred to a small number of permitted visitors whom the agencies 
will find convenient to isolate and exploit for revenue. The 
construction and maintenance of public facilities and trails are also 
programmatic costs, which should not be borne solely be permit holders.
    The threat of cost recovery for permit administration required of 
small businesses cannot be dismissed. The Forest Service acknowledged 
the threat to small businesses it in its final cost recovery rule in 
2006 when it stated: ``The Forest Service has prepared a cost-benefit 
analysis of the final rule, which concludes that the final rule could 
have an economic impact on small businesses if their application or 
authorization requires a substantial amount of time and expense to 
process or monitor. These entities could be economically impacted, for 
example, when they apply for agency approval to expand or change their 
authorized use, or when an expired authorization prompts them to apply 
for a new authorization to continue their use and occupancy, and the 
application requires a substantial amount of time and expense to 
process.''
    In a few areas cost recovery has been implemented appropriately. 
However, the risk of runaway analyses is ever present when permits are 
up for renewal. Permit holders are basically required to sign a ``blank 
check'' agreement to cover the costs, even when those costs may be well 
beyond their means. These permitting processes should be streamlined 
following the model used in SEC. 603 of the recent Farm Bill (H.R. 
2642), which authorizes categorical exclusions for forest restoration 
thinning projects. Likewise, permitting new outfitted activities on 
public lands is prohibitively expensive for both the BLM and the Forest 
Service. We had hoped the bill would include some streamlining of those 
processes by authorizing the use of programmatic Environmental 
Assessments and Categorical Exclusions in certain circumstances.
    Permit fees should be dedicated first to permit administration and 
then to other uses in consultation with the permit holders. We do not 
believe the costs to construct recreation facilities and trails for the 
general public, forest restoration, emergency response, or law 
enforcement are appropriate costs to be paid by recreation permit fees 
since self-guided users are not required to have permits in most areas. 
Those agency actions benefit the public at large and are more 
appropriately paid by day use fees, recreation fees, or other sources 
of funding including appropriations, which provide a broader base of 
funding than permit fees. Outfitters may be subject to one of these 
alternative fees as well to support some of these costs.
    SEC. 806 of the draft authorizes and promotes agency-led tours, 
services and equipment rental, which could compete with the private 
sector, without any of the similar permit or cost recovery obligations 
in SEC. 807. Nor are these agency services required to carry or pay for 
liability insurance. Some of these activities were authorized in the 
previous version of the legislation. Not all are objectionable to us. 
But these agency-led programs have begun to expand with the launch of 
the interagency reservation service, recreation.gov. The agency 
activities authorized by the legislation include

    <bullet> guided walks, talks and tours,
    <bullet> rental of stock animals, boats, equipment, cabins; and
    <bullet> services where specialized equipment is required for 
            programs of substantial length.

    We do appreciate the Stewardship Credits proposed in SEC. 807. It 
is a step in the right direction. We offer ideas on expanding that 
program in our suggested list of changes.
    We also appreciate the public participation provisions in SEC. 808 
and the reporting requirements in SEC. 813, especially the provision to 
annually report how fees are being spent. SEC. 808 should include a 
provision that authorizes a public meeting on fee expenditures at each 
unit so that questions can be asked and input taken on the use of fees. 
Such a meeting should not be mandatory if there is no interest. An 
example of why such a meeting would be of value is included in our 
suggestions for changes to the draft.
    While we do understand the importance for this authorization to 
sunset, a 5-year sunset may be too short. The agencies also need 
specific legislative authority to issue permits with terms beyond 
whatever sunset date is in the final bill or they may not issue them 
for fear their fee authority will expire during the term of the permit. 
We suggest a 10- to 15-year sunset provided the Congress conducts 
routine oversight hearings on implementation of this legislation.
    As previously mentioned, we had also hoped this legislation would 
help resolve the near lockdown that currently exists on Federal lands 
with regard to new or expanded outfitter services. If the Congress 
wants the private sector to be involved in providing outfitting 
services in Forests, Refuges and on BLM lands, it has to provide the 
agency with the authority to streamline the required permitting 
processes. These changes would enable the agencies to open areas to new 
uses and enable existing service providers to adapt to changing 
markets.
    The following modifications and additions to this legislation are 
offered for your consideration with the understanding that some of 
these suggestions may be more appropriate for other legislative 
initiatives.

  1.  Because about 8,000 outfitter and guide special recreation 
            permits are issued by the Forest Service and BLM, the 
            outfitter and guide special use permitting authority 
            deserves its own Section in the legislation, which will 
            enhance the clarity of this legislation instead of mixing 
            that authority and those fees with other uses and users. We 
            estimate that at least 60,000 full- and part-time jobs are 
            at stake in rural areas just among Forest Service, BLM and 
            Fish and Wildlife Service permit holders.

  2.  All the costs in SEC 807(b) should not be attributed to permit 
            fees for outfitting and guiding. Permit fees should be held 
            in a special account for permit administration first and 
            foremost. Permit fees should be allowed to accumulate to 
            help cover the cost associated with permit processing when 
            permits expire. Permit holders should be consulted before 
            those fees are used for other purposes or to benefit other 
            uses. Fees to cover some or all of the costs for 
            restoration, monitoring of biological and cultural 
            resources, and similar items should be removed from SEC. 
            807.

  3.  A fee other than a permit fee should be considered to support 
            maintenance of trails, facilities, user education and 
            similar costs, but it should be applied to all users or to 
            none. Perhaps, the Recreation Fee Section could be 
            broadened so that a fee could be collected from anyone 
            using a resource or facility which requires oversight, 
            construction of specific facilities, and maintenance if the 
            fees are reasonable, cost-effective and benefit the user 
            base paying the fees.

  4.  The exemption from recreation fees for a wide range of uses in 
            SEC. 806 is confusing and muddies the water. This exemption 
            is so broad and ill-defined, the courts are likely to be 
            the agent determining which if any fee these recreationists 
            are subject to, including fees for use of facilities that 
            provide ``access'' to rivers or permits which provide 
            ``access'' since these users are exempted (by this 
            Section).

  5.  We believe that restoration and ecological monitoring are general 
            management obligations, inseparable among various users and 
            natural events and should not be subject to fees.

  6.  Streamline permit documentation. Authorize the use of 
            Programmatic Environmental Assessments (EAs) for recreation 
            uses and activities to include the self-guided and 
            outfitted portion of those uses. The BLM and National Park 
            Service already use this strategy to some extent. The goal 
            should be to enable these EAs to reduce some of the site 
            specific documentation requirements when permits are 
            issued. Categorical exclusions should be authorized for 
            routine renewal of existing uses even in the presence of 
            extraordinary circumstances when there is a finding of no 
            significant impact. Lawsuits by those opposed to commercial 
            outfitting activities have made the Forest Service gun-shy 
            about using categorical exclusions in these circumstances; 
            therefore a specific legislative authority would be 
            helpful. We need to find ways to encourage efficiency in 
            permit administration and NEPA documentation to enable 
            these permits to be issued cost effectively. Five or six 
            outfitters simply cannot bear the costs of a 700-page 
            Environmental Impact Statement, as was done to authorize 
            six outfitters to take 1,200 people per year into the 
            Pasayten Wilderness. The Forest supervisor later decided 
            the EIS was inadequate and withdrew the Record of Decision 
            to issue the permits after the agency spent hundreds of 
            thousands of dollars on the process for six permits.

  7.  We strongly recommend that Congress mandate what constitutes a 
            valid assessment of need for commercial services in 
            designated wilderness. This provision will help free the 
            agencies from the fear of litigation. The Forest Service 
            should eliminate these assessments of need in non-
            wilderness areas because there is no statutory basis or 
            funding. In response to lawsuits challenging the need for 
            commercial services, the agencies have to perform 
            assessments of need for those services. The Act states: 
            ``Commercial services may be performed within the 
            wilderness areas designated by this Act to the extent 
            necessary for activities which are proper for realizing the 
            recreational or other wilderness purposes of the areas.'' 
            Therefore, the assessment must also determine the extent of 
            that need and the degree to which it impairs wilderness 
            values. But the standards for documenting this need for 
            commercial services are not established or standardized 
            among the agencies. Therefore, it should be mandated.

  8.  In order to provide more flexibility to accommodate new 
            recreation services, reinstate 1-year temporary permits for 
            new types of outfitted uses. BLM currently has no temporary 
            permit authority. The Forest Service has a temporary 
            permit, but for only 200 service days. These temporary 
            permits should include operating plans, performance 
            reviews, fees, and utilization requirements similar to 
            longer term permits. There should be a cost effective 
            strategy to convert these permits to longer-term permits. 
            Categorical exclusions are already authorized for temporary 
            uses, which will make issuance of these permits feasible. 
            These permits can be issued when the ranger does a simple 
            assessment that the capacity is available for the new 
            activity. Uses should be allowed to re-occur for up to 3 
            years. This authority should not be used to extend existing 
            permits or for existing permitted activities unless there 
            is unfilled need for those services.

  9.  The provisions that are in the original REA authority, which 
            prohibit additional charges for road use and monitoring for 
            endangered species, should be reinstated. Permit holders 
            should not be charged road use fees unless other users are 
            also charged. Permit holders are often the minority users 
            of roads but would likely be billed for all or most of the 
            cost for road maintenance for every user. The same concern 
            applies to fees for biological monitoring for endangered 
            species since many other non-permitted users frequent these 
            recreation areas.

  10. For trips or recreation services which cross agency boundaries, 
            provide legislative authorization for one agency permit to 
            be issued to cover uses on the lands and waters of both 
            agencies.

  11. Provide the BLM and the Forest Service with the authority to 
            concession-out, non-essential facilities for recreation 
            services for permit terms sufficient to justify and attract 
            the capital necessary to make them viable for commercial 
            services. The BLM does not currently have this authority. 
            The Forest Service has it but does not use it very often.

  12. Mandate that permit fees be based only on the activities on 
            Federal lands. Currently, the Forest Service bases permit 
            fees on the entire cost of the trip, including activities 
            that occur on private land, essentially taxing activities 
            and services outside National Forests. The Forest Service 
            was ordered by the U.S. District Court in Alaska to stop 
            using this basis for fees (Tongass Conservancy v Glickman), 
            but the practice continues as official agency policy 
            outside the Alaska Region.

  13. The requirement for prior approval of the exemption from day use 
            fees for education institutions is important. We also 
            suggest limiting that fee exemption strictly to activities 
            in pursuit of course credits so that adult continuing 
            education recreational activities and similar programs are 
            not inadvertently exempted from fees.

  14. Provide clear authority for expansion of the pilot program for 
            stewardship credits or begin contracting with outfitters 
            for river and trail maintenance. We suggest including the 
            goal of reaching 40 units by the end of year three and 
            providing some form of reimbursement to ranger districts 
            from fee revenues for fee credits if that strategy is 
            adopted. There is also a new contracting authority (Sec. 
            8205. Stewardship end result contracting projects) for road 
            and trail maintenance for the Forest Service in the Farm 
            bill which may be considered if some source of funding is 
            available.

  15. Consider use of the Land and Water Conservation Fund for the 
            backlog of trail and facilities maintenance. While this 
            authority is probably not within the domain of this 
            legislation, we believe it is an important piece of the 
            puzzle for future legislation when the Land and Water 
            Conservation Fund is up for reauthorization.

  16. Limit the agencies' authority to provide fee-based services 
            directly to public when those services can be provided by 
            the private sector. We suggest clarification on what types 
            of tours are authorized by this legislation in SEC. 806(b) 
            and that they be limited to interpretive walks and hikes 
            where outfitting or specialized equipment are generally not 
            required. If cost recovery provisions are authorized for 
            outfitter permits, those same cost recovery provisions 
            should apply to the services agencies provide directly to 
            the public.

  17. We appreciate the reporting requirements in the bill but do not 
            believe they are adequate. Current reports of fee spending 
            are often so general, one cannot easily tell how the fee 
            money is being spent. The Salmon Challis National Forest 
            report for 2012 describes a few projects which were 
            completed, but does not reveal how much was spent on each 
            project. Expenditures are given for operational costs, such 
            as Visitor Services and Law Enforcement without further 
            detail. In 2012 the Intermountain Region, which is 
            comprised of 12 National Forests, reported spending 
            $319,899 on law enforcement from recreation fees for the 
            entire Region. The Salmon Challis National Forests spent 
            $172,263, about half of the Region's fee-based, law 
            enforcement expenditures. This imbalance could result 
            because that Forest simply has more fee money to spend and 
            is diverting it to law enforcement whereas the other 
            Forests have to rely on appropriated funds. There is no way 
            to tell if this spending is related to recreational 
            activity. The public should have an opportunity to meet 
            with the agency each year, to discuss these expenditures 
            and get a more detailed accounting.

  18. The draft bill also conflicts with the National Park Omnibus 
            Management Act authority for issuing contracts and 
            commercial use authorization to outfitters operating in 
            National Parks. REA should not govern contracting and 
            permitting procedures in National Parks.

    Thank you again for taking the time to consider this important 
legislation. We appreciate the opportunity to share our views on how we 
can continue to support the important economic and social benefits of 
outdoor recreation on federally managed lands and waters.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate those comments. We will 
now turn to Mr. Bannon.

   STATEMENT OF AARON BANNON, ENVIRONMENTAL STEWARDSHIP AND 
  SUSTAINABILITY DIRECTOR, NATIONAL OUTDOOR LEADERSHIP SCHOOL

    Mr. Bannon. Thank you, Mr. Chairman, members of the 
committee. Thank you. My name is Aaron Bannon, and I represent 
NOLS, the National Outdoor Leadership School. We are a non-
profit, outdoor, educational institution utilizing the 
wilderness classroom, typically through month-long, expedition-
style courses, and we educate 19,000 students every year.
    Our 230,000 graduates include high school and college 
students, Naval Academy cadets, corporate CEOs, returning 
veterans, and NASA astronauts. We were founded almost 50 years 
ago in Lander, Wyoming, and we have since grown to be one of 
the largest commercial outfitters in the country, offering 
courses in 14 States, including Wyoming, Utah, and Arizona; in 
9 countries; and across 6 continents.
    I want to thank this subcommittee for taking the time today 
to consider reauthorization of the Federal Lands Recreation 
Enhancement Act, or FLREA. Continuing this authority is 
critical to support the ongoing operations of permitted 
outfitters across the public lands system.
    Many key provisions of this law today work very well. 
Through FLREA, at least 80 percent of fees are spent within the 
unit where they are accrued, creating an incentive for both fee 
payers and agencies to participate in the fair fee program. 
These fees are used primarily to pay for repair, maintenance, 
or enhancement of recreation infrastructure, bug huts, and to 
support permit administration. FLREA ensures a balance of 
responsibility between commercial permittees, private 
recreationists, and general appropriations. We could do much 
worse than to simply reauthorize the Recreation Enhancement Act 
as it exists today. If that proves to be the swiftest path to 
its passage, NOLS supports straight reauthorization.
    In the meantime, the discussion draft we are reviewing 
makes a number of thoughtful adjustments to the existing law. 
Some are notable improvements, such as the pilot program to 
reimburse entities that do their own maintenance on public 
lands, and the retooled notification process alerting the 
public to changes in fees, and involving the public in how 
recreation fees are allocated.
    There are, however, some modifications that are 
problematic, particularly for special recreation permit 
holders. Specifically, in this discussion draft, cost recovery 
for the expenses of many nuts-and-bolts activities Federal 
agencies conduct is placed solely on the shoulders of special 
recreation permittees. Activities such as natural resource 
monitoring, restoration, emergency response, and law 
enforcement should not figure uniquely into special recreation 
permit fees.
    The cost of these activities should be shared equally by 
users, and therefore, be funded through general appropriations. 
Because the portion of the public that opts to travel with an 
outfitter or an outdoors school is only a small percentage of 
the recreating public, it is not reasonable for them to 
shoulder more of the burden than private recreationists do.
    This discussion draft also does away with Recreation 
Resource Advisory Councils, which were established to review 
fees in the current iteration of FLREA. While it may be 
appropriate in places where these councils have not functioned 
well, it should not exclude well-functioning resource advisory 
councils from continuing to operate. In Wyoming, for example, 
ours has functioned and continues to function very well.
    The sunset provision in the draft, set at 5 years, is too 
rapid a turnaround. In order to properly assess the success of 
this program, a longer period is preferable, and we recommend 
10 to 15 years.
    Finally, as we consider ways to enhance recreation on 
public lands, please consider highlighting the work that 
volunteers can do. Service corps and other organizations across 
the country play a key role in stretching available funds for 
maintenance and improvements. These programs should be 
supported. It strikes me that this is in line with Congressman 
Grijalva's Public Lands Service Corps of 2013, and I encourage 
the committee to hold a hearing on this bill.
    It is heartening to see that there is relatively little 
daylight between the various positions being expressed here 
today. We all want to see the Federal Lands Recreation 
Enhancement Act reauthorized, and reauthorized swiftly. The 
core of this bill, as it relates to the fees generated on 
Federal lands, is good. I want to express my gratitude to the 
members of this committee and to the witnesses testifying here 
today, as well, as we all share a common cause. We are all in 
the business of deepening people's connections with the 
outdoors. As Congressman Ruiz mentioned, these places are good 
medicine for the body, mind, and soul.
    It is a pleasure to work with you toward this goal today. 
Thank you very much.
    [The prepared statement of Mr. Bannon follows:]
   Prepared Statement of Aaron Bannon, Environmental Stewardship and 
      Sustainability Director, National Outdoor Leadership School
    Members of the committee, Mr. Chairman, thank you for your time 
today and for your attention to reauthorization of the Federal Lands 
Recreation Enhancement Act. I am here representing NOLS, the National 
Outdoor Leadership School. NOLS is a non-profit outdoor educational 
institution offering environmental studies, technical backcountry and 
leadership skills to students of all ages. NOLS utilizes the wilderness 
classroom--remote wilderness, roadless, and backcountry lands and 
waters--to educate 15,000 students each year, most frequently on month-
long expedition-style courses. The lessons learned on NOLS courses are 
invaluable to our graduates, who range from high school students to 
business leaders and NASA astronauts.
    The National Outdoor Leadership School (NOLS) supports swift 
reauthorization of the Federal Lands Recreation Enhancement Act (REA). 
As one of the largest permitted outfitters on Federal lands agencies in 
the country, our continuing operation depends upon certainty of a 
permitting authority and anticipated fees. We support reasonable 
refinements during this reauthorization process, and appreciate the 
collaborative spirit that has thus far moved this issue forward.
    The broad spectrum of support for reauthorization of this Act 
speaks to its functionality. Fees assessed through the existing program 
are, with some exceptions, reasonable and appropriate. REA extends a 
critical authority for assessing fees, and for providing guidance to 
Federal agencies to distribute those fees. Through REA, at least 80 
percent of fees are spent within the unit where they are accrued, 
creating an incentive for both fee payers and agencies to participate 
in a fair fee program. With additional refinements, REA can ensure a 
balance of responsibility between commercial permittees, private 
recreationists, and general appropriations for the maintenance of 
recreation infrastructure on public lands.
                  improvements in the discussion draft
    The Discussion Draft we are considering introduces some notable 
improvements to the existing system. The pilot program for stewardship 
credits, where groups who have an agreement with the land manager may 
be reimbursed for ``maintenance and resource protection work,'' (Sec. 
807(d)), is a good step toward fostering productive partnerships 
between Federal agencies and private entities. Many outfitters are 
already shouldering the costs of forest maintenance, such as clearing 
trail, to keep their operation viable. This would recognize that good 
work.
    The adjustment in public participation regarding the establishment 
of fees (Sec. 808), is a notable improvement over the existing 
Recreation Resource Advisory Council system. Many States have struggled 
to implement a well-functioning Recreation Resource Advisory Council 
(RAC), though Wyoming's is function quite well. The public 
participation model should streamline the fee assessment process. 
Similarly, the system established to report the use of fee revenues 
(Sec. 813), should answer concerns regarding how collected fees are 
spent.
             needed improvements upon the discussion draft
    There is room for improvement on a few fronts within this 
Discussion Draft, some of them critical. In some cases positive aspects 
of the original REA were lost. In other cases revisions themselves are 
problematic.
    For example, though the public participation changes help with the 
assessment of fees, nothing of the previous Recreation RAC is retained. 
In places where they worked well, their continuing existence should be 
supported through inclusion in this legislation. This may exist, 
perhaps, as an additional layer of oversight where States choose to use 
them.
    More critically, the cost recovery language specifically applied to 
Special Recreation Permit Fees (Sec. 807(b)), is extremely problematic. 
If it is retained as written in this discussion draft, it will create 
an undue burden on recreation permit holders. According to the 
discussion draft:

  (b) COST RECOVERY.--In setting the fee for Special Recreation Permits 
            the Secretaries may consider the costs associated with the 
            activities authorized under 807(a), including----

    (1) trail and facility construction;
    (2) maintenance;
    (3) natural and cultural resource monitoring;
    (4) restoration;
    (5) emergency response and law enforcement;
    (6) signage and user education;
    (7) permit administration.

  (c) RELATION TO OTHER FEES.--Special recreation fees may be charged 
            inaddition to day-use

    By and large, this is a laundry list of basic infrastructure that 
should by fundamental to core agency operations. It is inappropriate 
for fees assigned to special recreation permit holders to be uniquely 
responsible for standard amenities maintenance and operations. The 
portion of the public that opts to travel with an outfitter, or an 
outdoor school, to enjoy our public lands and waters is only a small 
percentage of the recreating public. It is not reasonable for them to 
shoulder more of the burden than private recreationists.
    Recreation fees should be used primarily to pay for repair, 
maintenance, or enhancement of recreation opportunities and 
infrastructure, for direct operating costs of the fee program, and to 
support permit administration. Backcountry and Wilderness maintenance 
work should be on par with these priorities. Fees should supplement, 
but not supplant, existing revenues for agency recreation programs.
    Additionally, the Sunset Provision (Sec. 820) in this discussion 
draft, set at 5 years, is too rapid a turnaround. A longer sunset 
provision would be advisable, especially given the relative success 
that the previous 10-year sunset provision allotted. Given a realistic 
reauthorization window, which was recently extended by a year, we may 
not be able to practically assess the merits and pitfalls of the 
existing act before it must once again be reauthorized. NOLS recommends 
a 15-year sunset provision.
                          other opportunities
    While there are limited opportunities to address permitting policy 
in this recreation fee legislation, we urge Congress to consider the 
significant and varied obstacles that exist to obtaining, renewing, and 
growing Special Recreation Permits on public lands. In general, given 
the value that Federal lands agencies attach to providing outdoor 
opportunities, we believe agencies should be proactive in supporting 
and expanding appropriate recreation activities on public lands. 
Obstacles in obtaining, renewing, and growing Special Recreation 
Permits on public lands are significant and varied. We should consider 
opportunities to streamline agency processes to improve services to 
permittees.
    For example, when there are reasonable opportunities for 
programmatic environmental reviews to be conducted on an activity or a 
suite of similar activities, agencies should pursue that opportunity to 
avoid shouldering permit holders with administrative fees that can be 
internally driven, routine processes. Also, while preserving the 
integrity of the National Environmental Policy Act, agencies should 
ensure that an appropriate but not excessive level of environmental 
analysis when a permit is renewed with no significant changes, 
including the use of Categorical Exclusions to renew permits.
    Clear support for volunteers, too, would benefit this legislation. 
Volunteerism is addressed, (Sec. 814), but we can do more to build 
partnerships between lands agencies and commercial permittees, 
volunteer groups, and institutions. While volunteer service work cannot 
fully supplant maintenance and enhancement pressures, it can help 
alleviate constraints and stretch existing fee dollars.
    Finally, we can encourage consistency across agencies and across 
districts when considering fee assessment and permit reporting 
requirements. These should be consistent and reasonable across agency 
boundaries. When a permittee spends time in multiple agencies, layering 
of fees can easily occur unless there is active coordination.
                             in conclusion
    It is hearting to know that there is relatively little daylight 
between the various positions being expressed. We all want to see the 
Federal Lands Recreation Enhancement Act reauthorized. The core of this 
bill, as it relates to fees generated on Federal lands, is good. While 
we have differences on details of this legislation we are predominantly 
all on the same side of the issue, and we appreciate its need. We are 
in the business of deepening people's connections with the outdoors. We 
are seeking that balance between providing access for people to 
locations and preserving the natural resource that inspires us. It is a 
pleasure to further this ideal through the work we are doing today.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate the testimony of all 
our witnesses. We will now turn to questions of any of them 
from our panel. As long as you have questions. Thank you.
    Mrs. Lummis. Thank you, Mr. Chairman. I particularly want 
to welcome Aaron back to our committee. Wyoming is very proud 
of NOLS and proud to be the mother ship of such an important 
organization, globally. So, welcome. Welcome to all of our 
panelists.
    I do want to focus on our last witness for my portion of 
the questions. You are right, the Wyoming Resource Advisory 
Committee members do provide informed advice to the BLM on a 
variety of issues, and the RAC does work, I think, 
exceptionally well in Wyoming, and exceptionally poorly in some 
other places. So, I am interested in hearing from you on how we 
might integrate a successfully operating RAC under the law with 
places where they just don't work. How can we legislate that to 
allow those that really do operate effectively to continue to 
do so, while recognizing it just doesn't work everywhere?
    Mr. Bannon. That is a great question. Thank you, 
Congressman. It is good to see you, too. Thank you for your 
excellent representation and support of NOLS over the years. We 
really appreciate it.
    I think the Wyoming example of this Resource Advisory 
Council is--could definitely be a model for the country. There 
is a provision in FLREA, as it exists today, that allows States 
to develop a system separate from exactly how a resource 
recreation advisory council is mapped out in the law, and the 
State of Wyoming pursued that exemption and got permission from 
the Secretary to create what they call REACT, the Recreation 
Action Team.
    REACT deals with fees, as is required through FLREA, but it 
has taken its responsibilities far beyond that. REACT engages 
all of the agencies across the State and a number of public 
entities, including NOLS and the Teton Science School to look 
for opportunities to promote activities in the outdoors, to 
engage youth in the outdoors. Fee review and approval is a 
portion of the work that--really just a piece of it. So I think 
Wyoming's program could be a model for the country.
    Mrs. Lummis. This question I will also pose initially to 
you, but I do ask other members to provide examples, too, of 
how special recreation permit fees are currently spent.
    Mr. Bannon. That is a good question. I think that, by and 
large, the fees are spent well. They are spent on improvements. 
Some of the improvements that Brian mentioned, we see 
improvements around the Shoshone National Forest, as well, for 
how these fees are spent. I think the challenge is sometimes it 
is not clear to permittees how those decisions are made, or to 
the general public, for what projects are chosen, or how fees 
are distributed between administration and between actual 
improvements. There is some language in the new discussion 
draft that I think actually makes some notable improvements on 
that, in terms of accountability.
    Mrs. Lummis. OK. Would anyone else care to respond?
    Ms. Haze. I can. For the Department of the Interior, our 
bureaus work and prepare 5-year plans for the more major 
projects that are doing capital kinds of projects, and 
prioritize them locally. They are doing exhibits on trails, 
visitor programs, a whole broad array of visitor services that 
help promote the enjoyment of the visitors.
    Mr. Merrill. In Utah I agree--I also believe that the BLM 
is doing a good job of using these fees. They--bathrooms are 
amazingly important, and require a lot of maintenance and a lot 
of money.
    Mrs. Lummis. Yes, yes.
    Mr. Merrill. You know, facilities, amenities like that, 
that are important to the resources, and everything from 
signage to examples of what I showed in the slides are all 
important, fire rings for camps, and everything along the way. 
Sometimes it is just about transportation costs, for example, 
of rangers getting to and from these remote resources, or 
funding of those rangers who do the monitoring and who might 
patrol the river. They get used in a lot of good ways, I think.
    Mrs. Lummis. While you have the microphone, could you 
please give us some examples of unreimbursed maintenance that 
an outfitter or guide might perform?
    Mr. Merrill. Yes, I am--Mr. Brown might know a little bit 
more about that, but we have a lot of--of our national trade 
association, we have a lot of Forest Service members. I am not 
one, but they are experienced and have the ability to clear 
forest trails, for example, and they do. They will do it in the 
way that the forest wants them to do it, with cross-cut saws. 
They are not taking chain saws and things into these areas. 
They would love to be able to do it, to just keep trails open, 
for example, so that the increasing number of trails that are 
closed due to beetle kill and deadfall and stuff doesn't just 
keep escalating.
    Mrs. Lummis. Yes.
    Mr. Merrill. So, the idea that there could be some credit 
given to them for that work toward their fees is a really great 
idea.
    Mrs. Lummis. My time has expired. You are right; 5 minutes 
really does go fast. I yield back, Mr. Chairman.
    Mr. Bishop. We will come back again. Mr. DeFazio, do you 
have questions?
    Mr. DeFazio. Thank you, Mr. Chairman. Ms. Weldon, there was 
a court ruling last week, as you know, regarding 
concessionaires operating in national forests. You know, 
Congress has seen fit to put certain restrictions on the 
agency, in terms of where you can and can't charge fees. When 
we first started the fee demo program it was a mess. I mean you 
had to get one for every forest, some--special use areas in a 
forest, and they were charging for people just to park their 
car, essentially, and walk in the forest or hunt.
    We have cleaned a lot of that up, we have put in 
restrictions. But it seems to me the finding of this court says 
concessionaires can charge fees for things the Forest Service 
can't charge for, and there are some who are concerned, 
including myself, that this could incent the agency to move 
toward a more privatization, or concessions, in certain areas. 
How would you address that?
    Ms. Weldon. Thanks, Congressman DeFazio. Thanks for your 
acknowledgment as far as all the learning that has occurred as 
we have worked through this fee program over the last almost 
couple of decades.
    This recent court ruling was really asking the question of 
the authority that the Recreation Enhancement Act has with 
concessionaires. So, it affirmed that there are different 
authorities that concessionaires use, or are authorized to use, 
compared with how we set up fees for recreation sites. 
Basically, the Granger-Thye Authority is the one under which 
concessionaires act, and the one under which the Forest Service 
enters into agreements with concessionaires to enable them to 
run a business that provides certain services.
    Mr. DeFazio. Right. Maybe if I make it specific we could 
get a more succinct answer. There is a lake in Mr. Walden's 
district that I am familiar with--Walton Lake, on the----
    Ms. Weldon. Yes, I am familiar with it.
    Mr. DeFazio. There is a camping facility there, boat launch 
ramp, and all that. Those are sort of accepted things for which 
you can charge a fee. There is a concessionaire there.
    But if people just want to drive up to the lake, park their 
car, and have a picnic, very low-impact activity, they are 
being charged a daily use fee there. It is something, if the 
Forest Service was maintaining that site, they couldn't do.
    What we are getting at is--I mean there is a concern that 
this is going to the Forest Service, we are going to see 
charges in areas where we--for activities that we don't think 
should be charged for.
    Ms. Weldon. Our relationships with concessionaires are one 
that they must work very closely with us to get approval for 
any fees that they are charging. We don't foresee moving into a 
place where we are opening up the opportunities for fees to be 
charged that aren't commensurate with real clear services being 
provided.
    So, we don't feel that this is going to open the flood 
gates for concessionaires moving into more privatization, 
because they can only do that with our agreement and authority, 
and what the local community would be willing to sustain.
    Mr. DeFazio. OK.
    Ms. Weldon. So we think that we will be able to manage 
that.
    Mr. DeFazio. OK. Because there has also been concern 
expressed about a very popular area where people park to just 
walk across the road to climb--same thing. I mean some people 
wanted to get that as--a parking lot as a concession, because 
it would be very lucrative, and the----
    Ms. Weldon. I think it is really important to stay clear on 
what the intention of both those authorities are that they do 
require that engagement with the agency and with the public.
    Mr. DeFazio. A public process.
    Ms. Weldon. Yes.
    Mr. DeFazio. Yes. Another concern I have with the Forest 
Service is a lot of people live in Portland. They buy passes 
locally right now--say at the Mount Hood Forest--but they go 
elsewhere, many of them, to recreate. Yet the revenue stays 
with the Mount Hood Forest. I understand region 6 is looking at 
a pilot program----
    Ms. Weldon. Yes.
    Mr. DeFazio [continuing]. Which I would really encourage, 
where people can essentially specify where they expect to 
recreate, and some portion of the fee for the pass they buy 
would go there, as opposed to just being wherever it was they 
bought the pass.
    Ms. Weldon. Correct. That pilot is starting this week, 
actually. So you can now buy your pass in Portland or in 
Eugene, and part of that process you can identify where you 
recreate. That info in the Pacific Northwest can be accumulated 
to help guide where the fees go.
    Mr. DeFazio. OK. So, we would want to give you flexibility 
in the law, whereas currently, right now, a certain percent is 
supposed to stay with and be non-appropriated funds at that 
local unit. But you think you have legal authority now to 
reallocate that money outside of that area?
    Ms. Weldon. We need to make sure that the law allows that. 
We just want to make sure that, as our technology changes and 
get more specific, we would have the flexibility to have those 
fees go to where those users would like them to go.
    Mr. DeFazio. OK. We will work on that. Thank you. Thank 
you, Mr. Chairman.
    Ms. Weldon. Thank you.
    Mr. Bishop. Thank you. Mr. LaMalfa, do you have questions?
    Mr. Grijalva, do you have questions?
    Mr. Grijalva. Thank you. Let me ask Ms. Weldon and Ms. 
Haze, both. Recreation fees--and that is part of the big 
discussion today--are applicable to everyone, regardless. But 
there has been a special effort by the Department to try to 
make the public lands more accessible to more communities. It 
is a very good initiative, and I am glad it is being done.
    Does that--has there been any thought about fees 
disproportionately limit the access for low-income, poor 
people, to be able to access the lands? Any consideration that 
is being thought about in terms of sliding fee, passes, other 
kinds of things that would fit into this discussion that 
potentially could be something that is explicit in the 
legislation down the road?
    Ms. Weldon. Thank you for your question, Congressman. One 
thing we like to acknowledge is that developed sites across the 
National Forest System, there are over 20,000 of them--a subset 
of those, about 4,000, are places that we actually charge fees. 
So a citizen can come to a national forest and experience 
quality outdoor rec with good support for amenities in many 
places. We are being very careful, as we move to the future, 
about where it makes sense, and where the local market and 
citizens can support additional fees.
    I agree with you, it is worthwhile for us to keep an eye on 
where we charge fees, and whether or not it is affecting 
visitation. Right now, with the surveys that we have done, we 
haven't seen that there has been an effect of folks choosing 
not to recreate on national forests, due to fees.
    Mr. Grijalva. OK, thank you. Mr. Merrill, in your 
testimony, in your written testimony, you make a point about 
the idea of--you take issue with the idea of carving out fee 
exemptions for educational groups, and suggest that any 
exemptions that are made be very, very narrowly crafted.
    Mr. Merrill. Yes.
    Mr. Grijalva. Can you give us a specific example? The 
follow-up to that is why you believe that not all non-profits 
should be exempted from recreation fees.
    Mr. Merrill. My experience is many of the non-profit groups 
with whom we have worked are well-heeled. They have plenty of 
money. The fees are not an issue for them. So, to paint with a 
broad brush stroke that just because you have the title ``non-
profit'' or ``educational,'' I think, is just that, it is too 
broad.
    A lot of university groups in Utah run specialty trips, for 
example. You know, educational trips with students, but those 
students pay thousands of dollars to have that experience. Fees 
are not a problem for them. There might be other groups that--
where----
    Mr. Grijalva. OK, appreciate it.
    Mr. Merrill [continuing]. Budget is a problem.
    Mr. Grijalva. Mr. Bannon, any comment on that exception 
question?
    Also, I wanted to ask you, too, your organization has 
difficulty sometimes acquiring a sufficient amount of permits. 
My question was how an activity-based, programmatic, 
environmental review would help toward that end.
    Mr. Bannon. Thank you, Mr. Congressman. These are great 
questions.
    You know, NOLS is a non-profit, educational institution. We 
find it much more pragmatic to be recognized as a commercial 
permittee, and to pay our 3 percent to Federal agencies to 
recreate. So I do tend to agree with Brian, that we want to be 
pretty careful about how we carve out exemptions. There is 
certainly certain groups that really deserve it, and then there 
is other groups similar to ours, who should be able to pay 
their fair share.
    To your second question, I think there has--especially in 
the forest we see a backlog of processing that would allow 
additional permits to be awarded. They are expected to do 
capacity analyses, and it has been pretty difficult thus far 
for those capacity analyses to happen. So, what ends up 
happening is if a group wants to obtain additional days, as we 
are trying to do on the Shoshone National Forest, basically 
there is a microcosm of capacity analysis that is being 
conducted. Programmatic aid that looked at capacity for all 
groups that didn't charge all groups to do so would be a good 
alternative to that. Thank you so much, Mr.----
    Mr. Grijalva. Thank you. Yield back.
    Mr. Bishop. Thank you. Mr. Daines, do you have questions?
    Mr. Daines. I do, Mr. Chairman. Thank you. I have the 
privilege of representing the State of Montana as a Member of 
Congress. An avid outdoorsman, fifth-generation sportsman. So 
thank you for the testimony today. It is very relevant. Makes 
me homesick, but I am 14 hours and 20 minutes away from 
breathing the air of Montana, but who is counting?
    [Laughter.]
    Mr. Daines. Mr. Brown, your testimony talks about the risk 
of runaway analyses when permits are up for renewal, and how 
streamlining the permit renewal process and the permitting 
process overall would save costs. Could you expand a little 
more on that?
    Mr. Brown. Thank you, Congressman. Yes. As you know, in 
Montana, outfitters in the Bob Marshall are being required to 
sign cost recovery agreements, which make them agree to cover 
the cost of any level of analysis before they receive their 
permits. So it is actually signing a blank check agreement. 
They could be paying for a full 700-page EIS, which small 
businesses just could not afford.
    So, there are ways to streamline the processing for those 
permits. Doing programmatic environmental assessments, for 
example, expanding categorical exclusions, as was done in the 
farm bill--I think it was Section 603, but I am not sure--for 
forest thinning and restoration projects, if we can do it for 
forest thinning, we should be able to do it for outfitting and 
guiding. That would cut down on the documentation requirements 
and the costs that the agencies incur in issuing these permits.
    Mr. Daines. Yes, and I was troubled when you see the term--
from a Montanan, saying they have to cut a blank check when 
renewing their permit, something has to change here in this.
    How much of this uncertainty and this whole blank check 
comment really could be fixed by strengthening protections from 
these habitual litigants that come from these fringe extreme 
groups, or by streamlining NEPA and ESA consultation?
    Mr. Brown. I think, if it is in the law, then it is more 
difficult for lawsuits to be filed. The Forest Service has 
actually--at least some of the people in the field that I have 
talked to--have suggested that authority for categorical 
exclusions would be appreciated, or at least they would 
appreciate them.
    So, I think it is very important, if it is mandated--let me 
give you another example. There is a requirement in wilderness 
to do an assessment of need for commercial services, because 
the Wilderness Act basically says that commercial services are 
allowed to the extent necessary to fulfill the recreational 
purposes of the Act. So the Forest Service now, as a result of 
lawsuits, has to do assessments of need, then they have to 
determine the extent of that need, then they have to determine 
whether the extent of that need has an impact on wilderness 
values. There is no standard for that.
    So, if Congress, for example, mandated what a needs 
assessment was for wilderness, that would take that issue off 
the table.
    Mr. Daines. That is helpful. We, too, have heard some 
positive feedback on some of the provisions in the last farm 
bill that is starting to move down the field here, and a 
certain amount of progress in policy. So I think it is 
something that this committee ought to look at as we craft 
policy.
    Let me ask you a question about the uncertainty and cost 
recovery that is due to wildfire, beetle kill, lack of trail 
maintenance, the lack of active forest management. Seems to me 
if the forests are left dry, overstocked, trails are 
unmaintained, the cost of outfitting our public lands is just 
going to continue to increase. Do you share that view?
    Mr. Brown. Yes, I do. The difficulty now is that--and I--
because I have been to Montana, I have actually seen these 
trails in person, have been on--my family used to do pack trips 
quite a bit out West. So the beetle kill and fire, winter 
storms would blow down 400 or 500 logs, sometimes over a trail, 
an outfitter has to go out in the start of the season with 
cross-cut saws in wilderness, pay their employees to clear 
those trails, because the Forest Service crews either--the 
Forest Service is only maintaining 35 percent of the trail 
system. So they either don't get there, ever, or their trail 
crew gets there too late.
    So, the expense becomes the outfitters'. These are trails 
that the public uses, not just outfitters.
    Mr. Daines. Right. Last, how do you think Congress should 
strengthen recreational access into wilderness areas?
    Mr. Brown. I think that removing any of the barriers to 
recreation access, such as the needs assessment question for 
outfitting and guiding, would be helpful. I think that 
reauthorizing temporary permits for new activities, which 
enables categorical exclusions would be another way to improve 
access, especially for new activities. Those are two solutions. 
I think that we need to look at less bureaucracy, basically, in 
authorizing use, and making sure that we have plans that 
facilitate access.
    Party size restrictions in wilderness are another big 
issue. There is no science related to it, there just seems to 
be this desire to cut party size.
    Mr. Daines. Thank you. Thank you, Mr. Chairman. I am now 
just 14 hours and 15 minutes away from breathing Big Sky air. 
Just telling you that. So thank you.
    Mr. Bishop. When you don't make your plane, we will re-
evaluate those numbers.
    Let me just--for the committee's sake, and also the guests 
who are here--we will probably be voting maybe in about 10, 20 
minutes or so. There is another panel. We will go through that 
maybe after votes, but we will do that. If there is another 
round of questions for these witnesses, we will do that, as 
well. I do have a couple, while we have the agency here.
    Let me follow up very quickly with Ms. Weldon. 
Representative Grijalva asked you about the low-income impact 
for visitation. Is there any research that the Forest Service 
has done to quantify that?
    Ms. Weldon. Not to my knowledge have we done some specific 
studies with low-income and whether there is a challenge for 
visits.
    Mr. Bishop. All right. To either you or Ms. Haze, there 
seems to be a little reporting on how agencies spent the 
revenue that is generated. Do the agencies track expenditure by 
project?
    Ms. Haze. We do. We track at the unit level, they are 
tracking the fees they are using, both obligations and 
expenditures. I would just----
    Mr. Bishop. Is that information then reported on a national 
level?
    Ms. Haze. It is rolled up in a summary level. So in our 
systems we would have it at the unit level and have that 
detail. We do the 3-year report, and then both the Forest 
Service and our bureaus report annually on that financing in 
our budget----
    Mr. Bishop. All right.
    Ms. Haze [continuing]. That is submitted.
    Mr. Bishop. Ms. Haze, only 131 of the parks charge entrance 
fees, and the rest don't. How do you decide where to charge 
entrance fees? Is it fair that some sites are free and some 
sites have fees?
    Ms. Haze. That is a really great question. So the decision 
about whether or not to collect entrance fees is made by the 
park managers. They are looking at issues including the 
logistics and the ability to collect fees if they have multiple 
sites of entry. The level of staff they have and infrastructure 
to support it. As these gentlemen pointed out, you don't want 
to make this cost too burdensome and bureaucratic.
    Then, management goals, including whether we want to make 
sure that under-served communities and urban areas, for 
example, have access to recreation. All those factors into 
those decisions.
    Mr. Bishop. Are there any standards that the agency has 
determined that these land managers at the local level use to 
determine whether they are going to collect fees or not?
    Ms. Haze. At the national level in each bureau there is a 
set of values that they are looking at: the value of getting 
people out and seeking recreation, the under-served 
communities, again, and where it makes sense to have the fees.
    Mr. Bishop. This could actually go to both of you, but it 
is probably more prevalent on the Park Service. You have free 
fee days, or fee-free days, I should say. Have you done any 
analysis on how much revenue is lost on these days?
    Ms. Haze. We have. I don't have those at my fingertips, but 
we have estimated the impacts. We had to do that as part of our 
determination to declare the fee-free days.
    Mr. Bishop. All right. Let me go back and follow up with 
Mr. DeFazio's questions with Ms. Weldon, if I could, because I 
thought they were very interesting on that court case.
    Does the Forest Service then use concessionaires to avoid 
some of the restrictions on changing fees in FLREA?
    Ms. Weldon. The Forest Service doesn't try to game between 
the two of those. They are really quite distinct. The thing 
they do have in common is the fact that, as we look at which 
authority to use, where to charge fees, that we do that in such 
a way that is really responsive to what amenities the public 
could appreciate. With concessionaires, in particular, is there 
a business plan that could fully support them as a business 
providing those services that the public wants?
    Mr. Bishop. If there were few concessions, would public 
access increase or decrease?
    Ms. Weldon. That is a good question. In general, we use our 
outfitter guides, our concessionaires, as a way to extend and 
expand the availability of experiences for the public, 
especially those who may not be able to fully support the thing 
they want to do without having assistance from those types of 
business partners.
    Mr. Bishop. So what do you predict would happen if 
concessionaires were required to take all passes?
    Ms. Weldon. I think--and you will hear probably from the 
next panel--that there would be a mixture of concern, as far as 
the tradeoff of the bottom line--our concessionaires are 
business partners, compared with working in--with us. They 
actually host and deliver the services as part of a business, 
compared with a system where those funds go back into a large 
pot. So that would be the tradeoff, or the concern.
    Mr. Bishop. Thank you. To Mr. Merrill, Brown, and Bannon, I 
did have questions for each of you, but Daines and Lummis took 
them all. So that is the last time I let them go first. I 
appreciate--and we will have conversations as time goes on.
    Mr. DeFazio, do you still have other questions?
    Mr. DeFazio. Yes. Thank you, Mr. Chairman. To Ms. Haze, it 
is my understanding--and I don't know if you are familiar with 
this, but BLM is reviewing its special permitting. I will be 
specific. There is a group called Cycle Oregon. They hold a 
week-long bicycle ride every year. Any and all--it is a non-
profit, and any and all proceeds over and above their costs are 
dedicated to a rural community that is along their route. They 
have built sports fields and things at local high schools and 
communities that don't have a lot of money.
    A few years ago they rode, I think, 180 miles on Forest 
Service roads and at a very reasonable fee--I was on this 
ride--and then they rode 80 miles on BLM on a 1950s chipseal, 
not a really great road that hasn't ever been maintained, to go 
through a forest over to the coast, and BLM wanted to extort 
them for $25,000. There were no BLM law enforcement officers, 
there were no amenities used. They merely rode over the road.
    Now this seems--and I have been quite involved in this--it 
seems to me that the Forest Service, where they rode more miles 
for about one-tenth the cost on a better road, you know, there 
needs to be some consistency here. What is the review process? 
How are you going to look at the Forest Service standards? 
Because they seem to be much more reasonable, in terms of the 
impacts and costs they charge for.
    Ms. Haze. I am very glad you asked me that question, 
because the last time I appeared here to talk about this 
program and talked about this issue it was rather unpleasant. 
So, better news. BLM has spent quite a bit of time on this, and 
they are looking at this as a linear event. They can bring 
their fees and their approach in line, more in line, with the 
Forest Service. So I think that demonstrates the flexibility of 
the program and the program we have now.
    I think we consider to be challenged to some degree, as 
these gentlemen did a really good job of explaining with this 
issue about profits and non-profits. So I think that will merit 
additional discussion.
    Mr. DeFazio. All right. Or perhaps direction from Congress.
    Then, very quickly to Ms. Weldon, this is just a 
suggestion, which I have made to the regional supervisor and 
others. I had an experience last summer backpacking in a 
forest, the Eagle Cap Wilderness, Wallowa-Whitman, and went to 
the Web site to kind of see what the conditions were. Of 
course, on the Web site there was no useful information, except 
for a couple of campgrounds, because apparently they have a 
rule that they can't assess, on an annual basis--put on any 
information about a trail until they have sent someone out and 
they have come back and reported on the trail.
    But the example here is the year before the bridge had 
blown out on this trail over a stream, and they didn't even put 
that information up, and I don't think the bridge would have 
repaired itself over the winter, so they could have at least 
put up the data from the year before: ``bridge out.'' But they 
didn't even do that.
    I talked to the supervisor, I talked to the recreation 
person. I suggested that--couldn't you just have, like, a page 
where the public--because it used to be in the old days you 
could call the Forest Service, talk to a local ranger, and say, 
``How are the bugs at this lake?'' They will say, ``Oh, God, 
awful.'' You know? Can't do that any more, you don't have 
enough people, you don't get people out there.
    But other people have been there, but there is no aggregate 
place for them. Said, ``Oh, no, we will have horrible liability 
if we let people go on to anything that we are associated with 
and put things about trail conditions on it.'' I mean do we 
need to extend you some legislative cover here, so you could 
post sites like that so users could actually put up useful 
information for people who intend to go to that forest or 
recreation----
    Ms. Weldon. I fully agree with you. I would say the biggest 
barrier is around just those security issues of what we post. 
But we are actually exploring ways for our own employees, as 
they are out and about, to be sources of info that can be 
readily posted. ``Went such-and-such a place, here is how it 
looked today.'' You know, from the standpoint of health and 
safety, for sure, if we have information, we must post it. We 
should do a better job of that. But we are exploring how in the 
world of social media and such, and different ways of sharing 
information, we can be much more nimble in making that 
information available. So I appreciate the feedback.
    Mr. DeFazio. All right. Thank you. Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Grijalva.
    Mr. Grijalva. Yes. Quick question for Ms. Weldon and Ms. 
Haze. We are--we heard in this panel, we are going to hear 
probably in the next panel, stakeholders from outfitter and the 
guide community, concerns about the availability of special 
research permits.
    So, two questions. How have the shrinking appropriations 
impacted your agencies' ability to process these permits? And 
have there been any attempts to do activity-based programmatic 
environmental assessments that came up today--consistent with 
NEPA compliance? The categorical exclusion concept, that would 
potentially increase the available permits. What are the 
potential problems with that approach?
    Ms. Weldon. Thank you. I just want to acknowledge how 
important our outfitter and guide business partners are to 
delivering those services to the public, and really appreciate 
the strong relationships that we have with them, and the 
comments today.
    Our objective is to ensure that, as we are permitting 
activities, we do it in such a way that we can understand and 
ensure the fiscal responsibility, what the market can support 
successfully. Also, how can we safely and, in a sustainable 
fashion, have these activities occur on public lands? I will 
acknowledge that we are challenged, compared to the amount of 
opportunity that outfitter and guides and other folks want to 
bring our way, and being able to be fully responsive.
    So, we are in the process of really evaluating what might 
be a different model for us to be able to be more responsive, 
because of our acknowledgment of that economic opportunity and 
the needs that citizens are expressing.
    So, if we can have different mechanisms to get those bottom 
lines of financially responsible, ecologically feasible, and 
what the market can bear in that legal context, then we would 
like to work with you to see what else we might be able to do 
there.
    Mr. Grijalva. Thank you.
    Ms. Haze. Could I add to that? I would just like to point 
out I think it is the ability we can leverage the recreation 
program and the fee program with our appropriation that allows 
us to maintain a good bit of stability. Last year, during the 
sequester, I know all of us were not happy that that happened. 
In a lot of cases, the programs could continue at our sites 
because of the fee program. There have been real impacts on 
agency budgets and their ability to address all of the things 
we want to address. Thank you for that question.
    Mr. Bishop. I want to thank the panel for your testimony 
here, and dismiss you at this time. We have votes that are 
going on. This will be, in all sincerity, probably about 25 
minutes before we get done with these two votes.
    So, what I am going to do is dismiss this panel. I hate to 
do this to the second panel, but that is what happens when we 
do votes on a Friday--or have committee hearings on a Friday. 
So we will ask you simply to enjoy the amenities of this room.
    [Laughter.]
    Mr. Bishop. For about 25 minutes. We will be back to 
continue on with that.
    Once again, I appreciate this panel being here, and thank 
you for all your efforts. Anything else you have for the record 
that is written, we will add to it.
    I would also like unanimous consent to add to the record a 
letter that has been sent to me by a Utah-based recreation 
company that could not be here today, but would like to have 
their comments submitted.
    [No response.]
    Mr. Bishop. So, without objection, since no one is 
listening to me, it is part of the record.
    [The information submitted by Mr. Bishop for the record 
follows:]
       Letter Submitted for the Record by Mr. Bishop on H.R. ____

                           American Aviation, Inc.,
                                      Salt Lake City, Utah,
                                                     April 2, 2014.
Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands and Environmental Regulation,
U.S. House of Representatives, 123 Cannon Building,
Washington, DC 20515.

Re: April 4, 2014 Federal Lands Recreation Enhancement Act Hearing 
        (FLREA)

    Dear Chairman Bishop:

    Our National Parks, Monuments and Recreation Areas are important 
destinations for national and international recreation users, also 
known as park unit visitors. Of the top 25 domestic travel locations, 8 
of them are National Parks. They account for more than $30 billion in 
economic activity and support more than a quarter million jobs 
annually.
    The core of American Aviation's business is dealing with those 
recreation users that enjoy Glen Canyon National Recreation Area from 
the air. While air visitors do not pay a fee to the Recreation Area, it 
should be noted that they do not use ground facilities or require 
National Park Service (NPS) employee management or support. What the 
air visitors do contribute toward is word-of-mouth promotion of what 
the Recreation Area has to offer to their friends and families. We know 
of several examples of our visitors returning to enjoy the Recreation 
Area by watercraft, a trip inspired directly from their initial 
introduction to the park through their air tour experience.
    NPS' statutory purpose under the 1916 Organic Act is twofold: ``(1) 
to conserve the scenery and the natural and historic objects and the 
wildlife therein; and (2) to provide for the enjoyment of the same in 
such manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.''
    We understand and sympathize with their dilemma of balancing 
conservation responsibilities with the demand of recreation users, all 
while dealing with strained operating budgets, not the least of which 
is their $11.5 billion maintenance backlog. We also believe that they 
can do a better job of prioritizing their duties and expenditures, 
overall.
    Since the National Park Air Tour Management Plan Act (ATMP Act) was 
passed by Congress in 2000, the NPS and the FAA have spent substantial 
revenues and have yet to complete a single air tour management plan for 
any park unit. In the interim, while patiently awaiting these plans to 
be completed for any given park, air tour operators were granted 
Interim Operating Authority (IOA) for a limited number of flights 
annually based on prior activity, essentially a ``cap'' that has 
precluded any opportunity for growth or expansion for over a decade. 
Not surprisingly, the stalled efforts in adopting air tour management 
plans have had a detrimental effect on Air Tour companies.
    The Act, and the resultant delays attributed to the dismal 
performance of implementing it by our Federal agencies, has inhibited 
market growth, and stymied competition between the existing market 
participants, as well as created insurmountable barriers of entry for 
new market entrants.
    The NPS Director's Order #22 outlines their fee program purpose as 
supporting the NPS mission as it relates to: ``resource stewardship, 
visitor facility improvements, education, and visitor use management''. 
It further states: ``Fees are used to fund projects that address 
deferred maintenance needs, provide for new visitor programs and 
services, protect resources, improve and rehabilitate facilities for 
visitors.'' We have come to learn that FLREA funds are being used by 
NPS for their soundscape programs, which is responsible for their 
duties under the ATMP Act.
    American Aviation has applied numerous times for an increase of the 
``IOA'' (number of flights) we are permitted to provide over the Glen 
Canyon Recreation Area. We have been waiting over 6 months on our 
latest application, and the foot-dragging continues.
    Shouldn't the type of Park Unit be the primary consideration in how 
air tours are managed and the number of IOA (number of flights) allowed 
or how an Air Tour Management Plan or Voluntary Agreement is crafted? 
Given that Glen Canyon Recreation Area is primarily a watercraft 
recreation area, should we be held to same soundscape standard as 
Yosemite or Yellowstone?
    The NPS, under the ATMP Act, has the discretionary authority to 
approve increases in IOA (number of flights). We have been told that 
the NPS Director is vehemently opposed to increasing the number of 
flights over any Park Unit no matter what the circumstance or 
situation. If they are unable to responsibly exercise their authority 
in a timely manner, perhaps watercraft recreation areas should be 
excepted out of the ATMP Act.
    While we support the concept of FLREA, we believe the act needs 
fine tuning with consideration given that this effort may well serve as 
an opportune vehicle for providing the NPS with more prescriptive 
guidance for prioritizing its expenditures.
    Chairman Bishop, on behalf of our employees, our Air Tour visitors, 
the residents of southern Utah and Page, Arizona, we appreciate your 
efforts on all of our behalfs to make the NPS more efficient and 
recreation-user friendly.

            Respectfully,
                                              Larry Wright,
                                                         President.

                                 ______
                                 

    Mr. Bishop. We are in a state of adjournment.
    [Recess.]
    Mr. Bishop. Let me call the next panel forward. If I could 
have--looks like you are almost all there--Kitty Benzar, who is 
from the Western Slope No-Fee Coalition; Derrick Crandall from 
the American Recreation Coalition; Elizabeth Pemmerl--am I 
close?
    Ms. Pemmerl. You are close.
    Mr. Bishop. But no cigar, OK. General manager of NIC; Toddy 
Davison, Chief Executive Officer of Travel Oregon; and Jack 
Terrell, who is from the National Off-Highway Vehicle 
Conservation Council.
    So, we appreciate you being here. You remember the deal 
about watching the time in front of you. We are officially now 
back in session.
    Mr. Terrell, allow me to let you go first. I realize you 
have a plane to catch, and a lot of other people do, as well, 
so--I mean some other people do, as well. So we are going to 
try and get this one done, hopefully within the hour. Let me 
allow you to go first, and then leave when you need to leave. 
OK? Mr. Terrell, you are recognized.

  STATEMENT OF JACK TERRELL, SENIOR PROJECT MANAGER, NATIONAL 
            OFF-HIGHWAY VEHICLE CONSERVATION COUNCIL

    Mr. Terrell. Mr. Chairman, Ranking Member, distinguished 
members of the subcommittee, thank you very much for allowing 
me to testify, and thank you for rearranging the schedule. I 
appreciate it very much. I am the senior project manager for 
the National Off-Highway Vehicle Conservation Council. We are a 
501(c)(3) education foundation, and we are a national 
organization of off-highway vehicle recreation enthusiasts.
    I think in the interest of keeping it short, I am going to 
skip over quite a bit of what I have submitted as testimony. I 
do want to say that it is the official position of the National 
Off-Highway Vehicle Conservation Council that we support 
Federal recreation fees as a critical source of funding to 
maintain and improve quality recreation opportunities on public 
land. We feel the demand for that. Recreation is growing, and 
many times the appropriated funds to support that type of 
activity on public lands doesn't provide enough funding to 
support the activity.
    I will say, however, that our support for the recreation 
fee comes with a qualification, and that qualification being 
that the fees collected be directed back to the location and 
the recreation activity from which they were collected. I think 
that is extremely important to maintain the public support for 
recreation fees on public land, that they have to see the 
result, direct result, of what they are paying the fees for. So 
I would say that, that it is extremely critical to any changes 
or any improvements that you make to the law.
    These recreation fees have been very important to the OHV 
community across the country, and the community has worked very 
closely with both the BLM and the Forest Service on these 
activities. Often, the money that is collected through these 
recreation fees provides leverage that ends up actually 
leveraging the amount of money, and additional money comes in 
from State grant programs, and also from non-profit 
organizations, support organizations, that will add to those 
fees to create increased amenities at local locations.
    Having said that, in testifying to what the National Off-
Highway Vehicle Conservation Council, what our position is on 
it, I would also like to take the opportunity to provide some 
experience that I gained as a member of one of the RACs that 
was formed under the current legislation. I have been a member 
of the southern region RAC for the U.S. Forest Service. My term 
expired last month. I served part of that time as Chairman of 
that RAC and became quite involved and knowledgeable of how the 
RACs work.
    I am interested to hear that there are parts of the country 
where you don't feel the RACs have been successful. My 
observation has been that, particularly in the southern region 
of the Forest Service, the RAC was very successful, really got 
down to the details of what it was supposed to do, looked into 
the--reviewed all of the fees, and made sure that they were 
justifiable. We worked very closely with the Forest Service 
employees, both at region level and at the ranger, district, 
and forest levels. It was an extremely, I think, beneficial and 
very efficient process.
    However, I do have to criticize what ended up after--what 
started out as a very successful program pretty much ran up on 
the rocks and became totally inactive for 5 years. In that 5-
year period you really did not have a RAC in the southern 
region. I would have to say that the reason for that was not 
that the private members of the RAC became disinterested. They 
stayed interested and involved to the end. It was certainly not 
a problem with the folks in the region or the folks in the 
Forest Service units at the lower levels.
    Where the problem came up was that the RAC--again, I'm 
speaking Region 8, southern region--did not get the 
administrative or budgetary support from Washington to continue 
its operation. This was both because of sequester, it was 
because of the government shut-down, it was for a lot of 
reasons. But we went for 5 years and we did not have a single 
meeting of that committee. I think that the RAC is the place 
where you get your--where everything comes together. You get 
your public input, you get input from stakeholders, such as the 
different concessionaires. If that RAC does not operate 
efficiently, in effect, the law goes away. I would urge very, 
very much that any changes that are made to the law made sure 
that the budgetary and administrative support was there for the 
RACs to operate properly.
    With that, I will conclude my statement. Thank you.
    [The prepared statement of Mr. Terrell follows:]
 Prepared Statement of Jack Terrell, Senior Project Manager, National 
         Off-Highway Vehicle Conservation (NOHVCC) on H.R. ____
    Chairman Bishop, Ranking Member Grijalva and distinguished members 
of the Subcommittee on Public Lands and Environmental Regulation, thank 
you for the opportunity to testify about reauthorization of and 
amendments to the Federal Lands Recreation Enhancement Act (FLREA).
    I am Jack Terrell, Senior Project Manager of the National Off-
Highway Vehicle Conservation Council (NOHVCC), a national body of off-
highway vehicle (OHV) recreation enthusiasts. NOHVCC is a 501(c)(3) 
education foundation that develops and provides a wide spectrum of 
programs, materials and information to individuals, clubs, 
associations, public agencies, and private land owners in order to 
further a positive future for responsible OHV recreation. Additional 
information about NOHVCC can be obtained at www.nohvcc.org.
    In my role as NOHVCC Senior Project Manager I have worked 
extensively with Federal (USFS/BLM/FHWA), State and local government 
entities, private landowners, NGOs and recreation enthusiasts on 
motorized and non-motorized programs and projects.
    NOHVCC supports Federal recreation fees as a critical source of 
funds to maintain and improve quality recreation experiences on public 
lands. The demand for recreation opportunities on public lands is 
growing at a time when appropriated recreation funding falls short of 
the needs of the USFS, BLM and other Federal agencies. Our support for 
the recreation fee program comes with the qualification that the money 
collected by these fees be used at the same location and in support of 
the same recreational activity that generate the fee. In this regard, 
rules and procedures must be in place to accurately document where the 
fee is collected and where the fees are spent. The recreation public 
will support the fees when they are used to support the activity where 
the public pays the fee.
    These recreation fees have been very important to the OHV community 
in maintaining and improving motorized recreation opportunities at 
numerous USFS and BLM areas, such as the Ocala National Forest, 
Imperial Sand Dunes, and many other locations. Often the revenue from 
these fees has been used to leverage additional funding from various 
State and local grant sources, and non-government sources. This 
leverage often provides on-the-ground improvements far beyond what 
would be expected from the dollar amount of the fees collected. NOHVCC 
supports the extension of FLREA with amendments to improve 
documentation where fees are collected and where fees are spent.
    Having presented NOHVCC's position on FLREA, I would like to 
describe my personal experiences as a member of the public serving on a 
Recreation Resource Advisory Committee that was established in 
accordance with the current FLREA. In March 2007 I was appointed to the 
USFS Southern Region Recreation Resource Advisory Committee as a 
representative of the summer motorized recreation community. I served 
on this 11-member committee until its operation was suspended in early 
2009. I was re-appointed to the committee in March 2011 and served as 
its chair at its February 2014 meeting. My term expired last month.
    The committee held its first meeting in April 2007 and continued 
with a series of regularly scheduled meetings through September 2008. 
During this period the committee, Region 8 staff, and personnel at the 
various Forests and Ranger Districts developed an in-depth knowledge of 
the requirements of the law, and the procedures for submitting and 
reviewing fee proposals. Constant interaction and mutual support led to 
a working relationship that resulted in the adoption of justified fees. 
A meeting was scheduled for February 2009 to consider another slate of 
fee proposals.
    Before that meeting could be held the entire process went into 
limbo for 5 years. No meetings were held between October 2008 and 
January 2014. No fee proposals were reviewed or approved. Terms of 
members expired, some resigned, and morale among the all-volunteer 
committee members plummeted. New members were appointed in 2011 but no 
meetings were held. A committee meeting was held in February 2014 just 
before the expiration of the terms of most of its members.
    I ask the subcommittee what is the purpose of a law that is not 
implemented or supported by an agency that directly benefits from its 
revenue?
    From my ground-level perspective as a private citizen serving on 
the RRAC, I do not believe the 5-year hiatus was the result of non-
involvement of private members, nor was it the result of lack of 
support or enthusiasm on the part of USFS Region 8 staff and personnel 
at the various Forests and Ranger Districts. The problem clearly was in 
Washington, DC. The February 2009 meeting was canceled due to a lost 
request for a Federal Register notice. Rescheduling was delayed by 
arbitrary holds placed by a new administration on Federal Register 
requests in 2009. As time went by it was apparent that the Washington 
Office put a very low priority on the RRACs. More attempts to schedule 
RRAC meetings ran aground due to budget transfers and budget freezes. 
Add in sequester and government shutdowns, and the result was a 5-year 
suspension of the operation of the Southern Region RRAC.
    In conclusion, I support the intent of FLREA but I must criticize 
its implementation. RRACs should be retained in the reauthorization 
legislation, the process must be streamlined, funding for the RRACs 
must be budgeted and used, and the priority of support for the RRAC 
program must be elevated within the Washington Office. Without 
exception, amendments must address issues of accountability and 
transparency since the success of the program is dependent upon 
stakeholder involvement and buy-in by the recreation public. Hopefully 
an amended version will be enacted that addresses these issues.
    Thank you for your time and attention.

                                 ______
                                 

    Mr. Bishop. Thank you, I appreciate that. Once again, all 
your written statements are in the record; these are the oral 
statements in addition to that. Let's reverse tradition and go 
the other way, just for the fun of it.
    Mr. Davidson.

  STATEMENT OF TODD DAVIDSON, CHIEF EXECUTIVE OFFICER, TRAVEL 
                             OREGON

    Mr. Davidson. Thank you, Mr. Chairman, Ranking Member 
Grijalva and members of the subcommittee. I appreciate the 
opportunity to discuss with you today the importance of 
specifically including the engagement of America's travel and 
tourism industry in your discussions regarding reauthorization 
of the Federal Lands Recreation Act and, in doing so, allowing 
the expertise and resources of States, local communities, and 
under-utilized Federal agency resources to be fully leveraged 
to drive increased visitation and recreation opportunities.
    My name is Todd Davidson. I am the CEO of Travel Oregon. I 
am testifying today on behalf of the Western States Tourism 
Policy Council, and the Southeast Tourism Society. Together we 
strongly endorse reauthorization of FLREA this year, and can 
attest to its importance to public lands in our States.
    The WSTPC is a consortium of 11 western State tourism 
offices, and the Southeast Tourism Society is a network of 
communities and small businesses, government offices, 
associations, and others in 12 southeastern States. Our 
organizations represent 23 States that are home to some of 
America's most spectacular and iconic Federal lands, well known 
to this subcommittee. From the Mount Hood National Forest and 
the Petrified National Forest--National Park, to the Savannah 
National Wildlife Refuge and the Great Smoky Mountains National 
Park, Federal lands, recreation, and conservation play a 
critical role in driving local economies and creating 
extraordinary travel experiences.
    As organizations that represent communities across nearly 
half our country, we support the reauthorization of FLREA, and 
offer three proposals to better engage States and local 
communities, enhance visitor and recreation experiences, and 
drive increased visitation, revenues, and economic impact. In 
addition, these proposals aim to strengthen FLREA from the 
perspective of Federal land management agencies, and from the 
vantage point of local user groups, including the oft-
overlooked gateway communities.
    First, we propose to have a portion of fees designated for 
promotional cooperative efforts with tourism and community 
partners. At present, each of the authorized agencies, under 
FLREA, has a dedicated tourism coordinator who participates in 
Federal policy forums such as the Tourism Policy Council. But 
these coordinators are under-utilized as resources for 
frontline staff in local communities.
    So, in order to encourage greater engagement with local 
communities and provide opportunities for the agencies to 
expand their outreach to user groups, we would propose that 
your consideration of up to 1 percent of the national portion 
of the entrance and recreation fees on sites that have fee 
revenue of greater than half-a-million dollars annually be 
designated for the agency's office coordinating the tourism 
activities. These funds would then be deployed to create and 
distribute cooperative grants that encourage collaboration 
between Federal sites and local gateway communities.
    Creating a manageable, cooperative tourism grant program is 
an opportunity to connect Federal policies with front-line 
tourism communities and businesses that are demonstrating that 
investments in Federal lands are also investments in local 
communities.
    Second, we would like to see a provision including--in 
FLREA to specifically allow fee revenues retained at the local 
site to also be used for cooperative promotional efforts in 
local communities. Many Federal land managers perceive 
marketing and promotion as prohibited activities, and they are 
reluctant to discuss cooperative programs with destination 
marketing organizations. We recognize that Federal land 
managers may have limited understanding as to the fundamentals 
of marketing and promotion, so we see this as an opportunity to 
put the talents and expertise of the travel and tourism 
industry to work for local Federal lands managers.
    Third, effective utilization of technology is a challenge 
for organizations of all sizes and scope, including Federal 
land management agencies. Rather than calling for a specific 
technology system and solution, we would like to see FLREA 
funds devoted to developing a technology infrastructure that 
drives private-sector innovation and improves the visitor 
experience. We propose that a portion of the entrance fee and 
the recreation fees that are sent to Washington be used to 
develop and maintain an electronic resource that compiles 
outdoor recreation data across all Federal lands and waters 
into a robust, comprehensive database that can then be used by 
visitors for information, trip planning, reservation systems, 
and other applications.
    States and local destination marketing organizations and 
businesses would be able to access this data to target their 
promotional efforts, and the private sector would be able to 
develop applications and other tools to better utilize and 
enhance visitor experiences and recreation programs at the 
local, regional, and national level.
    These proposals are meant to encourage and enhance 
visitation in outdoor recreation, and to create opportunities 
for collaboration with States, local communities, and the 
private sector.
    We stand ready to work with you to advance FLREA 
reauthorization. Thank you.
    [The prepared statement of Mr. Davidson follows:]
       Prepared Statement of Todd Davidson, CEO of Travel Oregon
    We appreciate this opportunity to discuss with you the importance 
of specifically including engagement with the travel and tourism sector 
in reauthorization of the Federal Lands Recreation Enhancement Act 
(FLREA) to allow the expertise and resources of States, local 
communities and underutilized Federal agency resources to be fully 
leveraged to drive increased visitation and recreation opportunities.
    I am Todd Davidson, CEO of Travel Oregon and am testifying today on 
behalf of the Western States Tourism Policy Council (WSTPC) and the 
Southeast Tourism Society (STS). Together we strongly endorse 
reauthorization of FLREA this year, and we can attest to its importance 
to the public lands in our States.
    WSTPC is a consortium of 11 western State tourism offices, 
including Arizona, California, Colorado, Idaho, Hawaii, Montana, 
Nevada, New Mexico, Oregon, Utah, and Wyoming. Our members are 
appointed by Governors and report to our State legislatures. WSTPC's 
creation was inspired by the 1995 White House Conference on Travel and 
Tourism, which urged greater regional attention to the 
interrelationships between Federal lands, the environment and tourism. 
The mission of the WSTPC is to foster and encourage a positive 
environment for travel and tourism by serving as a forum to identify 
research, analyze, and advocate the travel and tourism related issues 
of public policy and opinion in the western United States.
    STS is a not-for-profit membership association that works to 
elevate the talents and strategies of travel and tourism organizations 
and individual professionals within its 12 State region. STS's mission 
is to strengthen the economic vitality of the region by uniting all 
segments of the travel and tourism industry through collaboration, 
education, advocacy, networking, and recognition. Established in 1983, 
STS is an engaged network of more than 800 members from 12 States: 
Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, 
North Carolina, South Carolina, Tennessee, Virginia, and West Virginia.
    Our organizations represent 23 States that are home to some of the 
America's most spectacular and iconic Federal lands--well known to this 
subcommittee. From Mount Hood National Forest and the Petrified Forest 
National Park to the Savannah National Wildlife Refuge and the Great 
Smokey Mountains National Park and many sites in between, Federal 
lands, recreation, and conservation play a critical role in driving 
local economies and creating extraordinary travel experiences. As 
organizations that represent communities across nearly half of the 
country, we support the reauthorization of FLREA and offer three 
proposals to better engage States and local communities, enhance 
visitor and recreation experiences and drive increased visitation, 
revenues, and economic impact.
    Although management of Federal lands is funded primarily by 
appropriations, a significant and growing portion of this management 
depends upon entrance and recreation fees. Revenues collected through 
FLREA enhance visitor experiences by providing funds to repair, 
maintain, and improve facilities; restore wildlife habitat for visitor 
recreation; offer educational materials and services; and provide law 
enforcement. For example, since FLREA enactment in 2005, the National 
Park Service, one of the authorized agencies, has obligated $2.3 
billion in fee revenues, which have funded over 9,800 projects and 
services with the National Park Service.
                cooperative grants to local communities
    We propose to have a portion of the fees designated for promotional 
cooperative efforts with tourism and community partners. At present, 
the National Park Service has a National Tourism Strategy and an Office 
of Tourism, providing an excellent model for how Federal land 
management agencies can engage with local communities and the tourism 
sector. Each of the authorized agencies under FLREA has a dedicated 
tourism coordinator who participates in Federal policy forums, such as 
the Tourism Policy Council, but these coordinators are underutilized as 
resources for frontline staff and local communities. In order to 
encourage greater engagement with local communities and provide 
opportunities for the parks to expand their outreach to user groups, we 
recommend that 1 percent of the national portion of entrance and 
recreation fees on sites that have fee revenue of more than $500,000 
annually be designated for the agency's office coordinating tourism 
activities. These funds would be deployed to create and distribute 
cooperative grants to local communities and individual sites. 
Cooperative grants will encourage collaboration between Federal sites 
and local gateway communities to promote the sites and their activities 
ensuring that the messaging of Federal sites has resonance and rewards 
engaged parks and sites with increased visitation, volunteerism, and 
spending. Gateway communities would see increased visitor spending and 
jobs.
    Creating a manageable cooperative tourism grants program is an 
opportunity to connect Federal policies with frontline tourism 
communities and businesses demonstrating that investments in Federal 
lands are investments in local communities. By encouraging Federal land 
management agencies to develop strategies for engaging with the travel 
and tourism sector and local communities, FLREA will be driving 
policies to ensure the economic impact of Federal lands visitation and 
recreation are broadly shared by the States, communities, and small 
business.
                        federal lands promotion
    Additionally, we would like to see a provision included in FLREA 
reauthorization to specifically allow the fee revenues retained at the 
site to be used for cooperative promotional efforts with local 
communities. Many Federal land managers perceive marketing and 
promotion as prohibited activities and are reluctant and or unwilling 
to discuss cooperative programs with destination marketing 
organizations. Not only is this a missed opportunity for sites to 
showcase their attractions and programs, but it also means that they 
are failing to leverage the expertise of the tourism community in 
targeting and attracting key demographics, such as young people and 
Hispanic and African-American families and in driving visitation in 
non-peak periods. We recognize that Federal land managers may have 
limited understanding of the fundamentals of marketing and promotion. 
We see this as an opportunity to put the talents and expertise of the 
travel and tourism sector to work for local Federal lands in order to 
help them better achieve their visitation, outreach and programmatic 
goals.
                       information infrastructure
    Effective utilization of technology is a challenge for 
organizations of all sizes and scope, including the Federal land 
agencies. Rather than calling for a specific technology system and 
solutions, we would like to see the FLREA funds devoted to developing a 
technology infrastructure to drive private sector innovation that 
improves the visitor experience. We propose that the entrance and 
recreation fees sent to Washington be used to develop and maintain an 
electronic resource that compiles visitation and outdoor recreation 
data across all Federal lands and waters for information, guides, 
amenities, and reservations into a common visitor-services platform.
    Using Recreation.gov as a model for cross-agency collaboration, the 
visitor-services platform would encourage and enhance tourism and 
recreation on Federal sites, improve the efficiency and effectiveness 
of Federal agency operations, enrich the visitor experience for a 
diverse set of audiences, and create opportunities for private sector 
collaboration. States and local destination marketing organizations and 
business would be able to access the data to target their promotional 
efforts and, working collaboratively, the private sector would be able 
to develop applications and other tools to better utilize and enhance 
visitor and recreation programs at the local, regional or national 
level. One-size-fits-all-solutions won't work for the technology 
challenges faced by Federal land agencies, but a single resource can 
drive the targeted solutions that work for the diverse array of Federal 
lands and communities.
                               conclusion
    These three proposals aim to strengthen FLREA from the perspective 
of the Federal land management agencies and from the vantage point of 
local user groups, including the often over-looked gateway communities. 
These proposals are meant to encourage and enhance visitation and 
outdoor recreation and to create opportunities for collaboration with 
States, local communities and the private sector. We stand ready to 
work with you to advance a FLREA reauthorization that works for all of 
our Federal lands stakeholders.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate your testimony. We will 
turn to Ms. Pemmerl.
    Ms. Pemmerl. Ms. Pemmerl.
    Mr. Bishop. Pemmerl.
    Ms. Pemmerl. Yes.
    Mr. Bishop. All right. I appreciate that. You are 
recognized for 5 minutes for your testimony.

  STATEMENT OF ELIZABETH PEMMERL, PRESIDENT, NIC TECHNOLOGIES

    Ms. Pemmerl. Thank you, Chairman Bishop, Ranking Member 
Grijalva, and other members of the subcommittee. Thank you for 
the opportunity to discuss how technology can improve 
consistency and accountability in the collection and 
expenditure of Federal recreation fees, and help enhance the 
visitor experience for those who enjoy our Federal lands. My 
name is Elizabeth Pemmerl, and I am the President of NIC 
Technologies, the Federal Government Services Division of NIC, 
Incorporated.
    NIC is the Nation's leading provider of official government 
Web sites, online services, mobile applications, and secure 
payment processing solutions. We provide the official Web sites 
for 29 States, including Utah and Oregon. We focus on building 
solutions that make it easy for taxpayers to access government 
information and securely complete all types of government 
transactions.
    We believe that technology can help make a wide range of 
government operations more efficient, secure, and transparent. 
Employing the right technology can also save the government 
money. Agencies devote significant resources to entering data, 
printing forms, mailing, and storing documents. Online services 
can help decrease these costs, and recreation programs are no 
exception.
    In States ranging from Maine to Mississippi, NIC provides 
services that streamline the administration of hunting and 
fishing systems and various game lotteries. For example, in the 
State of Hawaii, NIC's online camping system allows visitors to 
make reservations, buy permits, check site availability, and 
submit payments. The system then provides reports and 
transparent financial data back to the State. The State 
estimates the system saves tens of thousands of dollars per 
year, compared to the old paper-based processes.
    Technology offers additional benefits. It offers consumers 
choices. Visitors to our Nation's recreation sites want the 
ability to access government services whenever, wherever, 
whether on a tablet, a computer, or a mobile device. In the 
State of Montana NIC helps provide residents and non-residents 
access to the State's abundant wildlife by offering the online, 
on-demand purchase of hunting and fishing licenses, and 
accepting submissions for lottery draws.
    Consumers also want to use technology to enhance their 
visit to Federal lands. Mobile applications could allow a 
visitor to report an invasive species sighting, or upload 
photos and tips to a library that is crowd-sourced from 
visitors to a specific park or recreation area.
    Finally, consumers want technology to make compliance more 
convenient. In Arkansas, hunters have the option to use the 
camera on their phone to file required game checks via NIC's 
mobile application. Now hunters don't have to make a trip to a 
game warden, or remember to file paperwork days after the hunt.
    These solutions are available today, but the sky is the 
limit on what comes next. It could be making your national park 
pass available on your iPhone, just like a mobile boarding pass 
at the airport, or associating GPS data with the purchase of a 
permit on a mobile device, so that rec fees can be more easily 
dedicated to targeted regions.
    The State of Utah is considering the prospects of wearable 
technologies. The State, in collaboration with NIC, announced 
the first government application for Google Glass just last 
month. The application tells users when the next public bus or 
tram will arrive at their stop. But perhaps future generations 
of park visitors will use technologies like Google Glass to 
pull up trail maps.
    We commend Chairman Bishop and the subcommittee for 
evaluating how technology solutions can play an important role 
in Federal recreation programs. NIC is proud to contribute to 
these great success stories for many of your home States. As 
you reauthorize the Act, we encourage you to consider pilot 
projects to explore similar innovative partnerships, creative 
service delivery approaches, and alternative contracting models 
for these exciting technology solutions.
    Thank you for the opportunity to address this subcommittee, 
and I look forward to any questions you may have.
    [The prepared statement of Ms. Pemmerl follows:]
 Prepared Statement of Elizabeth Pemmerl, President, NIC Technologies, 
                                  LLC
    Good morning Chairman Bishop, Ranking Member Grijalva, and other 
members of the subcommittee. Thank you for the opportunity to discuss 
how technology can improve consistency and accountability in the 
collection and expenditure of Federal recreation fees, and help enhance 
the visitor experience for those who enjoy our Federal recreation lands 
and waters. My name is Elizabeth Pemmerl, and I am the President of NIC 
Technologies, the Federal Government Services Division of NIC Inc.
                              our company
    NIC is the Nation's leading provider of official government Web 
sites, online services, mobile applications, and secure payment 
processing. We provide the official State Web sites for 29 States, 
including Utah and Oregon. We also provide a comprehensive online 
service for the Department of Transportation's Federal Motor Carrier 
Safety Administration (FMCSA) that allows motor carriers to check 
driver records for prospective employees. Since the Pre-Employment 
Screening Program launched in 2010, NIC has processed over 2.5 million 
driver record requests on behalf of FMCSA.\1\
---------------------------------------------------------------------------
    \1\ See attachment I.
---------------------------------------------------------------------------
    We focus on building solutions that make it easy and efficient for 
taxpayers to access government information and securely process all 
types of government transactions. In the majority of our engagements 
with government, NIC is able to build and manage online services at no 
cost to government agencies. Through our unique self-funded model, NIC 
provides the upfront funding for eGovernment services, and then recoups 
our investment through modest fees paid by citizens or businesses 
electing to use the service. These funds are then rededicated to 
support the cost of maintaining the web platform, including ongoing 
improvements and customer support. A 2013 study from the University of 
Utah found that implementing transaction-based contracting for 
eGovernment services has saved the State of Utah $61 million over 5 
years.\2\
---------------------------------------------------------------------------
    \2\ See Attachment II.
---------------------------------------------------------------------------
                 applications for recreational programs
    We believe that technology can help make a wide range of government 
operations more efficient, secure and transparent. Employing the right 
technology can also save the government money. Agencies devote 
significant resources to entering data, printing forms, mailing and 
storing documents. Online services can help decrease these costs, and 
recreation programs are no exception.
    In States ranging from Maine to Mississippi, NIC provides services 
that streamline the administration of hunting and fishing systems and 
game lotteries. For example, in the State of Hawaii, NIC's online 
camping system allows visitors to make reservations, buy permits, check 
site availability, and submit payments. The system then provides 
reports and transparent financial data back to the State. The State 
estimates the system saves thousands of dollars per year compared to 
the existing paper-based process.
    In the State of Maine, NIC launched a campground reservations 
application on behalf of the Department of Agriculture, Conservation 
and Forestry in February 2014. On opening day, nearly 1,000 
reservations were processed in the first hour.
    Technology offers additional benefits--it offers consumers choices. 
Visitors to our Nation's recreation sites want the ability to purchase 
passes and permits whenever, wherever--whether on a computer, tablet or 
mobile device. In the State of Montana, NIC helps provide residents and 
non-residents access to Montana's abundant wildlife by offering the 
online, immediate purchase of hunting and fishing licenses and 
accepting submissions for lottery draws.
    Consumers also want to use technology to enhance their visit to 
Federal lands. Mobile applications could allow visitors to report an 
invasive species sighting, or upload photos to a library that is 
`crowd-sourced' from visitors to a specific park or recreation area.
    Consumers want technology to make compliance more convenient. In 
Arkansas, hunters have the option to use the camera on their phone to 
file required game checks via NIC's mobile game check application. Now, 
hunters don't have to make a trip to a game warden or remember to file 
paperwork days after the hunt.
    These solutions are available today, but the sky is the limit for 
what comes next.
    It would be easy to make your National Park pass available on your 
iPhone, just like a mobile boarding pass at the airport, or associate 
GPS data with the purchase of a permit, so that recreation fees can be 
dedicated to targeted regions. The State of Utah is considering the 
prospects of wearable technologies. The State, in collaboration with 
NIC, announced the first government application for Google Glass just 
last month. The application will inform users when the next public bus 
or tram will arrive at their stop. Perhaps future generations of park 
visitors will use Google Glass to pull up a trail map!
    We commend the subcommittee for evaluating how technology solutions 
can play an important role in Federal recreation programs.
    NIC is proud to play a role in these great success stories from 
many of your home States. As you reauthorize the Act, we encourage you 
to consider authorizing pilot projects to explore similar innovative 
partnerships, creative service delivery approaches, and alternative 
contracting models for these exciting technology services.
    Thank you for the opportunity to address the subcommittee. I look 
forward to any questions you may have.
                              attachments
I. Case study on NIC's work for the Department of Transportation 
FMCSA's Pre-Employment Screening Program

II. Executive summary of December 2013 study from the Center for Public 
Policy & Administration, University of Utah, Smarter eGovernment: The 
Economics of Online Services in Utah

                              attachment 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ATTACHMENT 2

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Bishop. Thank you for your testimony.
    Mr. Crandall.

 STATEMENT OF DERRICK CRANDALL, PRESIDENT, AMERICAN RECREATION 
                           COALITION

    Mr. Crandall. Thank you, Mr. Chairman. Thank you, also, for 
the opportunity to appear here, Mr. Grijalva and Mr. DeFazio.
    It is fun to be coming down the reverse way, because I am 
now in a position where I can say amen to all of the comments 
that have been made by the predecessors on this panel. We 
absolutely agree with the sentiments that Todd Davidson has 
expressed, in terms of the importance of outreach and 
promotion, certainly agree with NIC's testimony about the use 
of technology. There are some great opportunities to do there. 
In fact, I guess I would premise my whole presentation here 
today with saying there is consensus on fees that is often 
hidden by the fact that we are talking about certain issues 
that obscure the broad support.
    Most of the fees are collected by people who stay very 
close to develop sites on Federal lands, and that is where 
there is great consensus. In fact, I would note the submission 
to the hearing record of a letter signed by more than 30 
organizations, including AAA and the National Wildlife 
Federation and the National Tourist Association, talking about 
basic principles on fees, where there is broad agreement.
    I would like to address just three issues. The first is 
that the name of this bill is the Federal Lands Recreation 
Enhancement Act. In fact, it reflects an attempt begun in the 
1990s to understand that Americans deserve good experiences 
when they go on to Federal lands. That includes improved 
facilities that, in most cases, the appropriations process 
cannot provide.
    Americans are not looking for free or low-cost recreation 
experiences as much as they are looking for good value. They 
are looking for campgrounds that respond to their expectations. 
In many cases, that does mean showers. Unlike in Yosemite, 
where we have 1,500 campsites and zero showers, most people, 
when they go to a campground, do expect an ability to take a 
shower, or to be able to access the Internet on WiFi. So, we 
are looking for opportunities to do that, and fees are 
certainly an opportunity to do that.
    As you look at the recreation facilities on Federal lands, 
large percentages of the recreation infrastructure do not meet 
the agency's own standards for acceptable conditions. In fact, 
that is being exacerbated by a continued increase to the 
deferred maintenance backlog on a year-to-year basis. We need 
to be addressing that, and fees are one vital tool in doing 
that.
    The second issue I would like to especially discuss today 
is the importance of including all of Federal recreation-
providing agencies under this provision, under the recreation 
pass authority. We do not now have U.S. Army Corps of Engineers 
covered under FLREA. It is important that they do be brought 
into the fold. They were under the authority of the Land and 
Water Conservation Fund and the Golden Eagle Pass in 1964 
because of congressional jurisdictional issues. They were not 
part of fee demo, and they were not included in FLREA. We would 
urge that they be included in any legislation coming from this 
committee.
    The final issue I would like to respond to and to emphasize 
the importance of what Mr. DeFazio was talking about, in terms 
of information, Americans are used to getting information on 
what they buy or where they go through TripAdvisor, or through 
comments on the Best Buy Web site. That kind of information is 
long overdue, to try to ensure that we have knowledgeable 
visitors to areas.
    We cannot provide the recreation experiences that people 
seek everywhere; if they expect to use a mountain bike and they 
go into Yosemite National Park, they will be unsatisfied. But 
we have mechanisms in place today to use technology to help 
people find the experiences that they are seeking. We are not 
doing that.
    As my testimony describes, there is a misunderstanding of 
the restrictions that the Federal agencies have, in terms of 
use of their resources, both appropriated and earned. In many 
cases, we hear that we can't advertise, we can't use 
appropriations to advertise. We looked at that. We find no 
prohibition. The only requirement is that use of appropriated 
funding for advertising and other kinds of promotion needs to 
be made clear to the Congress as to how it is used.
    But as we look at recreation.gov, and the earnings from 
recreation.gov, the payments for those who are making 
reservations, certainly some of that revenue stream could be 
used to provide better information to the people who intend to 
go to their lands, their national forests, their national 
parks, their BLM LANDS, to have the kind of experiences that 
they seek.
    Great opportunities. We thank you so much for the interest 
of this committee. We look forward to working with you.
    [The prepared statement of Mr. Crandall follows:]
Prepared Statement of Derrick Crandall, President, American Recreation 
                        Coalition, on H.R. ____
    Mr. Chairman and Distinguished Members, the American Recreation 
Coalition (ARC) appreciates the opportunity to applaud the interest of 
members of this committee and others in continuing and enhancing the 
experiences of the public as they visit a great American legacy--the 
federally managed lands and waters covering nearly one-third of the 
surface of this Nation. There are many reasons to strengthen the 
connection between today's and tomorrow's Americans and the outdoors, 
and the topic of this hearing is a key means to pursue this connection.
    I am Derrick Crandall and I am delighted to offer testimony on 
behalf of the members of the American Recreation Coalition--more than 
100 national organizations, representing virtually every segment of the 
Nation's $650+ billion outdoor recreation industry, and tens of 
millions of outdoor recreation enthusiasts. Our organization has played 
an active role in Federal recreation policy since its creation in 1979, 
especially on funding Federal recreation programs. ARC played an active 
role in the President's Commission on Americans Outdoors in the 1980s, 
which served as the catalyst for a variety of important and successful 
funding initiatives ranging from expansion of the Dingell-Johnson 
program to the Recreational Trails Program and the Fee Demonstration 
Program of 1996, precursor to FLREA.
    Outdoor recreation is a vital and positive force in our Nation 
today. Many Americans participate in outdoor recreation today, and a 
major catalyst for this involvement is the marvelous shared legacy of 
our Great Outdoors--1 in 3 acres of the surface of the Nation managed 
by Federal agencies and hosting well in excess of a billion recreation 
visits annually. Americans spend some $650 billion annually on fun 
outdoors--and our Great Outdoors is a vital element in attracting 
international tourists.
    The benefits accruing from recreation participation are 
significant, and the appreciation for these benefits is growing. The 
economic significance of outdoor recreation is obvious in communities 
across the Nation, and especially those communities proximate to 
federally managed lands and waters. From boat dealers to campground 
operators, from RV manufacturers to ski rental shops, from retailers 
selling outdoors goods to guides and outfitters, tens of thousands of 
businesses and millions of Americans are supported by the expenditures 
on recreation by American families. And increasingly, America's 
recreational opportunities are a key factor in luring international 
visitors to enjoy the world's best systems of parks and forests, 
refuges and other public sites.
    The role of recreation in addressing serious concerns about the 
increasing inactivity-related obesity of the American people, 
especially our young people, is also significant. According to the 
Department of Health and Human Services, 7 in 10 deaths are 
attributable to preventable, chronic diseases--like diabetes, heart 
disease and some forms of cancer--associated with obesity and 
inactivity. In addition, a national study has shown that nearly 20,000 
children and adolescents in the United States are diagnosed with 
diabetes every year. A critical cause is the tripling in the rate of 
obesity among young people since the 1970s. We believe that the average 
of 11 hours of daily screen-time is a major contributor. An important 
antidote to this alarming picture is more active fun through outdoor 
recreation. We also believe that recreation opportunities on our 
Nation's public lands, including our national parks, are an essential 
asset in the effort to encourage people to change their behavior and 
start enjoying the outdoors.
    Mr. Chairman, the recreation community appears here today to share 
its views on the Federal Lands Recreation Enhancement Act (FLREA), 
which this subcommittee helped to shape prior to its enactment in 
December 2004. FLREA authorizes the collection and retention of 
entrance and recreation fees for most of the major Federal recreation 
providers: Bureau of Land Management, Bureau of Reclamation, National 
Park Service, U.S. Fish and Wildlife Service, and the U.S. Forest 
Service. While management of recreation on our Federal lands remains 
funded primarily by appropriations of general funds, FLREA supplements 
those appropriations with more than $300 million annually in entrance 
fees, campground fees and other recreation-related charges.
    We applaud the Congress for labeling this legislation 
appropriately. We testify today not in favor of fees, but in favor of 
Federal Lands Recreation Enhancement. Fees are one important tool to 
help reach this goal--but FLREA fees are neither the only tool nor a 
goal in themselves. Recreationists pay for good recreation 
opportunities in many ways. Boating and fishing enthusiasts buy 
licenses and register boats and pay Federal and State gas tax on the 
fuel used in their activities--and most of these special user fees help 
to provide access to public waters, support water quality and fisheries 
improvements, manage the enjoyment of these activities and more. 
Recreationists also aid the quality of recreation in other ways, 
including volunteerism and philanthropy. FLREA-authorized fees must be 
considered in this context.
    Our support--and in fact overall public support--for well-designed 
and well-understood Federal recreation fees is strong. In 2012, the 
agencies reported to the Congress visitor satisfaction with fees at 
rates that ranged from 83 percent (Forest Service) to 94 percent 
(National Park Service). However, recreation fees can cause 
controversy. In particular, some Forest Service and Bureau of Land 
Management fees have generated enough opposition to prompt senior and 
influential Senators from both political parties to introduce 
legislation to repeal FLREA.
    We believe that most controversies surrounding FLREA-authorized 
fees result from agency failures to appreciate the role of fees as a 
tool, and not as an end in itself. Where the public seeks good 
facilities and services and finds them available at a Federal 
recreation site, support for fees is high. In particular, support for 
retention of most collected fees for use at and near the collection 
point is high.
    Attitudes toward FLREA have been complicated by Federal budgets and 
agency decisions which have reduced recreation access and services. The 
recreation community believes that much of the revenue collected under 
FLREA is simply offsetting reductions in general funding of Federal 
recreation programs. This does not reflect the nature of the agreement 
when FLREA was created 10 years ago. FLREA was to help in expanding the 
quantity and quality of recreation offerings on Federal lands and 
waters: better trails and better campgrounds, easier access to public 
waters and more interpretive and educational opportunities.
    Based upon nearly 20 years of experience with legislation which 
authorizes collection and retention of recreation fees, we support 
continuation of this authorization. We have worked with a large and 
diverse coalition of recreation, conservation and tourism organizations 
to articulate core principles which we feel should guide Federal 
recreation fee policy. These principles have been submitted to the 
committee and are also attached to my testimony. I include them here, 
as well:

  1.  Federal recreation sites should be authorized to collect and 
            retain fees for entrance to parks and selected other areas 
            and for recreational services and visitor facilities 
            involving significant investments and operational costs.
  2.  Collected fees should be used principally at sites where the fees 
            were collected, serving those who paid the fees, and 
            collected fees should be spent within a reasonable amount 
            of time.
  3.  The U.S. Army Corps of Engineers, the largest single Federal 
            provider of recreation experiences, should be included 
            under FLREA to unify Federal fee programs and eliminate 
            current complications for visitors.
  4.  The Federal recreation fee collection process should be as 
            transparent as possible, allowing all interested parties 
            the chance to see annual information on fee collections and 
            use.
  5.  Expenses of fee collection are a legitimate use of fee revenues 
            but all efforts should be made to minimize these costs.
  6.  Federal recreation site fee efforts can and should be integrated 
            where possible with other fee collection programs, 
            including of other Federal sites and agencies and with 
            State recreation fees and licenses. State fee programs 
            should be encouraged which support recreation on Federal 
            lands--including trail programs. Models for this include 
            the Winter Park Passes in several northwestern States and 
            programs like the California ``green sticker'' program.
  7.  Public involvement in Federal recreation site fee programs is 
            vital. The first step is better notification of fee program 
            proposals. Notification of new and changed fees should be 
            made to all obviously affected organizations and local 
            citizens, and should also be made through: (1) the Federal 
            Register and (2) alerts to individuals and organizations 
            requesting notification through www.recreation.gov, 
            registering their interest in types of fees, geographical 
            regions, agencies and other appropriate categories. Formal 
            comment opportunities should be required and can include 
            Recreation Resources Advisory Committees and Resource 
            Advisory Committee requirements, but Congress should allow 
            the Forest Service and BLM to develop alternative public 
            involvement models, submitted to the appropriate 
            Congressional committees. The committees shall have not 
            less than 90 days to consider these proposals. A submitted 
            model may be disapproved by vote of either committee or by 
            a joint letter by the Chair and Ranking Member of one or 
            both of the committees.
  8.  Fee payment should be as convenient as possible to visitors. Use 
            of commonly used non-Federal payment systems, such as EZ-
            Pass and PayPal, should be tested. Prepayment of entrance 
            fees through inclusion in reservations for campsites, lodge 
            rooms and other reserved services, and by sales in gateway 
            communities, should also be encouraged.
  9.  Reauthorization of the Federal recreation fee program should be 
            for a minimum of 6 years and not more than 10 years.
  10. Fees collection by concessioners and third parties, including 
            other governmental agencies and organizations which operate 
            and maintain recreation services and facilities, should be 
            authorized.
  11. Fees for special recreation uses and events may be required but 
            should not unreasonably deter legitimate uses of Federal 
            recreation sites nor discourage partnerships with third-
            party organizations.
  12. Agencies that receive funds through FLREA are encouraged to fully 
            utilize Public Lands Corps Act authority to complete FLREA-
            funded projects that meet FLREA objectives such as 
            enhancing visitor services. Use of conservation corps on 
            these projects is likely to deliver lowered costs and will 
            provide jobs for local young people and veterans and 
            connect younger Americans with the Great Outdoors.

    There are three additional issues we urge you to consider as you 
prepare FLREA to meet the needs of the 21st Century.
    First, Americans gain little from great places that are invisible 
to them. And much of the Great Outdoors is not on the radar screens of 
younger, more urban and more diverse Americans. Greatly improved Web 
sites, use of social media and a redirected www.recreation.gov can help 
us deal with Federal site visitations that have lagged far behind 
population growth. For years, Federal recreation programs have declined 
to partner with gateway communities, with concessioners and permittees 
and with others on outreach and promotion, perpetuating and 
exacerbating patterns favoring well known sites and peak periods. We 
are heartened by the participation of most major Federal recreation 
providers in the IPW show which begins in Chicago tomorrow. We are 
heartened by the plans of the National Park Service to work with 
partners on a campaign linked to its Centennial to promote visitation. 
Yet we too often hear that advertising and promotion by Federal land 
agencies are prohibited by law. We strongly disagree. The restrictions 
we see simply require notice to the Congress about use of appropriated 
funds for advertising--paying for ads. We see no prohibition on 
partner-based promotional activities designed to shift demand to lesser 
visited sites or to non-peak periods. And in fact we would appreciate 
this committee making it clear to the agencies that building awareness 
and promotion are legitimate uses of a portion of FLREA receipts. In 
the private sector, and even in some State parks, a percentage of gross 
receipts used for promotion is seen as vital. Perhaps a portion of 
overall www.recreation.gov revenues should be earmarked for partner-
based promotion efforts.
    Second, we support providing senior Americans with special benefits 
associated with the Great Outdoors. We believe the current benefit of 
lifetime free access for a one-time fee of $10, with an additional 
benefit of 50 percent reductions of campground and certain other fees, 
no longer represents the best use of deferred fees. This benefit 
effectively imposes excessive costs on others, including families with 
young children. We would support changes in the special benefits 
offered to seniors in one or more of the following ways:

  a.   50 percent discount of the annual America the Beautiful (ATB) 
            Pass;
  b.   Changing the age of eligibility for a senior pass to the age at 
            which an individual is entitled to full Social Security 
            benefits.
  c.   Maintain the lifetime provision but at the higher cost: the 
            current annual price of the America the Beautiful pass.

    Third and finally, we support the annual free pass to America's 
active duty servicemen and servicewomen. They put their lives in harm's 
way to protect the values which are reflected in our Great Outdoors. 
This is now done under the discretionary authority of the Secretaries 
of Agriculture and the Interior. We support codifying this and adding 
one more provision. We believe all recipients of a Purple Heart should 
qualify automatically for a lifetime disability pass. The costs 
associated with this provision will likely apply only to recent Mideast 
conflicts, since honorees for service in Vietnam and before are now 
virtually all eligible for lifetime senior passes--approximately 
50,000.
    Purple Hearts have gone to those injured in the Persian Gulf War, 
in Afghanistan and in Iraq. Any awardee with permanent injuries would 
be eligible for the existing free pass for any disabled American--this 
would simply eliminate the need to prove disability.
    We believe these changes would be valuable, win/win components for 
revitalized Federal recreation programs that succeed in providing 
benefits to all Americans in the 21st Century. Thank you for your 
interest and your actions to assist enjoyment of America's Great 
Outdoors. We urge rapid action on legislation to achieve the goal set 
forth in the title of the Federal Lands Recreation Enhancement Act.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate your testimony.
    Ms. Benzar.

  STATEMENT OF KITTY BENZAR, PRESIDENT, WESTERN SLOPE NO-FEE 
                           COALITION

    Ms. Benzar. Good morning. The proposed legislation should 
be rejected because it would bring us back to the fee demo days 
when Federal land management agencies could charge the public 
fees to visit virtually any area of our public lands. For 30 
years, recreation fees were governed by the Land and Water 
Conservation Fund Act, which contained this statement of 
congressional intent--and I quote--``The purposes of this Act 
are to assist in preserving, developing, and assuring 
accessibility to all citizens of such quality and quantity of 
outdoor recreation resources as are necessary and desirable for 
individual active participation, and to strengthen the health 
and vitality of the citizens of the United States.''
    Fee demo suspended that commitment to health and vitality 
for 8 years, during which the agencies experimented with 
anything-goes fee authority, treating the natural world as a 
market commodity, while charging whatever the market would bear 
for any experience on which a price could be placed. The 
results of the experiment clearly showed that some fees the 
public willingly accepts, and others they do not.
    FLREA was Congress's attempt to apply those results and 
define a framework of limits and rules on recreation fees. When 
Congress enacted FLREA, it again expressed its commitment to 
the public's interests. The then-Chairman of the House 
Resources Committee said of FLREA, ``This will put an end to 
fears that Federal land managers cannot be trusted with 
recreational fee authority, because we lay out very specific 
circumstances under which these fees can be collected and 
spent.''
    Indeed, FLREA contains common-sense prohibitions on fees 
for basic access in language Federal courts have found clear 
and unambiguous. The Forest Service and BLM, however, have 
evaded FLREA's requirements and restrictions, and FLREA has 
failed to achieve its objectives. These agencies cannot be 
trusted to honor congressional intent, and you cannot afford to 
enact new fee authority that is less than crystal clear in its 
vision and purpose.
    But instead of recommitting to a vision and purpose, this 
draft would change the law to fit past misbehavior. It would 
effectively transfer ownership of our public lands from the 
people to the agencies, and demote citizens from owners to mere 
customers. The bill fails to express a vision or delineate a 
framework. It fails to acknowledge the rights of citizens to 
recreational use of their public lands, or congressional intent 
to protect those rights from agency overreach.
    FLREA contains what Congress thought were iron-clad 
prohibitions on fees for hiking, riding, or boating through 
undeveloped Federal lands, solely for parking or for general 
access. Forest Service and BLM have not followed those 
provisions nor many others. They have become expert at taking 
phrases in FLREA that say one thing, and twisting them to mean 
the opposite.
    We need a bill that is so clearly written and unambiguous 
that not even the most clever wordsmith can contort its 
meaning. The draft being considered today is not that bill. It 
is riddled with ambiguous and contradictory language. It sets 
the requirements for charging fees at such a low threshold they 
might as well be non-existent. The prohibitions on charging 
fees for certain activities are muted by overly broad authority 
granted elsewhere. The limits on overhead and collection costs 
are loosened, and accountability is weakened.
    For example, FLREA requires that a permanent toilet be 
provided at a fee area, but the draft bill calls for a 
regularly serviced and well-maintained toilet facility. Based 
on 10 years of experience with how the Forest Service and the 
BLM think, that means porta-potties. As long as those porta-
potties--pay toilets, really--are provided, the agencies will 
act as if Congress had given them the authority to charge a fee 
for access to all the land around the potty, as well as to the 
undeveloped back country beyond.
    A new and urgent concern is the ruling handed down last 
week by the D.C. Circuit Court making concessionaires 
completely exempt from the rules that apply to the agencies. 
This is a Get Out of Jail Free Card for the Forest Service that 
would remove its recreation policies from congressional 
oversight all together. There is not time in my brief statement 
to address this, but I hope someone will ask me a question 
about it.
    In my written testimony, I have submitted alternative draft 
language that would allow reasonable fee authority within a 
framework of clear requirements and limits. It is guided by a 
commitment to public ownership and access, and this alternative 
takes into consideration input from a wide variety of 
recreational visitors, and would likely achieve broad support.
    But regardless of what you enact, you must make it clear 
that Congress remains committed to a robust system of public 
lands, where the public has access and feels welcome. Please 
don't surrender to Forest Service and BLM overreach. Thank you 
very much.
    [The prepared statement of Ms. Benzar follows:]
  Prepared Statement of Kitty Benzar, President, Western Slope No-Fee 
                         Coalition on H.R. ____
    I am Kitty Benzar, President of the Western Slope No-Fee Coalition, 
an organization that has been working since 2001 to restore the 
tradition of public lands that belong to the American people and are 
places where everyone has access and is welcome. I am speaking to you 
today on behalf of our supporters, on behalf of the organizations with 
whom we closely work, and on behalf of millions of our fellow citizens 
who believe as we do that while the Federal Lands Recreation 
Enhancement Act is not perfect and is not being properly implemented in 
many areas, the proposed bill would be a huge step backwards. It would 
return us to the days of ``Fee Demo'' when the Forest Service and BLM 
could charge the public simply to park their car and go hiking, riding, 
or boating in undeveloped areas without using any developed amenities.
    For 18 years, the ``pay to play'' approach to recreation has 
transformed our National Forests and BLM lands from places where 
everyone has a basic right to access into places where we can be 
prosecuted for not having a ticket of admission.
    For 18 years the Federal land management agencies have viewed 
American citizens as customers rather than owners, and have 
increasingly managed basic access to outdoor recreation as an activity 
that must generate revenue, rather than as an essential service that 
promotes a healthy active population.
    Congress gave the agencies Fee Demonstration authority in 1996 to 
test, as an experiment, unlimited fees and see what worked and what 
didn't, what the public would accept and what they would not. With this 
encouragement, the agencies embarked upon a new paradigm in public 
lands management. For the first time, the Forest Service and BLM began 
requiring direct payment for admission to the National Forests and 
other public lands under their management. Simple things like a walk in 
the woods or paddling on a lake at sunset became a product that could 
be marketed and sold to paying customers.
    Opposition to Fee Demo was overwhelming and widespread. From New 
Hampshire to California, from Idaho to Arizona, Americans from all 
walks of life and all political persuasions raised their voices against 
a fee-based system for basic access to outdoor recreation. Resolutions 
of opposition were sent to Congress by the State legislatures of Idaho, 
Montana, Colorado, Oregon, California, and New Hampshire. Counties, 
cities, and organizations across the Nation passed resolutions opposing 
the program. Civil disobedience was widespread, and in response 
enforcement became heavy-handed. Criminal prosecutions of people who 
simply took a walk in the woods without buying a pass were disturbingly 
frequent.
    Congress terminated the experiment in 2004 by enacting FLREA to set 
limits and scale back on fees based on what Fee Demo had shown. FLREA's 
limiting language, had it been honored by the agencies, could have 
achieved this and might have calmed much of the public's opposition. 
For example, FLREA prohibits fees:

        ``For persons who are driving through, walking through, boating 
        through, horseback riding through, or hiking through Federal 
        recreational lands and waters without using the facilities and 
        services.''

    While the agencies made the appropriate changes in a few areas once 
FLREA was passed, in most places they carried on as if nothing had 
changed and recreation fees continued to spread to thousands of 
undeveloped and minimally developed areas. Americans are still being 
charged fees for such basic activities as: roadside parking, walking or 
riding on trails, access to vast tracts of undeveloped public land, and 
even for such fundamentals as the use of toilets. Even FLREA's 
straightforward requirement that a ``permanent toilet'' be provided 
before a Standard Amenity Fee can be charged has been interpreted to 
allow roadside porta-potties because then, according to the agency, 
they can charge a fee for access to all the undeveloped backcountry 
beyond the road. Rather than fix these problems of maladministration of 
FLREA, the proposed bill makes them worse by cementing them into the 
law.
    Recreation access fees are a new tax and they are a double tax. 
Americans already pay for management of their Federal public lands 
through their income tax, but these fees are an additional tax, levied 
directly by the agencies and distributed without congressional 
oversight. For those who enjoy motorized recreation, or who hunt or 
fish, they are a triple tax, because after paying State license fees as 
well as Federal income taxes, they often must also pay an access tax to 
enjoy recreation on their public lands.
    It is also a regressive tax. It puts the burden of public land 
management on the backs of Americans who live adjacent to or surrounded 
by Federal land. In rural counties in the West, where in many cases 
over 80 percent of the land is federally managed, public lands are an 
integral part of life. Citizens in these areas, who are often just 
scraping by financially, should not have to buy a pass just to get out 
of town.
    This regressive tax falls most heavily on lower income and working 
Americans. Two separate studies conducted 10 years apart and on 
opposite sides of the country reached the almost identical conclusion 
that fees have caused nearly half of low-income respondents, and a 
third of all respondents, to use their public lands less. This has been 
reflected in declining visitation across agencies and geographic areas. 
For example, the Forest Service's visitor use estimates have fallen 
from 214 million visits annually in 2001 to only 161 million in 2012.
    Fee Demo and FLREA have been a financial failure as well. GAO 
reports have revealed hidden administrative costs, fees being collected 
far in excess of operating costs, and agencies being unable to provide 
accurate and complete accountability for their fee revenue. The backlog 
of deferred maintenance, which was the initial justification given for 
Fee Demo, has continued to grow instead of shrinking, and appropriated 
funding disappears into agency overhead instead of making it to the 
ground. Instead of increased recreational opportunities, sites have 
been closed and facilities removed if they are perceived by the 
managing agency as inadequate generators of revenue.
    The powerful incentive embodied in fee retention has proved to be 
too much for the agencies to resist. They have used an undefined word 
here and an ambiguous sentence there to justify the implementation of 
policies that nullify the protections on public access that FLREA was 
supposed to provide. Contorted interpretations of FLREA's Standard 
Amenity Fee and Special Recreation Permit Fee authority have led to de 
facto entrance fees to hundreds of thousands of acres of undeveloped 
Federal recreational lands.
    The best way to curb these abuses and restore common sense to fee 
policy would be to end the authority for fee retention and return fees 
to the Treasury for appropriation and oversight by Congress. As long as 
they get to keep all the money they can raise, the agencies will 
inevitably seek to find and exploit every weakness they can in the 
wording of any limiting law.
    But if Congress decides that fee retention is to continue, then it 
is imperative that the restrictions and prohibitions on where, and for 
what, fees can be charged must be spelled out very clearly, and there 
must be a procedure for citizens to challenge fees that do not appear 
to comply with the law.
    I applaud the Chairman and this subcommittee for acting to reform 
Federal fee policy. However I regret to say that the draft language 
under discussion today would make the situation far worse. It does not 
provide sufficient safeguards to counterbalance the powerful incentive 
of fee retention and protect the public's right to basic access as 
expressed in FLREA. Instead, it provides strong new incentives to 
develop more facilities in more places--facilities the public neither 
needs nor wants--simply in order to be able to charge fees.
    Fees for use of developed facilities such as campgrounds are 
reasonable and have been well accepted, and we support them. But that 
should not be allowed to evolve into a situation where the agencies 
have an incentive to add facilities, not because the public needs or 
wants them, but because they want to be able to charge fees. A careful 
reading of this bill, in the context of the agencies' past actions, 
shows that they would charge a fee anyplace that there is any sort of 
toilet in the vicinity--even a porta-potty. The amenities threshold of 
where fees could be charged would be reduced to nearly zero. This bill 
would be a throwback to the anything-goes authority already proven to 
be a failure under Fee Demo. ``Pay to play'' would become ``pay-to-
pee.''
    The concept of shared ownership, shared access, and shared 
responsibility, which should be based on a long accepted tradition that 
on Federal lands facilities will be basic, would be lost under this 
draft bill. Federal facilities should remain basic specifically so that 
we can afford to make them available to everyone.
    When I testified before you in June last year, I provided numerous 
examples of how the Forest Service and BLM have evaded the restrictions 
on fees that are in the current statute. They have amply demonstrated 
their ability to use any small ambiguity or conflicting language to go 
far beyond congressional intent as expressed in the law. Unfortunately, 
this draft bill contains many ambiguities, inconsistencies, and 
internal conflicts, which the agencies would certainly exploit to do 
more of the same.
    Fee authority as currently being implemented has taken ownership of 
these lands out of the hands of the public and given it to the land 
management agencies. This is a change in relationship that is most 
disturbing. The draft under consideration would exacerbate instead of 
correcting it. It is time for the public, acting through our elected 
Federal officials, to re-assert ownership of our public lands from 
these agencies that have forgotten that it's not their land!

    New legislation should ensure that:

    <bullet> fees are focused on use of developed or specialized 
            facilities for which there is a demonstrated need; in 
            particular, any fee areas should, at a bare minimum, 
            require ``permanent'' toilet facilities, not just porta-
            potties as the proposed bill would allow;
    <bullet> entrance fees are limited to National Parks and Wildlife 
            Refuges;
    <bullet> concessionaire fees are governed by the same requirements 
            as agency fees;
    <bullet> fees for special uses are carefully defined and never 
            applied to private, non-commercial use of undeveloped or 
            minimally developed areas;
    <bullet> no incentive is given to the agencies that would encourage 
            them to install facilities for the purpose of creating 
            additional fee sites and revenues;
    <bullet> ironclad agency financial accountability is established.

    FLREA was Congress's attempt to replace Fee Demo with legislation 
that would provide the agencies with appropriate, albeit limited, fee 
authority. Ten years after the passage of FLREA we can now see what its 
weaknesses are and where opportunities for improvement lie. Appended at 
the end of this testimony is suggested alternative language for your 
consideration. It represents our best attempt to ensure that the 
agencies are granted reasonable and well-defined fee authority, while 
protecting the public lands from costly unneeded development and 
protecting the recreating public from an onslaught of new and ever-
higher fees. I believe that this draft, based on a more than decade's 
worth of input from a wide cross-section of recreational visitors to 
Federal lands, more nearly meets the requirements listed above than the 
bill under discussion. It would close the loopholes in FLREA that the 
agencies have been able to exploit, and create an equitable recreation 
fee program that would enjoy wide public support. I urge you to 
consider it.
    Mr. Chairman and members of the subcommittee, thank you for your 
consideration and for allowing me to testify before you today.

Attachment: Alternative Discussion Draft Language.

        ALTERNATIVE DISCUSSION DRAFT--RECREATION FEE LEGISLATION

SEC. 1. SHORT TITLE, PURPOSE, AND TABLE OF CONTENTS

  (a)  Short Title--This title may be cited as

  (b)  Purpose--

           To amend the Federal Lands Recreation Enhancement Act to 
allow certain Federal Agencies, under strictly conforming and duly 
adopted guidelines, to establish certain nationally consistent fees on 
public lands where specified facilities are regularly available and 
regularly maintained for public use, and for certain special uses of 
public lands.

           It is the intent of Congress, in this Act, to expand access 
for all Americans and visitors to healthy and active outdoor recreation 
activities and other benefits offered by a system of federally managed 
lands. Further, it is the intent of Congress that the recreation fee 
program authorized under this Act take into consideration that Federal 
lands are public lands for which other funds are made available by 
Congress and fees are not intended to cover the entire cost of 
recreation management. Recreation fees are supplemental to funds 
provided by Congress and should only be imposed where there is a 
demonstrated need to provide supplemental benefits; thus fee revenues 
should be expended to directly benefit those who paid them.

           Nothing in this Act shall be interpreted or implemented to 
allow recreation facility fees on public lands or waters where 
constructed facilities are not available or when the visitor does not 
use them. Nor shall anything in this Act be interpreted or implemented 
to allow fees on Federal lands or waters that do not or cannot meet the 
requirements of this Act.

  (c).  Table of Contents--The table of contents of this Act is as 
            follows:

           Sec. 1. Short title, purpose, and table of contents.
           Sec. 2. Definitions.
           Sec. 3. Recreation fee authority.
           Sec. 4. Entrance fees.
           Sec. 5. Recreation facility fees.
           Sec. 6. Special use permit fees.
           Sec. 7. Prohibitions on fees.
           Sec. 8. Public participation.
           Sec. 9. Recreation passes.
           Sec. 10. Reservation service agreements.
           Sec. 11. Special account and distribution of fees and 
revenues.
           Sec. 12. Expenditures.
           Sec. 13. Reports.
           Sec. 14. Volunteers.
           Sec. 15. Enforcement and protection of receipts.
           Sec. 16. Repeal of superseded admission and use fee 
authorities.
           Sec. 17. Relation to other laws and fee collection 
authorities.
           Sec. 18. Limitation on use of fees for employee bonuses.

SEC. 2. DEFINITIONS. In this Act:

  1.  ENTRANCE FEE--The term ``entrance fee'' means the fee authorized 
            by Section 4 to be charged to enter onto lands or waters 
            managed by the National Park Service or the U.S. Fish and 
            Wildlife Service.
  2.  FEDERAL LAND MANAGEMENT AGENCY--The term ``Federal land 
            management agency'' means the National Park Service, the 
            U.S. Fish and Wildlife Service, the Bureau of Land 
            Management, the Bureau of Reclamation, or the Forest 
            Service.
  3.  FEDERAL RECREATIONAL LANDS AND WATERS--The term ``Federal 
            recreational lands and waters'' means lands or waters 
            managed under the authority of a Federal land management 
            agency.
  4.  FEE--The term ``fee'' relates to the fees established by this 
            Act, which are entrance fees, recreation facility fees, and 
            special use permit fees.
  5.  NATIONAL PARKS PLUS PASS--The term ``National Parks Plus Pass'' 
            means the interagency national pass authorized by Section 
            9(a).
  6.  PASSHOLDER--The term ``passholder'' means the person who is 
            issued a recreation pass established under Section 9.
  7.  PERMANENT TOILET--The term ``permanent toilet'' means a pit, 
            vault, or flush facility constructed in place for the 
            purpose of depositing human waste in a sanitary manner.
  8.  RECREATION FACILITY FEE--The term ``recreation facility fee'' 
            means the recreation fee authorized by Section 5.
  9.  RECREATION PASS--The term ``recreation pass'' means the National 
            Parks Plus Pass or one of the other recreation passes 
            available as authorized by Section 9.
10.  SECRETARY--The term ``Secretary'' means--
        (A)   the Secretary of the Interior, with respect to a Federal 
            land management agency (other than the Forest Service); and
        (B)   the Secretary of Agriculture, with respect to the Forest 
            Service.

11.  SECRETARIES--The term ``Secretaries'' means the Secretary of the 
            Interior and the Secretary of Agriculture acting jointly.
12.  SPECIAL ACCOUNT--The term ``special account'' means the special 
            account established in the Treasury under Section 11 for a 
            Federal land management agency.
13.  SPECIAL USE PERMIT FEE--The term ``special use permit fee'' means 
            the recreation fee authorized by Section 6.
14.  UNIT--For the purposes of this Act, the term ``unit'' means --for 
            the National Park Service a single park, monument, or other 
            management unit; for the U.S. Fish and Wildlife Service a 
            single National Wildlife Refuge; for the Bureau of 
            Reclamation the recreation complex associated with a single 
            project; for the Bureau of Land Management the area managed 
            by a single field office, and for the Forest Service a 
            single ranger district.

SEC. 3. RECREATION FEE AUTHORITY.

  (a)  AUTHORITY OF THE SECRETARY--All fees established pursuant to 
            this Act shall be fair and equitable, taking into 
            consideration the direct and indirect cost to the 
            Government, the benefits to the visitor, the public policy 
            or interest served, the economic and administrative 
            feasibility of fee collection, and other pertinent factors. 
            The Secretaries shall coordinate with appropriate Federal, 
            State, tribal, and local government agencies, and 
            nongovernmental organizations representing local tourism 
            and recreation interests before setting fees. The 
            Secretaries shall take into account that they are stewards 
            for land that is held in common by all Americans, and shall 
            consider their core mission to be providing nationally 
            consistent and affordable access to healthy, active, 
            outdoor recreation on Federal recreational lands and 
            waters. Fees shall not be set in comparison to those at 
            non-Federal recreational facilities, and shall not exceed 
            actual costs.

          (1)   Fees collected by contractors, cooperators, 
        concessionaires, or other nonagency personnel shall be set in 
        the same manner and are subject to the same limits as those 
        collected by the agency.
          (2)   The Secretary shall establish the fewest possible fees 
        and shall avoid the collection of multiple or layered 
        recreation fees.
          (3)   The establishment of a fee under this Act shall 
        constitute final agency action subject to judicial review under 
        the Administrative Procedure Act. (5 U.S.C. 702)

  (b)  NOTICE OF FEES--The Secretary shall post clear notice of any fee 
            and available recreation passes at appropriate locations in 
            each unit or area of Federal recreational lands or waters 
            where a fee is charged. The Secretary shall include such 
            notice in publications distributed at the unit or area.

  (c)  DISCOUNTED OR FREE ADMISSION DAYS OR USE--The Secretary shall 
            provide one free day per month during the open operating 
            season at each unit, and may provide additional discounted 
            or free days for use of Federal recreational lands and 
            waters.

SEC. 4. ENTRANCE FEES.

  (a)  ENTRANCE FEE POLICIES--

          (1)   AUTHORIZED SITES FOR ENTRANCE FEES--The Secretary of 
        the Interior may charge an entrance fee for a unit managed by 
        the National Park Service, or for a unit of the National 
        Wildlife Refuge System.
          (2)   Upon payment of an entrance fee, the Secretary of the 
        Interior shall issue a nontransferable receipt valid for entry 
        and reentry of the same area for a period of no less than 24 
        hours, and no more than 7 consecutive days;
          (3)   Motorcycles, snowmobiles, and watercraft, when used as 
        the means of entry, shall be considered as vehicles for the 
        purposes of collecting per-vehicle entrance fees; and
          (4)  The Secretary of the Interior shall determine--
                  (A)   a consistent entrance fee policy and schedule 
                for commercial and noncommercial recreational groups; 
                and
                  (B)   the conditions under which an educational group 
                entering an entrance fee area authorized under Section 
                4(b)(1) may be exempted from paying an entrance fee.

  (b)  PROHIBITION ON ENTRANCE FEES FOR CERTAIN PERSONS OR PLACES.--The 
            Secretary shall not charge an entrance fee for the 
            following:

          (1)   Outings conducted for noncommercial educational 
        purposes by schools or bona fide academic institutions where 
        the agency has provided prior approval for a fee waiver.
          (2)   The U.S.S. Arizona Memorial, Independence National 
        Historical Park, any unit of the National Park System within 
        the District of Columbia, the Flight 93 National Memorial, the 
        Statue of Liberty National Monument, or Arlington House-Robert 
        E. Lee National Memorial.
          (3)   Entrance by other routes into the Great Smoky Mountains 
        National Park or any part thereof unless fees are charged for 
        entrance into that park on main highways and thoroughfares.
          (4)   Entrance to units of the National Park System 
        containing deed restrictions or other legislative prohibitions 
        on charging fees.
          (5)   An area or unit of the National Park System covered 
        under Section 203 of the Alaska National Interest Lands 
        Conservation Act (Public Law 96-487; 16 U.S.C. 410hh-2), with 
        the exception of Denali National Park and Preserve.
          (6)   A unit of the National Wildlife Refuge System created, 
        expanded, or modified by the Alaska National Interest Lands 
        Conservation Act.
          (7)   Entrance by any person engaged in a non-recreational 
        activity authorized under a valid permit issued under any other 
        Act, including a valid grazing permit.
          (8)   Nonrecreational activities related to the exercise of 
        First Amendment rights, agency authorized research, access to 
        private property or inholdings, or officials engaged in local, 
        State, tribal, or Federal business.
          (9)   Travel by private, noncommercial vehicle over any 
        national parkway or any road or highway established as a part 
        of the Federal-aid System, as defined in Section 101 of title 
        23, United States Code, which is commonly used by the public as 
        a means of travel between two places either or both of which 
        are outside any unit or area at which recreation fees are 
        charged under this Act.
          (10)  Any person who visits a unit or area under the 
        jurisdiction of the U.S. Fish and Wildlife Service and who has 
        been issued a valid migratory bird hunting and conservation 
        stamp issued under Section 2 of the Act of March 16, 1934 (16 
        U.S.C. 718b; commonly known as the Duck Stamp Act).

  (c)  FEES FOR TRANSPORTATION SERVICES--Where the Secretary requires 
            visitors to a unit or portion of a unit where an entrance 
            fee is established to use a government-provided 
            transportation service in lieu of a private motor vehicle, 
            no additional fee may be charged for the use of such 
            required transportation service, whether provided as a 
            government service or through agreement or contract. Where 
            such transportation services are optional, riders may be 
            charged an appropriate cost-recovery or other fee for the 
            use of such service, consistent with Section 501 of the 
            National Park Omnibus Management Act of 1998 (16 U.S.C. 
            5981) and other authorities.

  (d)  FEES FOR INTERPRETIVE SERVICES--Where an entrance fee has been 
            established, no additional charge shall be made for access 
            to visitor centers or for interpretive programs and 
            services that promote an understanding and appreciation of 
            the values for which the unit was established. Reasonable 
            fees may be charged for interpretive programs or services 
            where no entrance fee has been established, or for 
            extraordinary interpretive programs that exceed those 
            related to the unit's core mission, so long as 
            participation in such standalone or extraordinary 
            interpretive activity is optional.

  (e)  WHITEWATER BOATING PERMIT FEE--Where the Secretary determines 
            that a system of permits, limited in number, is necessary 
            to equitably manage and provide special resource protection 
            due to private noncommercial whitewater boating within a 
            unit of the National Park Service or U.S. Fish and Wildlife 
            Service, a fee may be charged for such permit. Whitewater 
            boating permit fees may not exceed the actual cost of 
            administering the permit system and managing whitewater 
            boating use.

SEC. 5. RECREATION FACILITY FEES--The Secretaries may charge a 
recreation facility fee on Federal recreational lands and waters under 
the jurisdiction of the National Park Service, U.S. Fish and Wildlife 
Service, Bureau of Land Management, Bureau of Reclamation, and Forest 
Service, but only for the following activities and under the following 
conditions:

  (a)  USE OF SPECIALIZED FACILITIES AT BOAT LAUNCHES.

          (1)   IN GENERAL--A fee may be charged on a per-watercraft 
        basis for the use of the following specialized facilities for 
        launching a watercraft:

                  (A)  Mechanical or hydraulic boat lifts.

                  (B)  Boarding float or mooring dock.

          (2)   No fee may be charged for access to a boat launch area 
        if no specialized facilities as listed above are used.

  (b)  CAMPING IN DEVELOPED CAMPGROUNDS--

          (1)   Fees for camping shall be limited to developed 
        campgrounds accessed by vehicle or watercraft.

          (2)   Fees shall only be charged at campgrounds that have a 
        majority of the following facilities:

                  (A)  Tent or trailer spaces.
                  (B)  Picnic tables.
                  (C)  Drinking water.
                  (D)  Permanent trash facility.
                  (E)  Permanent toilet facilities.
                  (F)  Simple devices for containing a campfire.
                  (G)  Reasonable visitor protection.

          (3)   Fees for camping shall be charged on a per-night, per-
        site basis. No extra charge shall be made for extra vehicles so 
        long as such vehicles can be accommodated within the assigned 
        campsite or in a designated overflow parking area without 
        causing resource damage.

          (4)   A limit of not less than six persons over the age of 16 
        may be imposed on the number of persons allowed per campsite.

  (c)  SHORT TERM RENTAL of cabins, fire lookouts, historic structures, 
            group day-use or group overnight facilities, designated 
            target range sites, duck blinds, or other constructed 
            facilities for recreational, non-commercial purposes.

  (d)  SHORT TERM RENTAL of boats, stock animals, audio tour devices, 
            portable sanitation devices, binoculars, or other 
            recreational equipment for recreational, noncommercial 
            purposes.

  (e)  USE OF mooring docks, sewage dump stations, luggage storage 
            lockers, electrical hookups for recreational vehicles and 
            boats, and corrals.

  (f)  ACCESS TO A DESTINATION VISITOR OR INTERPRETIVE CENTER that 
            provides a broad range of interpretive services, programs, 
            and media except that no fee shall be charged if the 
            visitor or interpretive center lies within a larger area 
            for which an entrance or recreation facility fee is 
            charged.

SEC. 6. SPECIAL USE PERMIT FEES.

  (a)  IN GENERAL--The Secretaries may issue a special use permit and 
            charge a special use permit fee on Federal recreational 
            lands and waters under the jurisdiction of the National 
            Park Service, U.S. Fish and Wildlife Service, Bureau of 
            Land Management, Bureau of Reclamation, and Forest Service 
            in order to recover a portion of the costs associated with 
            the following special recreation uses, where they are 
            otherwise authorized:

          (1)   Use by off-highway vehicles or snowmobiles of 
        specialized areas that contain all of the following facilities:

                  (A)   A system of designated and mapped off-highway 
                vehicle or snowmobile trails.
                  (B)   Developed designated parking that is routinely 
                cleared of excess snow at snowmobile areas.
                  (C)   Regular trail maintenance a majority of which 
                is performed by Federal employees or contractors. At 
                snowmobile areas maintenance shall include trail 
                grooming.
                  (D)  Routine presence of agency law enforcement.
                  (E)  Toilets.
                  (F)  Refuse containers.

          (2)   Use by cross-country skiers or snowshoers of 
        specialized areas that contain all of the following facilities:

                  (A)  A system of designated and mapped trails.
                  (B)   Developed designated parking that is routinely 
                cleared of excess snow.
                  (C)   Regular mechanical trail grooming a majority of 
                which is performed by Federal employees or contractors.
                  (D)  Warming shelter.
                  (E)  Toilets.

          (3)   Use of specialized swimming sites that contain all of 
        the following facilities:

                  (A)  Floats encompassing the swimming area.
                  (B)  Bathhouse with showers and changing rooms.
                  (C)  Developed designated parking.
                  (D)  Attendants, including lifeguards.
                  (E)  Permanent toilets.
                  (F)  Refuse containers.

          (4)   Commercial outfitting and guiding.

          (5)   Permits for organized gatherings of more than 20 people 
        for such activities as weddings, sporting and competitive 
        events, and rallies.

          (6)   Advance reservation of a free backcountry or wilderness 
        permit pursuant to Section 7(b), subject to the following 
        conditions:

                  (A)   Advance reservation shall not be required as a 
                condition of obtaining a free backcountry permit.
                  (B)   At least 10 percent of authorized permits for a 
                particular backcountry or wilderness area shall be made 
                available without a reservation on a first-come first-
                served basis.
                  (C)   The reservation fee charged shall be per permit 
                and permits shall be per party. The fee shall not 
                exceed the actual cost of providing the reservation 
                service.

          (7)   Recreational mining activities.

          (8)   Harvesting of Christmas trees for personal, non-
        commercial use. Trees harvested pursuant to a permit issued 
        under this authority shall not be considered timber.

  (b)  ANNUAL SITE-SPECIFIC AND REGIONAL PERMITS AUTHORIZED--In order 
            to provide more flexibility and lower-cost alternatives, 
            the permits established under Section 6(a)(1), (2), and (3) 
            in addition to being offered as a daily permit may also be 
            issued on an annual or seasonal basis to allow unlimited 
            use of the same area or a group of areas.

  (c)  RELATION TO OTHER FEES--

          (1)   Special use permit fees for organized group gatherings, 
        commercial outfitting and guiding, advance reservation of 
        backcountry or wilderness permits, recreational mining, and 
        harvesting of Christmas trees may be charged in addition to 
        entrance fees or recreation facility fees, in areas where those 
        fees apply, except that no special use permit fee shall be 
        charged for an organized group gathering under Section 6(a)(5) 
        when a group facility rental fee has been paid in accordance 
        with Section 5(c).
          (2)   Special use permit fees for use of specialized areas 
        for off-highway vehicles, snowmobiles, cross-country skiing, 
        snowshoeing, and swimming may not be charged in areas where an 
        entrance fee or recreation facility fee is required, nor where 
        a fee is charged by a non-Federal entity in order to access the 
        Federal facilities.

SEC. 7. PROHIBITIONS ON FEES--

  (a)  IN GENERAL--Recreation facility fees and special use permit fees 
            shall not be charged for the following private, 
            noncommercial activities:

          (1)  Camping outside of developed campgrounds.
          (2)   Cross-country skiing, snowshoeing, or other non-
        motorized winter sports or access for the same except at 
        locations where a recreation facility fee or special use permit 
        fee is established in accordance with this Act.
          (3)   Off-highway vehicle or snowmobile use of a trail or 
        road that is open to motorized travel, except at locations 
        where a recreation facility fee or special use permit fee is 
        established in accordance with this Act.
          (4)   Access to, travel on, or use of rivers, lakes, beaches, 
        and other shoreline areas.
          (5)  Snow play.
          (6)  Equestrian trail use.
          (7)  Wildlife viewing.
          (8)   For the use, either singly or in any combination, of 
        drinking water, wayside exhibits, roads, overlook sites, scenic 
        drives, toilet facilities, or picnic tables.
          (9)   Hiking, walking, jogging, bicycling, or other non-
        motorized trail use.
          (10)  Parking. However, nothing in this Act shall prohibit 
        the Secretary from establishing a system of free parking 
        restrictions to manage visitor parking, and subject to other 
        terms and conditions as may be required to manage visitor use 
        and provide for resource protection.
          (11) Any person below the age of 16.
          (12)  Special attention or extra services necessary to meet 
        the needs of the disabled.
          (13)  Use of or access to designated wilderness or other 
        backcountry or dispersed areas.

  (b)  PROHIBITION ON BACKCOUNTRY PERMIT FEES GENERALLY--The 
            Secretaries shall not charge a fee pursuant to this or any 
            other Act for any permit issued for private, noncommercial 
            recreational use of wilderness or other backcountry or 
            dispersed areas. The Secretaries may establish a system of 
            free backcountry permits, limited in number and issued per 
            party, and subject to other terms and conditions as may be 
            required to equitably manage visitor use and provide for 
            resource protection. Such permits shall only be required 
            where necessary to meet the requirements of the Wilderness 
            Act or where special management is necessary due to demand 
            in excess of resource capacity.

SEC. 8. PUBLIC PARTICIPATION.

  (a)  IN GENERAL--The Secretary shall provide the public with 
            opportunities to participate in the development or 
            increasing of all fees established under this Act by:

          (1)   establishing guidelines for public involvement;
          (2)   establishing guidelines on how agencies will 
        demonstrate on an annual basis how they have provided 
        information to the public on the use of recreation fee 
        revenues; and
          (3)   publishing the guidelines in paragraphs (1) and (2) in 
        the Federal Register.

  (b)  ADVANCED NOTICE--The Secretaries shall publish a notice and 
            solicit public comment in the Federal Register before 
            establishing a new fee or increasing an existing fee. Such 
            publication shall occur during the peak use season of the 
            unit or activity to which the fee will apply and at least 1 
            year before such establishment or increase. The Secretaries 
            shall publish notice 1 year in advance of a new fee or a 
            increase to an existing fee established under this title in 
            local newspapers and publications located near the site at 
            which the fee would be established or increased, and 
            continuously on the home page of the Web site of the 
            affected unit for 1 year before establishment or increase. 
            Notification of a new or increased fee shall also be made 1 
            year in advance to the Senate Energy and Natural Resources 
            Committee and the House Natural Resources Committee.

  (c)  PUBLIC SUPPORT--Before establishing any new recreation fee or 
            increasing an existing fee, the Secretary shall document 
            public support by:

          (1)   Providing advanced notice and opportunity for public 
        comment in accordance with Section 8(b);
          (2)   Accepting comments from the public about the new or 
        increased fee; and
          (3)   Publishing the public comments received at the Web site 
        of the affected unit continuously for at least 30 days prior to 
        establishing or increasing the fee.

  (d)  RECREATION FEES CHARGED BY CONCESSIONAIRES--Fees charged at 
            Federal recreation facilities that are managed by private 
            contractors or permittees shall undergo the same public 
            notice and involvement requirements specified in this 
            Section as those at agency-managed facilities.

SEC. 9. RECREATION PASSES.

  (a)  The National Parks Plus Pass--

         (1)   AVAILABILITY AND USE--The Secretaries shall establish, 
        and may charge a fee for, an interagency national pass to be 
        known as ``The National Parks Plus Pass,'' which shall cover, 
        for the passholder and all occupants of the same private, non-
        commercial vehicle, the entrance fee for all Federal 
        recreational lands and waters for which an entrance fee is 
        charged and all visitor center fees established under Sec. 
        5(f). Where such fees are charged on a per-person basis, the 
        pass shall cover the passholder and up to three additional 
        persons age 16 and over.

         (2)   IMAGE COMPETITION FOR NATIONAL PASS--The Secretaries may 
        hold an annual competition to select the image to be used on 
        the National Parks Plus Pass for a year.

         (3)   DURATION--The National Parks Plus Pass shall be valid 
        for a period of 12 months from the date of the issuance of the 
        recreation pass to a passholder, except in the case of the age 
        and disability passes issued under subsection (b).

         (4)   PRICE--The price of the National Parks Plus Pass shall 
        be set at $60 per year.

         (5)   PRICE ADJUSTMENTS--The Secretaries may adjust the price 
        of the National Parks Plus Pass by publishing their intended 
        adjustment 1 year in advance in the Federal Register and 
        continuously for 1 year on the home page of their agency Web 
        sites. Notification of an adjustment shall be made 1 year in 
        advance to the Senate Energy and Natural Resources Committee 
        and the House Natural Resources Committee. Adjustments may 
        occur no more often than every 5 years.

         (6)   SALES LOCATIONS AND MARKETING--

                  (A)   IN GENERAL--The Secretaries shall sell the 
                National Parks Plus Pass at all Federal recreational 
                lands and waters at which an entrance fee is charged, 
                and at such other locations as the Secretaries consider 
                appropriate and feasible.
                  (B)   USE OF VENDORS--The Secretaries may enter into 
                agreements for sales of the National Parks Plus Pass by 
                non-Federal entities. Sales by such entities shall be 
                at the same price and according to the same guidelines 
                as those by Federal agencies. The Secretaries shall 
                account for any commission paid to non-Federal entities 
                on pass sales as a direct cost of each agency's fee 
                program.
                  (C)   MARKETING--The Secretaries may take such 
                actions as are appropriate to provide for the active 
                marketing of the National Parks Plus Pass.

         (7)   ADMINISTRATIVE GUIDELINES--The Secretaries shall issue 
        guidelines on administration of the National Parks Plus Pass, 
        which shall include agreement on the distribution of revenues 
        between the Federal land management agencies, the sharing of 
        costs, benefits provided, marketing and design, adequate 
        documentation for age and disability discounts under subsection 
        (b), and the issuance of the recreation pass to volunteers. The 
        Secretaries shall take into consideration all relevant visitor 
        and sales data available in establishing the guidelines.

         (8)   ACCEPTANCE BY CONCESSIONAIRES--The Secretaries shall 
        require that private operators of recreation facilities on 
        Federal recreational lands and waters accept the National Parks 
        Plus Pass under the terms and conditions specified in this 
        Section. For contracts in effect at the date of enactment of 
        this Act, this requirement shall become effective with the next 
        contract issuance or renewal following enactment.

         (9)   MULTIAGENCY ADMISSION AND SPECIAL USE PASSES--The 
        Secretaries may enter into revenue sharing agreements with 
        other Federal or non-Federal Governmental agencies to accept 
        their annual passes and convey the same privileges, terms and 
        conditions as offered under the auspices of the National Parks 
        Plus Pass, to those passes.

        (10)   PROHIBITION ON OTHER NATIONAL RECREATION PASSES--The 
        Secretary shall not establish any national recreation pass, 
        except as provided in this Section.

  (b)  Discount Passes--

          (1)   AGE DISCOUNT--The Secretary shall make the National 
        Parks Plus Pass available, at a cost of $10.00, to any U.S. 
        citizen or person domiciled in the United States who is 62 
        years of age or older, if the citizen or person provides 
        adequate proof of such age and such citizenship or residency. 
        The National Parks Plus Pass made available under this 
        subsection shall be valid for the lifetime of the passholder.

          (2)   DISABILITY DISCOUNT--The Secretary shall make the 
        National Parks Plus Pass available, without charge, to any U.S. 
        citizen or person domiciled in the United States who has been 
        medically determined to be permanently disabled for purposes of 
        Section 7(20)(B)(i) of the Rehabilitation Act of 1973 (29 
        U.S.C. 705(20)(B)(i)), if the citizen or person provides 
        adequate proof of the disability and such citizenship or 
        residency. The National Parks Plus Pass made available under 
        this subsection shall be valid for the lifetime of the 
        passholder.

          (3)   APPLICABILITY OF DISCOUNT PASSES--

                  (A)   IN GENERAL--In addition to covering entrance 
                fees and visitor center fees, the passes issued under 
                paragraphs (1) and (2) shall provide for a discount on 
                fees for camping in developed campgrounds. The discount 
                shall apply to the passholder and all occupants of the 
                same campsite.

                  (B)   RATE--The amount of the discount under 
                subparagraph (A) shall be 50 percent.

  (c)  In order to provide more flexibility and lower-cost 
            alternatives, the Secretary may establish site-specific and 
            regional passes that provide the same benefits as the 
            National Parks Plus Pass on Federal recreational lands and 
            waters, but are limited to one or more particular sites or 
            regions.

          (1)   Site-Specific Agency Passes--The Secretary may 
        establish and charge a fee for a site-specific pass for a 
        specified period not to exceed 12 months.
          (2)  Regional Passes--

                  (A)   PASSES AUTHORIZED--The Secretary may establish 
                and charge a fee for a regional pass that will be 
                accepted by more than one Federal land management unit 
                or by both Federal and non-Federal entities in one or 
                more regions for a specified period not to exceed 12 
                months. To include a Federal land management agency or 
                non-Federal entity over which the Secretary does not 
                have jurisdiction, the Secretary shall obtain the 
                consent of the head of such agency or entity.
                  (B)   REGIONAL PASS AGREEMENT--In order to establish 
                a regional pass under this subsection, the Secretary 
                shall enter into a regional pass agreement with all the 
                participating agencies or entities on price, the 
                distribution of revenues between participating agencies 
                or entities, the sharing of costs, benefits provided, 
                marketing and design, and the issuance of the pass to 
                volunteers. The Secretary shall take into consideration 
                all relevant visitor and sales data available when 
                entering into this agreement.

  (e)  Effect on Existing Passes and Permits--

          (1)  EXISTING PASSES--

                  (A)   A pass issued under Section 4 of the Land and 
                Water Conservation Fund Act of 1965 (16 U.S.C. 4601-
                6a), title VI of the National Parks Omnibus Management 
                Act of 1998 (Public Law 105-391; 16 U.S.C. 5991-5995), 
                such as the Golden Eagle Passport, the Golden Age 
                Passport, the Golden Access Passport, and the National 
                Parks Passport, that was valid on the day before the 
                enactment of this Act shall be valid in accordance with 
                the terms agreed to at the time of issuance of the 
                passport and remain in effect until expired, lost, or 
                stolen.
                  (B)   An ``America the Beautiful--the National Parks 
                and Federal Recreational Lands Pass'' issued under 
                Section 805 of the Federal Lands Recreation Enhancement 
                Act (16 U.S.C. 6804), title VIII of the Consolidated 
                Appropriations Act, 2005 (Public Law 108-447; 16 U.S.C. 
                6801-6814) that was valid on the day before the 
                enactment of this Act shall be valid in accordance with 
                the terms agreed to at the time of issuance and remain 
                in effect until expired, lost, or stolen.

          (2)   PERMITS--A permit issued under Section 4 of the Land 
        and Water Conservation Fund Act of 1965 that was valid on the 
        day before the date of the enactment of this Act shall be valid 
        and remain in effect until expired, revoked, or suspended.

SEC. 10. RESERVATION SERVICE AGREEMENTS.

  (a)  The Secretary may enter into an agreement, including a contract, 
            with a governmental or nongovernmental entity for the 
            purpose of obtaining visitor reservation services. The 
            entity providing visitor reservation services may charge a 
            reasonable fee for their services in accordance with such 
            agreement or contract, and such fee shall not be considered 
            a recreation fee under this Act.

  (b)  Of amounts due any Federal land management agency under a 
            reservation service agreement or contract, not more than 15 
            percent may be used by the agency for administrative costs 
            related to the contract or agreement. The remainder shall 
            be distributed agency-wide for expenditure according to the 
            purposes specified under Section 12(a).

SEC. 11. SPECIAL ACCOUNT AND DISTRIBUTION OF FEES AND REVENUES.

  (a)  Special Account--The Secretary of the Treasury shall establish a 
            special account in the Treasury for each Federal land 
            management agency.
  (b)  Deposits--Subject to subsections (c), (d), and (e), revenues 
            collected by each Federal land management agency under this 
            Act shall--

          (1)  be deposited in its special account; and
          (2)  remain available for expenditure, until expended.

  (c)  Distribution of Entrance Fees, Recreation Facility Fees, Special 
            Use Permit Fees, and Site-specific Agency Pass Revenues--

          (1)  Retention and expenditure of revenues--
                  (A)   With regard to the U.S. Fish and Wildlife 
                Service, Bureau of Reclamation, Bureau of Land 
                Management, and Forest Service--

                          (i)   Not less than 80 percent of fees 
                        collected under this Act shall remain available 
                        for expenditure by the collecting unit, without 
                        further appropriation, until expended.
                          (ii)   Entrance fees shall be expended within 
                        the same unit where collected.
                          (iii)  Recreation facility fees and site-
                        specific agency pass revenues shall be expended 
                        at the same type of site where collected and 
                        within the same unit where collected.
                          (iv)   Special use permit fees for use of 
                        specialized facilities under Section 6(a)(1), 
                        (2), and (3) shall be expended at the same 
                        facility where collected.
                          (v)   Special use permit fees for group 
                        gatherings, reservation of backcountry permits, 
                        recreational mining, Christmas tree harvesting, 
                        and commercial outfitting and guiding under 
                        Section 6(a)(4), (5), (6), (7) and (8) shall be 
                        expended on administration of those permits and 
                        management of those activities.

                  (B)  With regard to the National Park Service--

                          (i)  Not less than 80 percent of amounts 
                        collected under this Act at a specific unit 
                        shall remain available for use at the specific 
                        unit, except that for those units of the 
                        National Park System that participate in a 
                        multiagency revenue sharing agreement under 
                        Section 9(a)(9) of this Act, not less than 90 
                        percent of amounts collected at a specific unit 
                        shall remain available for use at that unit.

                          (ii)  Monies payable to the Service as a 
                        result of multiagency pass revenue sharing 
                        agreements established pursuant to Section 
                        9(a)(9) shall be distributed equally to all 
                        units of the National Park System in the 
                        specific States where the Park Service units 
                        that are parties to the revenue sharing 
                        agreement are located.

          (2)  AGENCY-WIDE DISTRIBUTION OF FUNDS--The balance of the 
        recreation fees and site-specific agency pass revenues 
        collected shall remain available to that Federal land 
        management agency for expenditure on an agency-wide basis, 
        without further appropriation, until expended.

  (d)  Distribution of National Parks Plus Pass Revenues--Revenues 
            collected from the sale of the National Parks Plus Pass 
            shall be deposited in the special accounts established for 
            the Federal land management agencies in accordance with the 
            guidelines issued under Section 11 and shall be distributed 
            according to the agreement established under Section 
            9(a)(7).

  (e)  Distribution of Regional Pass Revenues--Revenues collected from 
            the sale of a regional pass established under Section 
            9(c)(2) shall be deposited in each participating Federal 
            land management agency's special account and distributed in 
            accordance with the terms of the regional pass agreement 
            established under Section 9(c)(2)(B).
SEC. 12. EXPENDITURES.

  (a)  ADMINISTRATION, CAPITAL AND OPERATING COSTS--The Secretaries may 
            not spend more than 15 percent of total revenues collected 
            annually under this Act for fee collection program direct, 
            indirect, and administrative overhead. The cost of fee-
            collection materials, contracts with third parties for fee 
            collection services, and sales commissions to third party 
            vendors of passes and permits shall be considered direct 
            costs of the fee program.

          (1)   BACKLOGGED MAINTENANCE--Amounts available for 
        expenditure shall first be used for repairs and maintenance of 
        existing facilities directly related to visitor enjoyment, 
        visitor access, and health and safety.
          (2)   At units where visitor facilities are in good repair 
        and are open and available for visitor use and no backlogged 
        maintenance needs exist, amounts available for expenditure may 
        be used for--

                  (A)  Enhancement of visitor facilities;
                  (B)   Interpretation, visitor information, visitor 
                service, visitor needs assessments, and signs;
                  (C)   Habitat restoration directly related to 
                wildlife-dependent recreation that is limited to 
                hunting, fishing, wildlife observation, or photography;
                  (D)   Natural resource or cultural resource 
                preservation or management programs, except that fee 
                revenue may not be used for biological monitoring on 
                Federal recreational lands and waters under the 
                Endangered Species Act of 1973 for listed or candidate 
                species;
                  (E)   Law enforcement related to public use and 
                recreation;
                  (F)   Retirement of possessory interest or leasehold 
                surrender interest of concessionaires.

SEC. 13. REPORTS.

  (a)  ANNUAL REPORT--Not later than _____, and annually thereafter, 
            the Secretaries shall submit to Congress a separate 
            accounting of the preceding fiscal year for each Federal 
            agency. These individual agency reports shall list, broken 
            down by unit, the total fee receipts collected under this 
            Act by type, all expenditures from these accounts, any new 
            fees established, and any changes to existing fees for each 
            agency during the preceding fiscal year. Each report shall 
            also detail any unobligated funds remaining at these units 
            at the end of the fiscal year, along with planned 
            utilization of these funds during the next fiscal year.

  (b)  SUBMISSION OF REPORTS--All reports required under this Act shall 
            be submitted to the Committees on Appropriations of the 
            House of Representatives and the Senate, the Committee on 
            Natural Resources of the House of Representatives and the 
            Committee on Energy and Natural Resources of the Senate and 
            shall be available to the public on appropriate agency Web 
            sites at the same time the reports are made available to 
            the committees.

SEC. 14. VOLUNTEERS.

  (a)  Authority to Use Volunteers--The Secretary may use volunteers, 
            as appropriate, to collect recreation fees and sell 
            recreation passes.
  (b)  Waiver or Discount of Fees; Site-Specific Agency Pass--In 
            exchange for volunteer services, the Secretary may waive or 
            discount an entrance fee or recreation facility fee that 
            would otherwise apply to the volunteer or issue to the 
            volunteer a site-specific agency pass authorized under 
            Section 9(c)(1).
  (c)  National Parks Plus Pass--In accordance with the guidelines 
            established under Section 9(a)(7), the Secretaries shall 
            issue a National Parks Plus Pass to a volunteer in exchange 
            for 20 hours of approved volunteer services performed by 
            the volunteer.
  (d)  Regional Passes--Where a regional pass is available, the 
            Secretary shall issue a regional pass in accordance with 
            the guidelines established under Section 9(a)(7) to a 
            volunteer in exchange for 10 hours of approved volunteer 
            services performed by the volunteer, if the regional pass 
            agreement under which the regional pass was established 
            provides for the issuance of the pass to volunteers.

SEC. 15. ENFORCEMENT AND PROTECTION OF RECEIPTS.

  (a)  Enforcement Authority--The Secretary concerned shall enforce 
            payment of the fees authorized by this Act.
  (b)  Evidence of Nonpayment--If the display of proof of payment of a 
            required fee, or the payment of a fee within a certain time 
            period is required, failure to display such proof as 
            required or to pay the recreation fee within the time 
            period specified shall constitute evidence of nonpayment.
  (c)  Responsible Party for payment of fees.--When a per-person fee is 
            charged, each individual over the age of 16 years old will 
            be responsible for payment of his or her personal fee. When 
            a per-vehicle fee is charged, the operator of the vehicle 
            will be responsible for payment.
  (d)  Limitation on Penalties.--No penalty or service charge will be 
            imposed without the admission or finding of guilt. Failure 
            to pay a fee established under this Act shall be punishable 
            as an infraction with a fine not to exceed $100 
            notwithstanding Section 3571(b) of title 18, United States 
            Code.

SEC. 16. REPEAL OF SUPERSEDED ADMISSION AND USE FEE AUTHORITIES.

    The Federal Lands Recreation Enhancement Act, Public Law 108447, 16 
U.S.C. Sec. 6801, et seq., is superseded in its entirety by this Act. 
In addition:

  (a)  Land and Water Conservation Fund Act--Subsections (a), (b), (c), 
            (d), (e), (f), (g), (i), (j), (k), and (n), except (n)(5) 
            of Section 4 of the Land and Water Conservation Fund Act of 
            1965 (16 U.S.C. 4601-6a et seq.) are repealed.
  (b)  Recreational Fee Demonstration Program--Section 315 of the 
            Department of the Interior and Related Agencies 
            Appropriations Act, 1996 (as contained in Section 101(c) of 
            Public Law 104-134; 16 U.S.C. 4601-6a), is repealed.
  (c)  Admission Permits for Refuge Units--Section 201 of the Emergency 
            Wetlands Resources Act of 1986 (16 U.S.C. 3911) is 
            repealed.
  (d)  National Park Passport, Golden Eagle Passport, Golden Age 
            Passport, and Golden Access Passport:

          (1)   Section 502 of the National Parks Omnibus Management 
        Act of 1998 (Public Law 105-391; 16 U.S.C. 5982) is repealed.
          (2)   Title VI of the National Parks Omnibus Management Act 
        of 1998 (Public Law 105-391; 16 U.S.C. 5991-5995) is repealed.

  (e)  Treatment of Unobligated Funds--

          (1)   LAND AND WATER CONSERVATION FUND SPECIAL ACCOUNTS--
        Amounts in the special accounts established under Section 
        4(i)(1) of the Land and Water Conservation Fund Act of 1965 (16 
        U.S.C. 4601-6a(i)(1)) for Federal land management agencies that 
        are unobligated on the date of the enactment of this Act shall 
        be transferred to the appropriate special account established 
        under Section 11 and shall be available to the Secretary in 
        accordance with this Act. A special account established under 
        Section 4(i)(1) of the Land and Water Conservation Fund Act of 
        1965 for a Federal agency that is not a Federal land management 
        area, and the use of such special account, is not affected by 
        the repeal of Section 4 of the Land and Water Conservation Fund 
        Act of 1965 by subsection (a) of this Section.

          (2)   NATIONAL PARKS PASSPORT--Any funds collected under 
        title VI of the National Parks Omnibus Management Act of 1998 
        (Public Law 105-391; 16 U.S.C. 5991-5995) that are unobligated 
        on the day before the publication of the Federal Register 
        notice required under Section 5(a)(3) shall be transferred to 
        the special account of the National Park Service for use in 
        accordance with this Act. The Secretary of the Interior may use 
        amounts available in that special account to pay any 
        outstanding administration, marketing, or close-out costs 
        associated with the national parks passport.

          (3)   RECREATIONAL FEE DEMONSTRATION PROGRAM--Any funds 
        collected in accordance with Section 315 of the Department of 
        the Interior and Related Agencies Appropriations Act, 1996 (as 
        contained in Section 101(c) of Public Law 104-134; 16 U.S.C. 
        4601-6a), that are unobligated on the day before the date of 
        the enactment of this Act shall be transferred to the 
        appropriate special account and shall be available to the 
        Secretary in accordance with this Act.

          (4)   FEDERAL LANDS RECREATION ENHANCEMENT ACT--Any funds 
        collected in accordance with Title VIII Section 805 of the 
        Consolidated Appropriations Act, 2005 (Public Law 108-447; 16 
        U.S.C. 6801-6814) that are unobligated on the day before the 
        enactment of this Act shall be transferred to the appropriate 
        special account and shall be available to the Secretary in 
        accordance with this Act.

          (5)   ADMISSION PERMITS FOR REFUGE UNITS--Any funds collected 
        in accordance with Section 201 of the Emergency Wetlands 
        Resources Act of 1986 (16 U.S.C. 3911) that are available as 
        provided in subsection (c)(A) of such section and are 
        unobligated on the day before the date of the enactment of this 
        Act shall be transferred to the special account of the U.S. 
        Fish and Wildlife Service for use in accordance with this Act.

  (f)  Effect of Regulations--A regulation or policy issued under a 
            provision of law repealed by this Section shall remain in 
            effect to the extent such a regulation or policy is 
            consistent with the provisions of this Act until the 
            Secretary issues a regulation, guideline, or policy under 
            this Act that supersedes the earlier regulation.

SEC. 17. RELATION TO OTHER LAWS AND FEE COLLECTION AUTHORITIES.

  (a)  Federal and State Laws Unaffected--Nothing in this Act shall 
            authorize Federal hunting or fishing licenses or fees or 
            charges for commercial or other activities not related to 
            recreation, affect any rights or authority of the States 
            with respect to fish and wildlife, or repeal or modify any 
            provision of law that permits States or political 
            subdivisions of States to share in the revenues from 
            Federal lands or, except as provided in subsection (b), any 
            provision of law that provides that any fees or charges 
            collected at particular Federal areas be used for or 
            credited to specific purposes or special funds as 
            authorized by that provision of law.

  (b)  Relation to Revenue Allocation Laws--Amounts collected under 
            this Act, and the existence of a reservation service 
            agreement with a governmental entity under Section 10 (a), 
            may not be taken into account for the purposes of any of 
            the following laws:

          (1)   The sixth paragraph under the heading `FOREST SERVICE' 
        in the Act of May 23, 1908 (16 U.S.C. 500).
          (2)   Section 13 of the Act of March 1, 1911 (16 U.S.C. 500; 
        commonly known as the Weeks Act).
          (3)   The fourteenth paragraph under the heading `FOREST 
        SERVICE' in the Act of March 4, 1913 (16 U.S.C. 501).
          (4)   Section 33 of the Bankhead-Jones Farm Tenant Act (7 
        U.S.C. 1012).
          (5)   Title II of the Act of August 8, 1937, and the Act of 
        May 24, 1939 (43 U.S.C. 1181f et seq.).
          (6)   Section 6 of the Act of June 14, 1926 (43 U.S.C. 869-
        4).
          (7)   Chapter 69 of title 31, United States Code.
          (8)   Section 401 of the Act of June 15, 1935 (16 U.S.C. 
        715s; commonly known as the Refuge Revenue Sharing Act).
          (9)   The Secure Rural Schools and Community Self-
        Determination Act of 2000 (Public Law 106-393; 16 U.S.C. 500 
        note), except that the exception made for such Act by this 
        subsection is unique and is not intended to be construed as 
        precedent for amounts collected from the use of Federal lands 
        under any other provision of law.
          (10)   Section 2 of the Boulder Canyon Project Adjustment Act 
        (43 U.S.C. 618a).
          (11)   The Federal Water Project Recreation Act (16 U.S.C. 
        4601-12 et seq.).
          (12)   The first section of the Act of June 17, 1902, as 
        amended or supplemented (43 U.S.C. 391).
          (13)   The Act of February 25, 1920 (30 U.S.C. 181 et seq.; 
        commonly known as the Mineral Leasing Act).
          (14)   Section 4(e) of the Southern Nevada Public Land 
        Management Act of 1998 (Public Law 105-263; 31 U.S.C. 6901 
        note).
          (15)   Section 5(a) of the Lincoln County Land Act of 2000 
        (Public Law 106-298; 114 Stat. 1047).
          (16)   Any other provision of law relating to revenue 
        allocation.

  (c)  Consideration of Other Funds Collected--Amounts collected under 
            any other law may not be disbursed under this Act.

  (d)  Migratory Bird Hunting Stamp Act--Revenues from the stamp 
            established under the Act of March 16, 1934 (16 U.S.C. 718 
            et seq.; commonly known as the Migratory Bird Hunting Stamp 
            Act or Duck Stamp Act), shall not be covered by this Act.

  (e)  Sole Recreation Fee Authority--Recreation fees charged under 
            this Act shall be in lieu of fees charged for the same 
            purposes under any other provision of law.

  (f)  Fees Charged by Third Parties--A third party providing 
            recreation management services on Federal lands and waters 
            under a permit, contract or agreement may not charge any 
            fee that is not in accordance with this Act.

  (g)  Non-compliant fees--Any fee in effect on the date of enactment 
            of this Act that is not in compliance with this Act shall 
            be eliminated no later than 180 days after enactment.

 SEC. 18. LIMITATION ON USE OF FEES FOR EMPLOYEE BONUSES.

    Notwithstanding any other provision of law, fees collected under 
the authorities of this Act may not be used for employee bonuses.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate all your testimonies. 
We will now turn to questions.
    Mr. Grijalva, do you have questions?
    Mr. Grijalva. Thank you. Ms. Benzar, because I took your 
subtle hint at the end----
    [Laughter.]
    Mr. Grijalva. Could--describe that reaction to the 
decision. Then I will ask Mr. Crandall the same question, 
because one of--it involves concessionaires and the potentials, 
as she is going to outline. OK.
    Ms. Benzar. Yes. I hope Members of Congress know that the 
Forest Service has now placed under private management, in the 
form of concessionaire permits, 80 percent of their most highly 
developed camping sites, and a growing and large--I think 
undocumented--number of day use sites. They have claimed, since 
FLREA was enacted, that it does not apply to fees that are 
charged at those sites. So, at those sites people are charged 
fees for things FLREA prohibits, such as just going for a walk 
through the woods, general access to a lakeshore--Walton Lake 
was the example Mr. DeFazio used. Concessionaires are charging 
fees that the agency admits they would not be able to charge 
themselves. They have claimed that, under FLREA, it was 
congressional intent that they be allowed to do that.
    The case finally did come to litigation at the end of 2012, 
and that litigation was finalized on Friday with a decision out 
of the D.C. Circuit Court that found in the Forest Service's 
favor, and read into the law a congressional intent that 
concessionaires not be subject to it.
    If that is what Congress intended to be in the law, then 
you got what you wanted. But if that is not what Congress 
intended, then it is important to make a legislative fix to 
that. Because, at this point, you have lost all control over 
those lands that are in concession permit.
    Mr. Grijalva. Thank you. Mr. Crandall.
    Mr. Crandall. Mr. Grijalva, I am not prepared to respond to 
the court decision, but I would say that the concessionaires in 
national parks and national forests are very interested in 
serving the visitor needs. We are not interested in leveeing 
charges for things that the public does not want. I think, as 
Deputy Chief Weldon mentioned today, she has no intent, and the 
Forest Service has no intent, institutionally, to use 
concessionaires as a mechanism to collect fees that are outside 
the scope of FLREA.
    So, I think there is a solution here, but--there is no 
willing agreement on the part of businesses operating in 
national parks to act as an agent for illegal collection of 
fees by the Forest Service or BLM.
    Mr. Grijalva. That supplant the function of Forest Service 
personnel.
    Mr. Crandall. No, that is certainly not our intent. There 
are complexities. The 80 percent of the developed campsites 
that are now managed by concessionaires, I think we have a good 
system. Just like with skiing on national forests, which is 
provided by the private sector, we are meeting the needs of 
campers in national forests that could not be met with the 
Forest Service resources.
    But I would say that there are complexities, in terms of 
honoring of senior passes, the 50 percent discount, and others, 
and we will look forward to discussing with you how we could 
perhaps achieve both a recognition of certain privileged 
classes of visitors to national forests, whether they are 
veterans, or disabled, or something else, and do it in a way 
that makes sense for the businesses operating in the national 
forests.
    Mr. Grijalva. Thank you. Ms. Pemmerl. Did I say it--OK. I 
appreciate your testimony, because I think that what you talked 
about is an inevitability, in terms of how we serve the public 
in our forests and public lands. What--when you talked about 
alternative contracts and alternative contracting models that 
would support new technologies for rec programs and for the 
things that you described in your testimony, what kind of 
alternative contract do you mean?
    Ms. Pemmerl. One example, Congressman, is the self-funded 
model, which NIC frequently uses to deliver e-government 
services. In that model, NIC assumes the cost to build and 
maintain the services, and we are then paid by a small fee that 
is associated with some of the online applications that we 
provide.
    The model works so well because, obviously, the contractor 
is very motivated to provide services quickly that are easy to 
use at a very reasonable cost. Of course, this makes great 
strides in controlling the cost for IT systems at agencies.
    Mr. Grijalva. Any--if I may follow up, have you run any--do 
you have any information as to--that can estimate how much 
money would be saved by the Federal Government in the event 
that you implemented that no-cost model for rec programs?
    Ms. Pemmerl. Thank you, Congressman. I don't have exact 
figures. But one example would be the Fish and Wildlife Service 
$7 million request in the Fiscal Year 2015 budget. I imagine 
there are opportunities there to work with Fish and Wildlife 
Service and other agencies to consider areas where the model 
could apply.
    Mr. Grijalva. Thank you very much. I think I am almost 
done. No, I am almost done.
    [Laughter.]
    Mr. Grijalva. I am done.
    [Laughter.]
    Mr. Bishop. All right. Let me ask a few questions, too, to 
some of you, as well.
    Mr. Terrell, in your testimony you indicated that your 
organization supports reauthorization of FLREA, provided there 
is increased documentation of what is collected and how it is 
spent. Can you just explain what you would like to see in 
future documentation?
    Mr. Terrell. I think what we are looking for there would be 
so that it would be easier for the public in general, the 
general public, the person that is coming to a particular 
location in the national forest or on BLM land, to see exactly 
what had been collected, and where it had been spent, so that 
they had an appreciation of the fact that the money that they 
were paying to use that facility was being used to either 
maintain and/or improve that facility.
    Mr. Bishop. Do you see a standard that would have to be put 
so that--that would have to be met so that information could be 
there?
    Mr. Terrell. I think that there should be a requirement 
that that would be available at the--when I say the local 
level, I am speaking of either at the ranger district level--
and I am speaking of Forest Service now--or certainly the 
forest level. Then it could also be consolidated on a regional 
level and a national level. But it really needs to get down to 
the local level, so that it establishes the trust of the public 
that is paying that fee, that they are really getting something 
for what they paid for.
    Mr. Bishop. All right, thank you. I appreciate that. Mr. 
Crandall, what advantages or benefits would there be for adding 
the Army Corps?
    Mr. Crandall. There are a number. First, the Army Corps 
cannot now sell the America the Beautiful Pass. They cannot 
honor the America the Beautiful Pass. We find issues where, for 
example, people now arrive at a site and expect to be able to 
use a fee site on the Army Corps, and are told that they cannot 
do that.
    The Army Corps also exists under essentially the same 
authority that the agencies had pre-fee demo. In other words, 
any fee collection at campsites cannot be retained by the U.S. 
Army Corps and used to collect trash and clean toilets and 
serve the visitors in those campgrounds.
    Mr. Bishop. All right. I thank you. In your testimony you 
also advocated for changes to the discount for seniors. How 
does that discount compare to other discounts that are provided 
by other State park systems or private industry? How would 
seniors react to paying more?
    May I just ask the general question of how would your 
concessionaires be able to handle the passes that you don't--
that they would have given by the other agencies that are not 
necessarily right now recognized by your group, by 
concessionaires?
    Mr. Crandall. Certainly, there are some differences, agency 
by agency, in terms of just requirements to honor passes. I 
would say that, for example, as you go into a national park--
and if you are reserving a lodging facility at a hotel or a 
lodge, there is no discount offered to the senior citizens. 
Similarly, if you go to a national forest and you ski at Vail 
or Aspen or Mammoth or any of the major ski areas, you are not 
given a discount because you have a senior pass, America the 
Beautiful, or Golden Eagle, or anything like that.
    The only application, pretty much, is in campgrounds, where 
there is an operation by a private-sector concessionaire in the 
national forest, in the national parks.
    Mr. Bishop. All right. I appreciate that. Ms. Benzar, if I 
could ask you one--you have been a critic of the RAC process. 
How should the agencies notify and engage public on fees, 
revenues, how they are spent, how they are collected?
    Ms. Benzar. I think the first and most important thing is 
to make the law as explicit as possible, so that there is no 
need for citizens to advise the agencies on how to follow it. 
It should be crystal clear, what it requires, and no question 
in their minds as to how to follow it.
    But second, as far as bringing the public into the process, 
I struggle with that because it is true that a large part of 
the public is not engaged in the notice and comment process, 
and probably never will be. But I think that you can go as far 
as possible on that by giving ample, robust notification, with 
plenty of time in advance of a new fee, or of a fee increase. I 
think the law is requiring local notification, but in many 
cases the audience for a particular recreation site isn't 
local. They travel from their home to that recreation site.
    So, for instance, in California, what is a local 
newspaper--if you are going to raise a fee on the Angeles 
National Forest, there is no local--if you put it only in the 
LA Times, people come there from San Francisco. So lots of 
notification and plenty of time for people, if they don't like 
what is being proposed, to contact their elected officials. 
Then we would look to you, Members of Congress, to be 
responsive to your constituents, and to take action based on 
whatever concerns you hear.
    Mr. Bishop. So would you have a structured time limit, or a 
structured process?
    Ms. Benzar. Yes. I think that is essential. In my draft 
alternative language I suggested a year, with plenty of 
notification on Web sites and plenty of media.
    Mr. Bishop. All right. Ms. Pemmerl, I would--actually have 
a couple of final questions for you, if possible.
    I--first of all, I hate technology, I admit that.
    [Laughter.]
    Mr. Bishop. So, whatever you do, if you can equate it to a 
legal pad, I will be happy.
    Ms. Pemmerl. Understood.
    Mr. Bishop. But we have a lot of these areas in which 
people are going, they are very remote, with limited Internet, 
limited cell phone activity. How are you able to develop 
solutions to overcome these types of challenges?
    Ms. Pemmerl. Thank you, Chairman. That is not an unusual 
challenge to face in the State park environment, as you can 
imagine. So, frequently, when we are looking at implementing e-
government services, we are considering kiosk options where 
available, to ensure that an individual has the opportunity for 
self-service at a location.
    Similarly, ensuring that services can be used in an offline 
mode, and that information can be uploaded when a park ranger, 
for example, is back to a home office, or has connectivity.
    Mr. Bishop. OK. That is fair enough. There is one thing. If 
you could, tell me how your company would have any solutions 
for--for example, you know, we have been giving paper passes to 
people for over 40 years. These passes provide free entrance to 
the Federal lands. The problem is there are no records of how 
many of these have been given out, how many are still around in 
circulation. It presents a problem in developing solutions. 
Does your company have a solution for how the agencies can 
solve that problem?
    Ms. Pemmerl. Sure. Chairman, of course it would depend on 
the specific requirements. There are multiple examples of 
systems we have deployed at the State level that have tackled 
similar challenges, and I would be happy to provide some 
information for the record on those systems.
    Mr. Bishop. All right. I appreciate that. Are you sure you 
are done? You are done? All right.
    Look, I appreciate all of you, especially your patience in 
the inconvenience of sitting here while we broke for vote. That 
used to be commonplace around here, and we have tried to do 
away with that. But obviously, on get-away days, when we have a 
hearing at the same time there is Floor debate, that sometimes 
happens. So I apologize for making you wait in that dead space 
that was there.
    I do want to thank you, especially those of you who have 
come at great distances, for being here, for giving your 
testimony. There may be some additional questions that any 
member of the committee, present or not, may have for you, 
which we will send to you in writing, and we would ask that you 
respond to us in a quick time for those written questions.
    If there is nothing else, with great appreciation one more 
time, this subcommittee stands adjourned.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Prepared Statement of Marily Reese, Executive Director, National Forest 
                  Recreation Association, Woodlake, CA

    Chairman Bishop and members of the subcommittee, on behalf of the 
Board of Directors of the National Forest Recreation Association, I 
want to express our appreciation for the opportunity to provide 
information pertaining to changes for the Federal Lands Recreation 
Enhancement Act (FLREA). I am Marily Reese, Executive Director of the 
National Forest Recreation Association.
               The National Forest Recreation Association
    The National Forest Recreation Association (NFRA) was formed in 
1948, and represents recreation businesses located on or near Federal 
lands throughout the United States. Our members hold authorizations, 
permits or contracts for providing services and facilities directly on 
Federal lands. A partial list of authorizing agencies includes the U.S. 
Forest Service, National Park Service, Army Corps of Engineers, Bureau 
of Land Management, and Bureau of Reclamation. Our members also operate 
facilities under contracts with State and local agencies, public 
utility companies, and conservation districts. NFRA members are vital 
`recreation service partners' of the Federal land management agencies 
in providing recreational opportunities to the public. NFRA members 
have a wealth of experience providing front line service to the public, 
along with maintaining safe and desirable facilities. Members have 
served generations of national and international users, and continue to 
provide lifelong memories to visitors each year. NFRA members work 
directly with the governing agencies and strive to maintain cooperative 
and communicative relationships.

    NFRA members include:

    <bullet> Campground concessionaires operating Federal campgrounds, 
            picnic areas, boat launches, swimming areas, and cabins 
            under jurisdiction of the USDA Forest Service, National 
            Park Service, and the Army Corps of Engineers.
    <bullet> Resorts, Pack Stations and Marinas operating on national 
            forests, national parks and BLM lands nationwide offering a 
            wide range of facilities and services to the general 
            public. Examples include: lodging, guided horseback trips, 
            historical and interpretive programs, boat rentals, boat 
            slip rentals, tour boat rides, stores, cafes, shuttle 
            services, guided snowmobile trips, winter snow play areas, 
            and many others.
    <bullet> Organized youth and family camps.

    NFRA members are integrally involved in their communities, and 
contribute significantly to local economies and the tourism industry. 
They also participate in numerous programs for natural resource 
education and conservation programs across the country.
                           FLREA--Key Issues
    NFRA is keenly aware of the need for the funds that are generated 
under FLREA. The Federal agencies authorized to collect these funds 
have come to depend on this stream of revenue to make beneficial 
improvements, and NFRA supports this concept. With the current 
legislation set to expire, this is the time to make changes to improve 
the program, and to correct deficiencies.
Forest Service Campground Concession Program and FLREA
Program Overview:

    The campground concession program was initiated by the Forest 
Service in the early 1980s in response to declining recreation budgets 
to operate and maintain their campgrounds. From its inception, the 
program has authorized the private sector to operate Federal facilities 
under the Granger-Thye Act. All of the activities to be authorized are 
clearly identified in a prospectus (bid offering), and interested 
companies submit their proposals, including fees to be charged to the 
public, based on the criteria stated in the offering. The company 
awarded the bid must submit an Annual Operating Plan for approval. All 
fees to be charged are carefully reviewed and approved by the local 
forest each year.
    Government-owned improvements in the program include facilities 
with clearly identifiable facilities and improvements such as 
campgrounds, picnic areas, boat launch ramps, cabins and other 
recreation sites. Concessionaires are responsible for all of the 
operating costs, and in exchange they pay a percentage of their gross 
income as a fee to the government. NFRA members have a credible record 
of providing facilities and services where there is a well-defined 
value for the price, with both visible and tangible assets. The public 
is accustomed to and willing to pay the fees because they appreciate 
the improvements. They directly benefit from the facilities and the 
personnel providing the services.
    Nearly all of the fees paid by concessionaires go directly back 
into improvements at the sites through a `fee off-set program.' This 
program has invested literally millions of dollars over the past 30 
years, and has included investments in the infrastructure of water 
systems, sewer systems, restrooms, showers, picnic tables, fire rings, 
paving, signing, fish cleaning stations, RV dump sites, bear-proof 
garbage and recycling containers and more. It is through the concession 
program that many campgrounds have been improved, without which, there 
would be hundreds of campgrounds in disrepair and/or closed.
    This cottage industry generates millions of dollars in revenue to 
the government and employs thousands of people each year. 
Concessionaires utilize the services and products of local vendors and 
other business service professionals across the country--making a much 
needed contribution to rural economies. Many Federal and State 
recreation areas are facing campground closures due to rapidly rising 
costs. Even in the sites staying open, most recreation agencies face 
deferred maintenance bills in the millions--or even billions of 
dollars. The Forest Service has avoided both of these recurring 
problems through its concession program. The lower cost capabilities of 
private concessionaires keep the campgrounds and day use areas open and 
the fees reasonable. The fee-offset program ensures funding is 
specifically directed back to those sites and that major maintenance 
and improvements are completed annually.
    All aspects of the concession operation of Federal recreation sites 
should continue to be authorized under the Granger-Thye Act. In 
addition to the campground program, the Forest Service has a ski area 
and resorts that are also operated by the private sector under the 
Granger-Thye Act. Concessionaires provide a high level of customer 
service and compliance with all associated laws and regulations. The 
private sector is able to provide greater field presence as they are 
not subject to hiring limitations, freezes, or other complications that 
exist in the Federal agencies. The concession program helps avoid the 
problem of escalating deferred maintenance, as seen in other agencies.
    FLREA, as it exists today, has a provision stating that 
``Notwithstanding any other provision of this chapter, a third party 
may charge a fee for providing a good or service to a visitor of a unit 
or area of the Federal land management agencies in accordance with any 
other applicable law or regulation.'' Thus, the fees concessionaires 
charge in the Federal campgrounds are exempt from the provisions 
required by FLREA because they are governed under the Granger-Thye Act. 
This provision is critical to the continued success of the concession 
program, and it must be included in new legislation. Concessionaires 
cannot wait up to 5 years that it takes some Recreation Advisory 
Committees (RACs) to approve their fees. The concessionaires have to 
provide detailed requests, including market surveys, to ensure their 
fees are commensurate with other similar facilities and it is 
imperative they be reviewed in a timely manner. Some fee increases are 
due to laws imposed by States and counties, including minimum wage 
rates, water system requirements and other mandated costs. 
Concessionaires must be exempt from FLREA to retain the flexibility to 
respond to these mandates in a timely manner.
    Recently, the United States District Court for the District of 
Columbia confirmed that the fees charged by concessionaires under the 
Granger-Thye Act are legal. Contrary to misinformed claims from other 
groups that concessionaires ``can require everyone to pay a fee for 
doing anything, anywhere'' and that the Court's ruling ``gives the 
agency an easy end--run around laws designed to protect visitors from 
fees''--is the track record of the past 30 years. Nothing has changed 
in the authorities and management oversight of the concession program, 
and to date--the private sector is only allowed to charge fees at sites 
where there are facilities and/or services provided. The program has 
not made an `end-run' around fees to date, and there is no expectation 
that will change.
Unintended Impacts:
    FLREA, and its program of discount passes, has not addressed the 
fact that most of the Forest Service sites are concessionaire-operated. 
The issue for concessionaires is being required to provide discounted 
camping or free day use without a fair method of compensation for the 
loss of revenue. The `America the Beautiful' pass program has grown and 
expanded since FLREA was enacted, and there are additional passes 
proposed in the legislation. Although some of the passes state that 
they may not apply to concession operated facilities, the wording is in 
small print, and the public is not aware of the differences between 
Federal operations and concession operations. This has been the source 
of continual conflict throughout the program and has increased with 
each new pass that is added to the program.
    Pursuant to the Service Contract Act (SCA), the government cannot 
require concessionaires to provide free use. Requiring concessionaires 
to provide services for free, or at a discounted rate to certain groups 
without compensation, is a government benefits program and conflicts 
with the SCA. Thus, there needs to be a method of compensation for 
concessionaires who are required to provide services at a discounted 
price. This would enable the public to use facilities that are managed 
either by concessionaires--or by the agencies--in a seamless manner. 
Their passes would be good for sites that meet the criteria for a 
discount. Compensation to the concessionaires could be a fee-credit, or 
a payment based on the actual number of passes used. When 
concessionaires are not reimbursed for accepting the passes, the cost 
of this acceptance is passed on to other non-pass holding users. Other 
uses are subsidizing the discounted use.
    NFRA concessionaires were assured by numerous officials since the 
passage of FLREA that the problems with the pass discounts would be 
`fixed.' (See attached letter to Under Secretary of Agriculture, Mark 
Rey dated January 10, 2007). There is now an opportunity with new 
legislation to make critical adjustments.

    <bullet> When Federal agencies issue passes that provide discounts 
            in concession operated sites, the agencies need to 
            compensate the concessionaires who are bearing the costs of 
            operating the facility and providing the services to the 
            public. Establishing a method of reimbursement, such as a 
            fee-credit, would be the most direct and equitable means 
            for covering the cost of the discount. With the government 
            collecting the money for the passes, funds should be 
            available to reimburse concessionaires for providing the 
            services to pass holders, or a system for a fee credit 
            should be authorized.
    <bullet> The agencies should be prevented from removing concession 
            operated sites from the program which the government then 
            operates themselves to retain the fees. This results in a 
            breakdown of the economic viability of concession 
            operations, and puts the sites at risk when there are 
            government shut-downs, reductions in hiring and other 
            factors that affect operations. This provision had been 
            specified in the Conference Language for FLREA, but is no 
            longer adhered to by the Forest Service.
    <bullet> The agencies should not be in competition with the private 
            sector. Services such as outfitting and guiding are more 
            successfully provided by private companies and they help to 
            stimulate local and regional economies. Hiring thousands of 
            employees, purchasing goods and services, paying local--
            State--and Federal taxes are significant contributors to 
            the recreation and tourism economy which is critical in 
            many areas.

Legislative Alternatives
    In response to the issues outlined above--NFRA suggests the 
following changes to future legislation regarding user fees:


    <bullet> Fees concessionaires charge in the Federal campgrounds 
            must be exempt from the provisions required by FLREA. They 
            are governed under the Granger-Thye Act.
    <bullet> Provide for compensation when concessionaires are required 
            to honor any discount passes for overnight camping or day 
            use. This includes all passes that are in the program 
            initially, and those added in subsequent years. 
            Compensation could come from the fees the government 
            collects in the sale of the passes, or through a fee 
            credit. This would also apply to regional and forest-
            specific passes.
    <bullet> Consider the expansion of fee retention for other 
            recreation special use permit fees. Presently, only 
            outfitter and guide fees are retained by the agency. Other 
            special use permit fees for uses such as ski areas, 
            resorts, marinas, youth camps, and organization camps could 
            be retained. The fees generated from these special use 
            permits need to be specifically directed to cover costs 
            associated with permit issuance, including all 
            environmental reviews and analysis costs. Any and all costs 
            for studies, assessments, and other process procedures--
            beyond what are retained from the permit fees--should be 
            covered by the agency.
    <bullet> The agencies need to retain full authority to approve fees 
            of the concessionaires and permittees without being subject 
            to `advisory groups.' The complexity of establishing fees 
            includes factors that can change suddenly and with which 
            the private sector must comply.

Cost Recovery: Section 807(b)
Permits Issued to Businesses Operating on Public Lands:
    Under the current system of Cost Recovery, the Forest Service is 
reticent to use authorities available to renew, amend, and/or reissue 
recreation special use permits in a cost effective manner. The result 
is they undertake an extensive, costly, and time consuming NEPA process 
for simple changes to facilities, services, and permit renewals.
    Currently, Cost Recovery is an open checkbook as there are no 
limits on the fees to be charged; no schedule of fees that are required 
for a specific service; no accountability of how the fees are used; and 
no limit on the number of employees--or the amount of hours that can be 
charged to the project. Agencies are using Cost Recovery as a means to 
supplement what they perceive as lack of appropriated dollars, and it 
becomes a source to finance their under-funded personnel. Excessive 
agency costs and inefficiencies mean that cost recovery can exceed the 
value or potential gain possible given the term and specifications of a 
permit, effectively negating a business from operation. NEPA costs can 
easily outpace the gross income of the business.
    Requiring business owners to bear the cost of the complexity of 
NEPA documents is an impractical method of funding agency 
responsibilities. Cost recovery has become a major barrier to 
improvements to better serve the public--resulting in greater risks, 
reduced service, and decay of private investment on public land. This 
affects quality recreation service to the public as well as inhibiting 
job opportunities. The complexity and onerous regulatory environment 
created by management plans and laws (e.g., Endangered Species Act) 
adds to burden of permit reissuance or renewal. These burdens become 
subject to NEPA and cost recovery.
    There is currently no accountability with Cost Recovery dollars. As 
currently proposed Cost Recovery applies broadly to programmatic 
issues, while permittees are the only source of financial recovery.
Solutions

    <bullet> Make the use of Categorical Exclusions a statutory 
            authority.
    <bullet> Utilize fee retention to cover the costs of any NEPA 
            documentation needed for processing special use permits.
    <bullet> Design incentives for the timely completion of NEPA work, 
            and for assurances of uninterrupted operations for the 
            service provider.
    <bullet> Consider waivers for businesses with revenue less than $1 
            million.
    <bullet> Allow competitive services. Many environmental firms 
            provide the same services and should be allowed to compete 
            when environmental analysis is required. Authorize and 
            require agencies to accept environmental review documents 
            if the agencies cannot provide specific timelines and exact 
            costs in advance.
    <bullet> Allow the first 50 hours of NEPA documentation at no cost 
            to permittee.
    <bullet> Cost Recovery needs to be very specific and limited in 
            scope. Any studies or environmental reviews that benefit 
            anyone directly or indirectly other than the permittee 
            should not be subject to cost recovery from the permittee. 
            It is the agency's responsibility to perform that work.
Summary
    Because we are an association of businesses who are directly 
affected and impacted by this legislation, we would like to provide 
testimony at your next committee hearing.
    We are in general support fee legislation as a means of bringing 
additional funds to the agencies' recreation programs. The changes we 
are recommending will serve to provide greater clarity and consistency 
to the public, and provide for an equitable and sound business 
environment for the companies operating Federal sites.
    Thank you very much.

Attachment: January 10, 2007 Letter

                                 ______
                                 

                               attachment

            National Forest Recreation Association,
                                              Woodlake, CA,
                                                  January 10, 2007.

Mr. Mark Rey
Under Secretary, Natural Resources and Environment,
United Stales Department of Agriculture,
1400 Independence Ave., SW, Room 217E
Washington, DC 20250.

    Dear Mark:

    This letter is a follow-up to our phone conversation on December 
21. 2006 regarding the new ``America the Beautiful--National Parks and 
Federal Recreation Lands Pass'' and its applicability to concession 
operated sites. I raised the concern that the press releases and 
information being distributed for the new passes did not clearly 
articulate whether the passes were valid at concession operated sites. 
I indicated this could be a potential problem when pass holders were 
expecting free access to concession operated sites having a standard 
amenity fee. You commented that the passes would not affect the 
concessionaires, and that you would have a recreation specialist 
contact me with further information. Later in the day, I was contacted 
by Martha Ketelle from the Washington Office of the Forest Service and 
we discussed the issue.
    I appreciate your attention to this matter, and for Martha's prompt 
call. However, it is still not clear to me what the policy is on 
concession operated sites, and I am greatly concerned that the 
information is not being relayed to the public as to the distinction 
between agency operated and concession operated facilities. I have been 
contacted by several of our campground concession companies, and they 
are quite concerned as to how they are supposed to accommodate people 
who present the passes and are expecting free access. In one case, a 
concessionaire was told by Forest Service personnel that he had to 
honor the passes. This would be a considerable change of economic 
factors if our concessionaires had to allow free use at sites with the 
standard amenity fees that they are currently managing. It would also 
pose serious issues with the Service Contract Act situation that has 
been an on-going issue with the Department of Labor.
    I have gone on-line and read the descriptions for each of the new 
passes. I have also searched through the ``Frequently Asked Questions'' 
and I do not see any distinct clarification that the passes do not 
apply to sites operated by concessionaires. There is a statement for 
the Senior Pass and the Access Pass that says, `The pass is non-
transferable and generally does NOT cover or reduce special recreation 
permit fees or fees charged by concessionaires.' The way this is 
phrased, saying the pass `generally does not cover . . . ' leaves the 
door open for interpretation to be handled differently from site to 
site. In addition, the information is not provided at all for the 
Annual Pass. For your convenience, I have enclosed recent press 
releases, as well as information from the web to illustrate missing 
information regarding the passes' validity at concession operated 
sites.
    Obviously, this issue is of great concern to many of our members, 
as they do not want any negative interactions with the visitors who 
come to their sites. Customer Service is an important aspect of 
concessionaire managed sites, and it is something that is highly 
stressed throughout the industry, as well as being an important element 
in Annual Operating Plans and in new prospectus offerings. It would be 
our preference to have the information that is distributed with each of 
the new passes very clearly articulate where the passes can be used. 
Currently, we believe it is not up front and clear to the public. We 
also believe it is not clear to Forest Service line officers and permit 
administrators as to how the permits are to be handled at concession 
operated sites.
    Mark, we are most willing to meet with you and any of the Forest 
Service or other agency staff who are involved with the implementation 
of the new passes. I'm sure the earlier we can discuss this, and make 
necessary adjustments, the better it will be for all in the coming 
recreation season. I or members of our Board of Directors arc ready and 
willing to come to Washington, DC if needed, or are available by 
teleconference at your convenience.
    Thank you very much for your assistance in this matter and I look 
forward to talking with you soon.

            Sincerely,

                                              Marily Reese,
                                                Executive Director.

                                 ______
                                 

                     American Alpine Club Northwest Region,
                                       American Whitewater,
                          Evergreen Mountain Bike Alliance,
                         Mountains to Sound Greenway Trust,
                                          The Mountaineers,
                             Washington Trails Association,
                                           Washington Wild.

                                                     April 3, 2014.

Hon. Rob Bishop, Chairman,
Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

    Dear Chairman Bishop, Ranking Member Grijalva, and Members of the 
Committee:

    We are writing regarding the subcommittee hearing scheduled for 
April 4, 2014. We respectfully request that this letter be included in 
the hearing record.
    The undersigned organizations strongly support reauthorization of 
the Federal Lands Recreation Enhancement Act (``FLREA''). We appreciate 
the work of the subcommittee to consider revisions to the current FLREA 
law (16 U.S.C. 6801 et seq., 118 Stat. 3377 (Dec. 8, 2004)).
    Our organizations represent a broad range of human-powered outdoor 
recreation enthusiasts in Washington State and come together as a 
coalition on recreation and conservation issues. Collectively, we 
represent over 35,000 members in Washington and contribute more than 
165,000 hours of volunteer work annually to public lands across the 
region. Our members purchase and benefit from the Northwest Forest 
Pass, and we have a very strong stake in the future of the program, 
which is authorized under FLREA.
    User fees were authorized as a demonstration program through the 
appropriations process in 1997. FLREA created a Federal framework for 
user fees in 2005, instituting the standard and expanded amenity fee 
approaches. In 2012 alone, FLREA revenues to Region 6 National Forests 
totaled $8.8 million, which the Forest Service used to maintain sites 
across Oregon and Washington. By working with volunteer trail 
maintenance organizations, Region 6 is able to leverage those funds 
many times over.
    FLREA provides an important source of funds for Federal land 
managers due to continual declines in agency funding. Agencies are 
dependent on FLREA revenue to offset the costs of maintenance on 
Federal lands because of steep reductions in agency funding over the 
past few decades. We strongly urge Congress to increase agency funding 
to 2010 levels. Although full funding levels are likely much higher, a 
return to the funding levels of FY2010 would be a reasonable 
intermediate step toward adequately funding the agencies. Even if 
funding is returned to 2010 levels, FLREA will continue to be a 
critical funding mechanism for agency operations.
    The following are our comments on specific sections in the FLREA 
Discussion Draft. We hope our recommended improvements provide clarity 
to ensure that fees are used to enhance recreation opportunities on 
America's public lands.
                       section 804. day-use fees
    As written in Section 804(a)(2), user fees would only be applicable 
on recreation sites that feature ``regularly serviced and well 
maintained toilet facilities and contains at least three of the 
following amenities: (a) trash collection, (b) permanent interpretive 
materials, (c) picnic tables and (d) routine presence of agency law 
enforcement.''
    We appreciate that Sec. 804(a)(2) allows more flexibility to 
agencies in deciding which amenities are appropriate for recreational 
facilities. Under current law many recreational facilities that would 
benefit from user fees are inappropriate locations for some of the six 
required amenities. For example, much of United States Forest Service 
Region six is black bear country. Generally speaking, unattended 
garbage cans are nuisances at best, and dangerous incentives for 
problem bears at worst. Under the discussion draft, the agency has the 
flexibility to decide which of the three out of the four amenities 
makes the most sense based on the recreational facility use and 
location.
              section 807. special recreation permit fees
    The inclusion of backcountry travel, river running, and bicycling 
in Section 807(a) inappropriately links these activities with those 
that are otherwise high-impact or consumptive when applying a fee. We 
recognize any use may rise to a level that becomes unsustainable on the 
landscape, and that, in those situations a fee may be necessary to 
recover the costs of managing the activity and mitigating the impacts. 
However, the determination must be made through the land management 
planning process and must be made based on the effect of the activity, 
not the activity itself.
Our recommendation:
    We request that the subcommittee remove Subsections (a)(7), (a)(8), 
and (a)(9) and create a new section addressing areas where high demand 
exceeds the carrying capacity of the land. This section should apply 
where an agency has determined, through the land management planning 
process, that impacts to an area necessitate permitting to manage use 
to sustainable levels. In such a situation, agencies should be able to 
recover only the costs of mitigating the impacts of high use in that 
area and administering the permitting process through user fees.
    In addition, as proposed, we are concerned by the cost recovery 
language of Section 807(b). As it is currently worded, authorizing the 
agencies to recover costs ``associated with the activities authorized 
under 807(a)'' would shift virtually limitless costs to special 
recreation permit holders.
Our recommendation:
    For low impact recreation users and the organizations facilitating 
these activities, fees in Section 807(b) should be limited to the costs 
of administering the program that can be reasonably attributed to the 
user impact.
                       section 812. expenditures
    We appreciate that the discussion draft recognizes the enhancement 
of recreation opportunities, such as trail maintenance, as a valid fee 
revenue use (Sec. 812 (a)(1)). While it's obvious that amenities must 
be maintained and repaired to comply with FLREA, it is equally 
important to recognize that the majority of people purchasing day-use 
fee (Sec. 804) passes are doing so to engage in the local recreational 
opportunity (ex. hiking, biking trails) afforded by the recreation 
facility. We believe that revenue generated by FLREA should be 
prioritized for the enhancement and maintenance of those recreational 
opportunities in addition to the maintenance and repair of the five 
amenities listed in Sec. 804.
Our recommendation:
    Prioritize the enhancement of recreation opportunities (Sec. 812 
(a)(1)) for the use of fee revenue.
    Regarding overhead, the discussion draft limits overhead and 
administrative costs to 5 percent of total revenues. However, it then 
authorizes the use of up to 20 percent of total revenue for ``direct 
fee collection costs.'' When combined, this means that 25 percent of 
total revenue can be used for the costs of administering the fee 
collection system. This is a significant increase over the 15 percent 
authorized under existing law. The law should be written to encourage 
agencies to keep administrative costs down and devote as much of the 
revenue as possible to maintenance and improvement of recreation 
facilities and trails.
Our recommendation:
    We urge the committee to preserve the 15 percent limit.
                    concessionaire fee authorization
    We support FLREA in allowing the authorization of Federal land 
managers to collect and retain fees to areas that have significant 
operational costs and provide significant services to users. We are 
concerned by the March 28th, 2014 U.S. District Court decision \1\ 
(District of Columbia) which found that concessionaires of land 
management agencies are not held to the same FLREA standards as land 
management agencies. The court's decision allows concessionaires to 
continue charging fees for more than the direct use of services and 
amenities that they provide. We are concerned that this decision will 
give private businesses the ability to charge for access to public 
lands in ways that land agencies cannot under FLREA, and therefore 
negatively impact public access.
---------------------------------------------------------------------------
    \1\ BARK, et al. v. U.S. Forest Service, et al., 1:12-cv-01505-RC 
D.D.C. March 28, 2014).
---------------------------------------------------------------------------
Our recommendation:
    Concessionaires should be subject to the same fee restrictions as 
land management agencies are mandated by FLREA.
                      site-specific agency passes
    We support the inclusion through section 809(h) Site-Specific 
Agency Passes of the opportunity for 12 month passes rather than only 
day-use, but are concerned that as written this section is vague and 
could be interpreted to allow the development of passes for locations 
where they would not otherwise be required.
Our recommendation:
    Clarify that the section can only be applied when the site meets 
the requirements of Section 804 Day-Use Fees or Section 805 Entrance 
Fees.

    The recommended changes listed above will make FLREA more flexible 
and responsive to the needs of the public and land management agencies, 
will ensure that the program addresses the overwhelming need for 
maintenance of trails and other recreation facilities on our public 
lands, and will provide opportunities for the public to engage on the 
management of the public lands they enjoy.
    Thank you for the opportunity to provide our comments on the 
reauthorization of the Federal Lands Recreation Enhancement Act.

            Sincerely,

                                             Karen Daubert,
                                                Executive Director,
                                     Washington Trails Association.

                                            Thomas O'Keefe,
                                   Pacific NW Stewardship Director,
                                               American Whitewater.

                                          Martinique Grigg,
                                                Executive Director,
                                                  The Mountaineers.

                                              Glenn Glover,
                                                Executive Director,
                                  Evergreen Mountain Bike Alliance.

                                                Tom Uniack,
                                             Conservation Director,
                                                   Washington Wild.

                                            Eddie Espinosa,
                                             Regional Manager--PNW,
                             American Alpine Club Northwest Region.

                                             Cynthia Welti,
                                                Executive Director,
                                 Mountains to Sound Greenway Trust.

                                 ______
                                 

                           American Hiking Society,
                                         Silver Spring, MD,
                                                    April 17, 2014.
Hon. Rob Bishop, Chairman,
Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation
Washington, DC 20515.

    Dear Chairman Bishop, Ranking Member Grijalva, and Members of the 
Committee:

    I am writing regarding the subcommittee hearing that took place on 
April 4, 2014, regarding the amendment of the Federal Lands Recreation 
Enhancement Act (FLREA). I request that this communications be included 
as a part of the hearing record.
    American Hiking Society strongly supports the reauthorization of 
the FLREA and appreciates the work of the subcommittee to consider 
amendments to the current law, enacted in 2004. On behalf of our 
members and the 43 million Americans who hike and backpack, we request 
that the committee consider the following items in the amended Act:

  1.  Fees should not produce incentives for expansion of development-
            oriented activities and facilities at the expense of 
            protecting resources and preserving the natural elements of 
            the outdoor recreation experience.
  2.  Recognition of volunteer services on public lands should be 
            recognized with free seasonal, annual, or national passes 
            for those volunteers meeting a designated number of service 
            hours.
  3.  The Federal recreation fee collection process should be highly 
            transparent, allowing all parties the opportunity to see 
            annual information on fee collections and uses.
  4.  At least 80 percent of FLREA revenue should be retained at the 
            site where the fees were collected.
  5.  Long term authorization should require that expenditures on 
            administration and overhead be tightly monitored and 
            limited in scope.

                a.  Concessionaires and third parties should be subject 
                to the same administration and overhead restrictions as 
                Federal agencies.

  6.  Agencies should encourage reciprocity of fees among adjacent 
            sites/lands under the same or different jurisdictions.

    Thank you for allowing American Hiking Society to provide our 
comments on the reauthorization of the Federal Lands Recreation 
Enhancement Act.

            Sincerely,
                                   Gregory A. Miller, Ph.D.
                                                         President.

                                 ______
                                 

                                   American Trails,
                                               Redding, CA,
                                                     April 3, 2014.
Hon.  Rob Bishop, Chairman,
Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    American Trails, a national non-profit organization, has worked for 
over 25 years advocating for all types of trails and trail systems and 
on behalf of all trail interests. We believe that viable trail systems 
are healthy for the people of the United States, healthy for our 
economy, and healthy for our environment. Our mission is to have a 
trail within 15 minutes of every person in our Nation. To this end, we 
are writing regarding the subcommittee hearing scheduled for Friday, 
April 4, 2014 and the consideration of Chairman Bishop's bill to amend 
the Federal Lands Recreation Enhancement Act (FLREA). We request that 
this communication be made part of that hearing record.
    We wish to convey our strong support for the reauthorization of the 
FLREA. Federal lands visitor programs depend upon this authority. 
Further, we appreciate the work of the subcommittee to consider 
amendments to the current law, enacted in 2004. As part of the 
reauthorization process, American Trails would like the committee to 
consider allowing a user fee payment system for entrance to parks and 
selected other areas; and for recreational services and visitor 
facilities involving significant investments and operational costs. 
These fees should be at a minimum to not deter families from 
experiencing our natural environment, while giving the agencies 
additional income at the locations the fees are collected so they may 
provide quality experiences to the visitors.
    The FLREA program has been successful in providing critical funding 
for Federal lands. As a result, countless Americans have benefited and 
have had the opportunity to get to know America's Great Outdoors. We 
would be pleased to discuss these ideas with any of the committee 
members or their staff.
    We would like to thank the committee and its leadership for your 
oversight of FLREA and your help in emphasizing the accountability of 
Federal agencies for full compliance with this law, nationally and 
locally. Thank you also for your consideration of this letter.

            Sincerely,
                                                 Pam Gluck,
                                                Executive Director.

                                 ______
                                 

            Association for Experiential Education,
                                               Boulder, CO,
                                                    April 16, 2014.
Hon. Rob Bishop, Chairman,
Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

    Dear Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee:

    The Association for Experiential Education (AEE) represents 
individuals and nonprofit organizations across the country providing 
outdoor education and therapeutic experiences on America's public 
lands. Through programs conducted for youth and adults, AEE members 
help people learn, develop skills to improve their personal and 
professional lives, and improve their physical and mental health.
    I am writing to express our view on the reauthorization of the 
Federal Lands Recreation Enhancement Act, 16 U.S.C. 6801 et seq., 118 
Stat. 3377 (Dec. 8, 2004) (``FLREA''). AEE members are interested in 
the development of this legislation because we believe America's public 
lands should be readily accessible for recreation by individuals and 
guided groups, subject to statutory limitations. In our experience, the 
indiscriminate imposition of fees can have the effect of limiting 
access. At the same time, we recognize that fees are appropriate in 
some circumstances, and provide valuable resources to agencies in 
carrying out their land management responsibilities.
    AEE has reviewed the statement submitted jointly on April 2 by the 
Association of Outdoor Recreation and Education, High Mountain 
Institute, The Mazamas, The Mountaineers, and The Wilderness Society. 
We are in agreement with the recommendations contained in that 
statement and urge the committee to adopt these recommendations in 
developing a revised FLREA reauthorization bill.
    I thank the subcommittee for the opportunity to share our views on 
the reauthorization of the Federal Lands Recreation Enhancement Act.

            Sincerely,
                                            Robert Smariga,
                                                               CEO.

                                 ______
                                 

           Association of Outdoor Recreation and Education,
                                   High Mountain Institute,
                                               The Mazamas,
                                    The Wilderness Society.

                                                    March 28, 2014.
Hon. Rob Bishop, Chairman,
Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation
Washington, DC 20515.

    Dear Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee:

    The above-listed organizations provide and advocate for outdoor 
recreation and education opportunities on America's public lands. 
Through programs offered to both young people and adults, we develop 
connections between people and America's natural heritage. By providing 
rewarding outdoor experiences on public lands, we help people grow 
personally and professionally, enrich their lives and improve their 
health.
    We write to express our views on the reauthorization of the Federal 
Lands Recreation Enhancement Act, 16 U.S.C. 6801 et seq., 118 Stat. 
3377 (Dec. 8, 2004) (``FLREA''), scheduled to be the subject of a 
subcommittee hearing on April 4, 2014. We are interested in the 
development of this legislation because we believe America's public 
lands should be readily accessible for recreation by individuals and 
guided groups, subject to statutory limitations. In our experience, the 
indiscriminate imposition of fees can have the effect of limiting 
access. At the same time, we recognize that fees are appropriate in 
some circumstances, and provide valuable resources to agencies in 
carrying out their land management responsibilities.
    We offer a number of recommendations below that we believe strike 
an appropriate balance between these two considerations. We 
respectfully request that this letter be included in the hearing record 
for the subcommittee.
                            i. introduction
    FLREA authorizes Federal land management agencies to charge fees 
for recreational use of Federal lands, and also authorizes them to 
retain the revenue generated from those fees for the agency's use 
without further appropriation. It also authorizes the U.S. Forest 
Service and Bureau of Land Management to issue special recreation 
permits, including ``outfitter-guide permits,'' and to charge special 
recreation permit fees for use of Federal lands. FLREA is scheduled to 
sunset on December 8, 2015.
    By accident or design, FLREA has become an important source of 
revenue for Federal land management agencies. Because of recent 
reductions in agency funding, the agencies are increasingly dependent 
on FLREA revenue to offset the costs of maintenance on Federal lands. 
If the Federal land management agencies were adequately funded, the 
imposition of recreation fees might be unnecessary.
    For that reason, we urge Congress to restore the cuts to agency 
funding that have occurred since 2010. Although full funding levels are 
likely much higher, a return to the funding levels of FY2010 would be a 
reasonable intermediate step towards adequately funding the agencies. 
Funding the agencies at FY2010 levels is an essential investment in 
America's $646 billion recreation industry, which supports 6.5 million 
jobs nationwide. Providing additional funding would reduce the 
incentives for agencies to charge recreation fees in more areas.
    In the absence of increased agency funding, some form of fee 
collection authority is necessary if the agencies are going to have any 
chance of addressing their maintenance backlogs. Thus, reauthorization 
of FLREA is needed. At the same time, FLREA as originally enacted has 
significant flaws that should be corrected before the law is 
reauthorized. We discuss these flaws and the resulting controversies 
below. We also analyze the discussion draft released by the 
subcommittee and make recommendations for improvement. Our 
recommendations would allow agencies to charge appropriate fees, but 
place limitations on that authority to ensure that fees do not become a 
barrier to the use of public lands.
                    ii. analysis and recommendations
A. Cost Recovery for Outfitter-Guide Permits
    Section 6802(h) of Title 16, U.S. Code and section 807(a) of the 
discussion draft authorize the U.S. Forest Service and Bureau of Land 
Management to issue special recreation permits, which are sometimes 
referred to as ``special use'' permits, and include the permits issued 
to outfitters and guides. Outfitter-guide permits are an important tool 
for getting people out on America's public lands. Small business owners 
use these permits to take people rafting, horse-packing and climbing on 
National Forests and BLM lands. Likewise, nonprofit organizations and 
universities use these permits to get young people outdoors, provide 
environmental education opportunities, and fight the obesity epidemic. 
Together, these organizations play an important role in encouraging and 
assisting the public in enjoying their public lands, including 
America's Wilderness areas.
    In setting fees for special recreation permits, section 807(b) of 
the discussion draft authorizes agencies to consider ``the costs 
associated with the activities authorized under 807(a), including--

  (1)  trail and facility construction;
  (2)  maintenance;
  (3)  natural and cultural resource monitoring;
  (4)  restoration;
  (5)  emergency response and law enforcement;
  (6)  signage and user education;
  (7)  permit administration.''

    Section 807(b) appears to allow an agency to shift any cost 
``associated'' with the recreational activities authorized under a 
section 807(a) permit onto an outfitter-guide permit holder. Without 
more of a limiting principle, this would allow agencies to shift a 
significantly larger amount of agency costs onto outfitter-guide permit 
holders than is authorized under current law.
    For example, existing Forest Service cost recovery regulations 
allow the agency to require permit applicants and permit holders to pay 
``processing fees'' and ``monitoring fees.'' 36 CFR 251.58. Processing 
fees are ``based on the costs that the Forest Service incurs in 
reviewing the application . . . and shall be based only on the costs 
necessary for processing that application.'' Section 251.58(c)(1). `` 
`Necessary for' means that but for the application, the costs would not 
have been incurred.'' Id. Monitoring fees are ``based on the estimated 
time needed for Forest Service monitoring to ensure compliance with'' a 
permit. Section 251.58(d)(1).
    Section 807(b) goes well beyond current Forest Service regulations. 
It would allow agencies to require a guide to pay for the costs of 
maintaining a trail used by the guide as part of its operations, along 
with the costs of restoration and law enforcement along that trail, 
since all of these costs could be ``associated'' with the guide's 
permit. An agency could shift these costs onto a permit holder even 
though they do not satisfy the ``but for'' test in current law, since 
agencies are generally required to provide trail maintenance and law 
enforcement services in places where no permits have been issued. If 
agencies use their authority in this way, the cost of permits will 
increase dramatically. This will impact both for-profit and nonprofit 
outfitter-guide operations, and could make it very difficult for these 
organizations and businesses to take people out on public lands.
    It is worth noting that, under the existing cost recovery authority 
in 36 CFR 251.58, outfitters and guides already find it challenging to 
pay for the permits needed to get people outdoors. Section 251.58 
requires outfitter-guide applicants to pay significant up-front costs 
in some circumstances in order to apply for permits. Paying these up-
front costs is a substantial burden for many companies and 
organizations, particularly since doing so does not guarantee that they 
will receive a special recreation permit. See Section 251.58(c)(5). We 
recognize the need to charge reasonable recreation fees to offset the 
costs of permit administration, and to pay for monitoring to ensure 
compliance with permit terms. However, the open-ended cost recovery 
authority provided by draft section 807(b) would allow agencies to 
charge fees for expenses the agency would incur even in the absence of 
a permit. The resulting increase in fees would make it more difficult 
for outfitter-guides to provide opportunities for people to get out on 
public lands.
    We urge the committee to reject this open-ended approach, and limit 
the agency's cost recovery authority to that conferred under existing 
Forest Service regulations.
B. Public Notification for Outfitter-Guide Permits
    Although FLREA authorizes the agencies to issue outfitter-guide 
permits, many organizations that would like to offer outdoor 
experiences and environmental education on the national forests have 
been unable to do so because some National Forests refuse to issue 
permits. Among the organizations affected are nonprofit outdoor 
experiential education programs, public schools, university outing 
programs and nonprofit recreation clubs.
    The U.S. Forest Service does not currently have any sort of 
nationwide listing of where permits are available within the National 
Forest system. The agency's on-line permit resources are quite limited, 
even though the agency's web page would be an ideal way to inform the 
public of permit availability. Consequently, organizations that would 
like to obtain a permit must contact each individual national forest 
ranger district to determine if permits are available. To address these 
issues, a reauthorized FLREA should establish public notification 
requirements for outfitter-guide permits. The Forest Service and BLM 
should be required to develop and operate the following systems:

  1.  An on-line lookup of permit availability that enables 
            organizations interested in outfitter-guide permits to 
            search by activity, Forest Service ranger district or BLM 
            field office, and State.
  2.  A web page on the Web site of every ranger district or field 
            office listing:

          a.   Locations within the ranger district or field office 
        where outfitter-guide permits are available.

          b.   Locations within the ranger district or field office 
        where outfitter-guide permits are not available, and for each 
        such location, the reason why permits are not available.

  3.  A list serve or similar mechanism in which interested 
            organizations may enroll to receive email notification of 
            availability of outfitter-guide permits on forests 
            throughout the National Forest or BLM System.

    Providing this information to the public in a more systematic way 
will enable businesses and nonprofit organizations to know where 
permits may be obtained that will allow them to get more people out on 
America's public lands.
C. Standard Amenity Recreation Fees and Day Use Fees
    The version of FLREA in existing law contains an inherent ambiguity 
that has generated significant litigation.\1\ It authorizes collection 
of a standard amenity recreation fee for use of an ``area'' that 
provides significant recreation opportunities and has all of six listed 
amenities (parking, toilet, trashcan, interpretive signage, picnic 
tables, security). However, it prohibits the collection of fees for 
general access, parking, and traveling through lands and waters without 
using facilities and services, and also prohibits USFS, BLM and BOR 
from charging entrance fees. Thus, existing law is internally 
inconsistent about whether agencies can collect fees from a hiker using 
a trail within an area that has the six listed amenities if the hiker 
does not specifically use those amenities.
---------------------------------------------------------------------------
    \1\ Sherer v. U.S. Forest Service, 727 F. Supp. 2d 1080 (D. Colo. 
2010), U.S. v. Smith, 740 F. Supp. 2d 1111 (D. Ariz. 2010), Adams v. 
U.S. Forest Service, 671 F.3d 1138 (9th Cir. 2012).
---------------------------------------------------------------------------
    The discussion draft released by the subcommittee wisely abandons 
the use of ``special amenity recreation fees'' in favor of a simplified 
``day use'' fee structure. It also revises the list of prohibitions on 
day use fees in a way that appears to resolve the inherent ambiguity 
described above.
    Unfortunately, the discussion draft would allow agencies to charge 
fees in locations where we believe fees are inappropriate. We also 
think that agencies should be required to provide more documentation 
when they decide to establish a fee site.

1. Day Use Fees in the Discussion Draft

    a. National Volcanic Monuments and National Conservation Areas

    Existing FLREA and the discussion draft broadly authorize fees at 
all National Conservation Areas (NCA) and National Volcanic Monuments 
(NVM). Some of these sites have little or no amenities. In those 
instances, charging a fee is not warranted.
    In the past, the agencies' authority to charge fees at NCAs and 
NVMs has been cited as a reason why areas eligible for these 
designations should not be so designated. When that happens, fees that 
are intended to assist agencies in their efforts to conserve and 
maintain these places have the perverse effect of preventing them from 
being protected.
    In managing monuments and conservation areas, agencies should be 
authorized to charge fees only in those areas that have developed 
amenities. The discussion draft's definition of ``sites of concentrated 
public use'' and ``areas of concentrated public use'' could be used as 
the basis for charging fees in these areas, subject to the 
modifications we recommend below. This would allow agencies to charge 
fees in monuments and conservation areas that have developed amenities, 
but would eliminate fees in other areas where fees are not justified.

    b. Sites of Concentrated Public Use

    Although the discussion draft addresses some of the ambiguities 
that exist in current law, the draft's definition of ``sites of 
concentrated public use'' is loose enough to allow the agencies to 
charge fees at locations that have minimal facilities, and for which 
there may be little or no public demand. In effect, an agency could 
charge a hiker a fee at a trailhead with a portable toilet, a trash 
can, and an interpretive sign.\2\ We believe this would encourage 
agencies to charge fees nearly everywhere on public lands, which 
undermines the goal of making America's public lands open and 
accessible to everyone.
---------------------------------------------------------------------------
    \2\ The Forest Service claims that there is ``routine presence of 
agency law enforcement'' everywhere on a National Forest. See Section 
804(a)(2)(D). Thus, the requirement that a site of concentrated public 
use have routine law enforcement is always satisfied, and therefore has 
no practical effect.
---------------------------------------------------------------------------
    We recommend two modifications to the definition of ``sites of 
concentrated public us'' to limit the number of locations where fees 
are charged.


          i.   There should be a public demand for additional 
        facilities and amenities at the day use fee location. The 
        agency should be required to demonstrate that there is demand 
        for the facilities in order to impose the fee. See our 
        discussion of a fee area plan in Section 2 below.
          ii.  Fees should be limited to areas that have a permanently 
        installed toilet facility rather than a temporary one. Agencies 
        should not be authorized to drop a portable toilet at a 
        trailhead and begin charging a fee.

2. Public Notice and Comment Opportunities
    Under existing law, agency consultations with the public on when 
and where fees will be imposed and the amount of fees to be charged 
have not been effective. The Recreation Resource Advisory Committee 
review process prescribed by existing law does not provide consistent 
public oversight of the fee system.
    The public participation provisions in the discussion draft are a 
significant improvement. However, we believe the public notice and 
comment requirements for establishing day use fees should be more 
robust. In addition to the requirements in the discussion draft, we 
recommend that FLREA require agencies to produce a short fee area plan 
when they want to impose a new day use fee, and provide the public with 
an opportunity to comment on it. This fee area plan should include the 
following information:

  a.  A demonstration of public demand for additional facilities and 
            amenities at the day use fee location;
  b.  An inventory of the amenities in the area;
  c.  A description of the funding and maintenance needs of the area; 
            and
  d.  A brief explanation of how the fee revenue will be used.

    Requiring the agencies to produce these plans will establish a 
useful baseline and reference point for each agency decision to impose 
a fee, and provide the public with a basis for providing effective 
input on whether the fee should be imposed. We urge the committee to 
include this requirement in reauthorizing FLREA.
D. Fees Charged by Concessionaires
    Both existing law and the discussion draft authorize agencies to 
enter into fee management agreements with nongovernmental entities to 
facilitate fee collection and processing. However they do not explain 
how this authorization applies to concessionaires. There is ongoing 
litigation challenging the Forest Service's policy of entering into 
concession contracts that allow private companies to charge members of 
the public to use public lands.\3\ In the leading case, the plaintiffs 
assert that concessionaires are charging fees solely for the 
availability of amenities and services, and not limiting the fees to 
situations where those amenities are actually used, thereby subverting 
the intent of FLREA.\4\
---------------------------------------------------------------------------
    \3\ BARK v. U.S. Forest Service, Case No. 1:12-CV-01505 (D.D.C. 
2012).
    \4\ Id.
---------------------------------------------------------------------------
    In revising FLREA, the source of concessionaires' authority to 
charge fees should be clarified, and concessionaires should be subject 
to the same fee limitations as the agencies themselves. Likewise, the 
draft bill should require agencies and concessionaires to provide 
public participation opportunities when concessionaires plan to impose 
new fees.
E. Expenditures of Fee Revenues
    FLREA is ambiguous as to whether Standard Amenity Recreation Fee 
revenue can be used for trail maintenance, or instead must be used only 
to maintain the amenities (parking, toilet, trashcan, interpretive 
signage, picnic tables, security) for which the fees are collected. If 
limited to the amenities, FLREA revenue provides no relief for the 
significant trail maintenance backlog on the National Forests, a 
backlog that was recently documented by the Government Accountability 
Office.\5\ There is also concern that too much of the revenue is used 
for overhead and administrative costs, rather than for actual 
maintenance.
---------------------------------------------------------------------------
    \5\ Forest Service Trails; Long- and Short-Term Improvements Could 
Reduce Maintenance Backlog and Enhance System Sustainability, GAO-13-
618.
---------------------------------------------------------------------------
    The list of permissible expenditures in the discussion draft is 
essentially unchanged from existing law. Consequently, the ambiguity 
about the use of FLREA revenue for trail maintenance remains. We urge 
the committee to revise section 812(a)(3) to specifically authorize the 
use of FLREA revenue for trail maintenance costs anywhere on the unit 
in which the fees are collected. This will empower the agencies to use 
FLREA revenue to help address the trail maintenance backlog and make it 
easier for people to enjoy our public lands.
    Regarding overhead, the discussion draft limits overhead and 
administrative costs to 5 percent of total revenues. However, it then 
authorizes the use of up to 20 percent of total revenue for ``direct 
fee collection costs.'' When combined, this means that 25 percent of 
total revenue can be used for the costs of administering the fee 
collection system. This is a significant increase over the 15 percent 
authorized under existing law. The law should be written to encourage 
the agencies to keep administrative costs down and devote as much of 
the revenue as possible to maintenance and improvement of recreation 
facilities and trails. We urge the committee to preserve the 15 percent 
limit.
F. Stewardship Credits
    Section 807(d) would establish a pilot program for providing 
stewardship credits that would offset the fees owed by a special 
recreation permit holder when the permit holder agrees to provide 
maintenance and resource protection work on public lands. We support 
the development of a pilot program to test this idea.
    In some locations, special recreation permit holders provide 
important services on public lands that make these lands more 
accessible for average Americans. Currently, they provide this work on 
a voluntary basis, putting a strain on their small business operations. 
The pilot program would test the idea of giving these permit holders an 
additional incentive to undertake trail maintenance and other work on 
public lands. If the program includes appropriate safeguards, this 
could benefit the public by improving access.
    Section 807(d) builds in some safeguards to ensure that work is 
done by qualified personnel and in cooperation with local land 
managers. However, we believe these safeguards should be enhanced to 
ensure that the agencies see significant benefits from the fee credit 
system. We urge the following modifications.

  1.  Section 807(d) should more explicitly state that credits will 
            only be given for work that addresses the agency's 
            priorities, and then only when the work is done to minimum 
            agency standards.
  2.  Because agencies will receive less revenue under the pilot 
            program, Congress should require the agencies to include in 
            the report required by section 807(d)(2) an evaluation of 
            whether the pilot program has resulted in a net gain for 
            trails and facilities maintenance.
  3.   As currently written, the pilot program would continue even if 
            it is not producing net benefits. FLREA should authorize 
            agency managers to discontinue the pilot program if it is 
            not producing a net gain in trails and facilities 
            maintenance.

    With these modifications, we urge the committee to include this 
pilot program in the reauthorization of FLREA.
G. Reporting
    The reporting provisions in section 813 are a significant 
improvement over existing law, and we support them. In particular, we 
support the requirement that agencies produce annual reports on the use 
of fee revenue and make them available on their Web sites.
H. Sunsetting
    Section 820 would sunset the law after 5 years. We believe a 
duration of 10 years would be more appropriate and urge the 
subcommittee to revise the draft accordingly.
                            iii. conclusion
    We thank the subcommittee for the opportunity to share our views on 
the reauthorization of the Federal Lands Recreation Enhancement Act.

            Sincerely,
                                          Jeanette Stawski,
                                                Executive Director,
                   Association of Outdoor Recreation and Education,
                                                     Ann Arbor, MI.

                                             Justin Talbot,
                 Director of Wilderness Programs & Risk Management,
                                           High Mountain Institute,
                                                     Leadville, CO.

                                                 Lee Davis,
                                                Executive Director,
                                                       The Mazamas,
                                                      Portland, OR.

                                              Paul Sanford,
                                      Senior Recreation Specialist,
                                            The Wilderness Society,
                                                    Washington, DC.

                                 ______
                                 

   Coalition for Recreation Enhancement on Federal 
                                             Lands,
                                            Washington, DC,
                                                     April 3, 2014.
Hon. Rob Bishop, Chairman,
Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands, and Environmental Regulation
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    We are writing regarding the subcommittee hearing scheduled for 
Friday, April 4, 2014 and the consideration of Chairman Bishop's bill 
to amend the Federal Lands Recreation Enhancement Act (FLREA). We 
request that this communication be made part of that hearing record.
    We wish to convey our strong support for the reauthorization of 
FLREA. Federal lands visitor programs depend upon this authority. 
Further, we appreciate the work of the subcommittee to consider 
amendments to the current law, enacted in 2004. The recreation, 
conservation and tourism organizations signing this letter have 
developed a set of principles which we urge be reflected in the 
legislation on enhancing recreation on Federal lands you are now 
developing:


  1.  Federal recreation sites should be authorized to collect and 
            retain fees for entrance to parks and selected other areas 
            and for recreational services and visitor facilities 
            involving significant investments and operational costs.
  2.  Collected fees should be used principally at sites where the fees 
            were collected, serving those who paid the fees, and 
            collected fees should be spent within a reasonable amount 
            of time.
  3.  The U.S. Army Corps of Engineers, the largest single Federal 
            provider of recreation experiences, should be included 
            under FLREA to unify Federal fee programs and eliminate 
            current complications for visitors.
  4.  The Federal recreation fee collection process should be as 
            transparent as possible, allowing all interested parties 
            the chance to see annual information on fee collections and 
            use.
  5.  Expenses of fee collection are a legitimate use of fee revenues 
            but all efforts should be made to minimize these costs.
  6.  Federal recreation site fee efforts can and should be integrated 
            where possible with other fee collection programs, 
            including of other Federal sites and agencies and with 
            State recreation fees and licenses. State fee programs 
            should be encouraged which support recreation on Federal 
            lands--including trail programs. Models for this include 
            the Winter Park Passes in several northwestern States and 
            programs like the California ``green sticker'' program.
  7.  Public involvement in Federal recreation site fee programs is 
            vital. The first step is better notification of fee program 
            proposals. Notification of new and changed fees should be 
            made to all obviously affected organizations and local 
            citizens, and should also be made through: (1) the Federal 
            Register and (2) alerts to individuals and organizations 
            requesting notification through www.recreation.gov, 
            registering their interest in types of fees, geographical 
            regions, agencies and other appropriate categories. Formal 
            comment opportunities should be required and can include 
            Recreation Resources Advisory Committees and Resource 
            Advisory Committee requirements, but Congress should allow 
            the Forest Service and BLM to develop alternative public 
            involvement models, submitted to the appropriate 
            Congressional committees. The committees shall have not 
            less than 90 days to consider these proposals. A submitted 
            model may be disapproved by vote of either committee or by 
            a joint letter by the Chair and Ranking Member of one or 
            both of the committees.
  8.  Fee payment should be as convenient as possible to visitors. Use 
            of commonly used non-Federal payment systems, such as EZ-
            Pass and PayPal, should be tested. Prepayment of entrance 
            fees through inclusion in reservations for campsites, lodge 
            rooms and other reserved services, and by sales in gateway 
            communities, should also be encouraged.
  9.  Reauthorization of the Federal recreation fee program should be 
            for a minimum of 6 years and not more than 10 years.
  10. Fees collection by concessioners and third parties, including 
            other governmental agencies and organizations which operate 
            and maintain recreation services and facilities, should be 
            authorized.
  11. Fees for special recreation uses and events may be required but 
            should not unreasonably deter legitimate uses of Federal 
            recreation sites nor discourage partnerships with third-
            party organizations.
  12. Agencies that receive funds through FLREA are encouraged to fully 
            utilize Public Lands Corps Act authority to complete FLREA-
            funded projects that meet FLREA objectives such as 
            enhancing visitor services. Use of conservation corps on 
            these projects is likely to deliver lowered costs and will 
            provide jobs for local young people and veterans and 
            connect younger Americans with the Great Outdoors.

    There are other important issues which many of the undersigned 
organizations will address in testimony and other comments. We want to 
express our collective thanks to the committee and its leadership for 
your oversight of FLREA and your help in emphasizing the accountability 
of Federal agencies for full compliance with this law, nationally and 
locally.
    Over the last 10 years, we believe that FLREA has been a successful 
program that has provided critical funding for Federal lands. As a 
result, countless Americans have benefited. We thank you for your 
consideration of these principles and look forward to an ongoing dialog 
with you, other interested Members and your staff to craft broadly 
supported legislation that supports America's enjoyment of our Great 
Outdoors.

            Sincerely,
                                                        AAA
                American Council of Snowmobile Associations
                                     American Horse Council
                          American Motorcyclist Association
                              American Recreation Coalition
                          American Sportfishing Association
                                 Arizona Conservation Corps
                           Association of Marina Industries
                   Association of Partners for Public Lands
                                       BlueRibbon Coalition
                                          The Corps Network
                          Equine Land Conservation Resource
         International Snowmobile Manufacturers Association
               National Association of State Park Directors
                  National Marine Manufacturers Association
                      National Park Hospitality Association
                   National Recreation and Park Association
                             National Ski Areas Association
                                  National Tour Association
                               National Wildlife Federation
                               Outdoor Industry Association
                             Public Lands Service Coalition
                     Recreation Vehicle Dealers Association
                    Recreation Vehicle Industry Association
                              SnowSports Industries America
                Society of Outdoor Recreation Professionals
                                      Southeast Youth Corps
                               Southwest Conservation Corps
                           Student Conservation Association
                                             Tread Lightly!
                       United Four Wheel Drive Associations

                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 

                                ------                                


                            The Wilderness Society,

                                                    April 18, 2014.

Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

    Dear Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee:

    The Wilderness Society respectfully submits this supplemental 
statement for the record for the hearing on the Federal Lands 
Recreation Enhancement Act, 16 U.S.C. Sec. 6801 et seq., 118 Stat. 3377 
(Dec. 8, 2004) (``FLREA''). The FLREA hearing took place on April 4, 
2014. We have the following additional comments on the testimony 
provided at the hearing.
Limiting Agency Programming on Public Lands

    In reauthorizing FLREA, Congress should not limit the ability of 
the land management agencies and their staff to offer programs directly 
to the general public. Providing educational information and outdoor 
opportunities to Americans on the public lands that they own is a core 
function of the land management agencies, and it is entirely 
appropriate that the agencies be able to perform this function. Placing 
limits on this activity would eviscerate the role of the land 
management agencies, and excessively privatize agency functions. Agency 
staff should retain the ability to provide these services in places and 
activities that agency managers deem appropriate.
Statutory Standards For ``Extent Necessary'' Determinations

    During the hearing, it was suggested that Congress should pass 
legislation establishing a statutory standard for making ``extent 
necessary'' determinations for commercial activities in Wilderness. See 
section 4(d)(6) of the Wilderness Act, 16 U.S.C. Sec. 1133(d)(6). Any 
effort to codify a statutory standard for extent necessary 
determinations is beyond the scope of FLREA, and the subcommittee 
should not complicate the already complex process of reauthorizing 
FLREA by taking on this potentially controversial issue.
Streamlining the Permitting Process

    We agree that some streamlining of the special recreation 
permitting process is warranted, but urge the subcommittee to be 
cautious about how this is done in order to ensure that it does not 
significantly undermine the National Environmental Policy Act, 42 
U.S.C. Sec. 4321 et seq., 83 Stat. 852 (NEPA). Any recalibration of the 
application of NEPA to the permitting process should recognize that 
some environmental review of outfitter-guide decisionmaking is 
necessary and appropriate. Thus, the agencies' authority and obligation 
to perform this review should be preserved.
    If the subcommittee believes there should be increased use of 
categorical exclusions in the permitting process, the subcommittee 
should authorize the agencies to develop these exclusions. However, in 
doing so, the subcommittee should include a limiting principle that 
ensures that CEs are not used to authorize outfitting and guiding in 
all circumstances without any environmental review. Without a limiting 
principle, the agencies may be pressured to use CEs in situations where 
the authorized activity would have significant environmental impacts, 
and the use of a CE would be inappropriate.
Diversion of LWCF

    We oppose the use of the Land and Water Conservation Fund of 1965, 
16 U.S.C. Sec. 4321 et seq., 78 Stat. 897 (LWCF) for maintenance on 
public lands. LWCF has its own funding source, drawn mainly from annual 
OCS revenues that far exceed the amounts credited to the Fund. These 
revenues reflect a promise made to the many communities across America 
that rely on these resource lands, and on the conservation and 
recreation economies they support. They are essentially a capital 
account, to be reinvested in lands of lasting value to all Americans--
NOT an operating account to be diverted to annual upkeep needs.

    While the backlog of maintenance needs must be addressed, it is 
penny wise and pound foolish to divert resources away from the purchase 
of lands and easements, therefore neglecting current and future 
community needs. It is also important to maintain the intent of the 
original LWCF Act, which is to balance the depletion of one Federal 
asset by investing in another capital asset, in this case, the public 
lands and outdoor recreation infrastructure that benefits all 
Americans.
Conclusion

    We thank the subcommittee for the opportunity to share our views on 
the reauthorization of FLREA.

            Sincerely,

                                              Paul Sanford,
                                      Senior Recreation Specialist.

                                 [all]
</pre></body></html>
